<html>
<title> - CURRENT PUBLIC LANDS AND FORESTS BILLS</title>
<body><pre>[Senate Hearing 110-485]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-485
 
                 CURRENT PUBLIC LANDS AND FORESTS BILLS 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                              S. 570      S. 2124

                              S. 758      S. 2581

                              S. 1680     H.R. 1011

                              S. 2109     H.R. 1311
                                      

                               __________

                             APRIL 15, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

44-238 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 










































               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee






































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     2
Barrasso, Hon. John, U.S. Senator From Wyoming...................     5
Bisson, Henri, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................    27
Bono Mack, Hon. Mary, U.S. Representative From California........     4
Boxer, Hon. Barbara, U.S. Senator From California................     5
Daly, Elena, Director, National Landscape Conservation System, 
  Bureau of Land Management, Department of the Interior..........    23
Ensign, Hon. John, U.S. Senator From Nevada......................     2
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    15
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................    11
Murray, James, President, Virginia Wilderness Committee, 
  Charlottesville, VA............................................    35
Senner, Stanley, Executive Director, Audubon Alaska, Anchorage, 
  AK.............................................................    37
Trumble, Della, Agdaagux Tribe, King Cove, AK....................    44
Warner, Hon. John, U.S. Senator From Virginia....................     8
Webb, Hon. Jim, U.S. Senator From Virginia.......................     8
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    55

                              Appendix II

Additional material submitted for the record.....................    61


                       CURRENT PUBLIC LANDS AND 
                             FORESTS BILLS

                              ----------                              


                        TUESDAY, APRIL 15, 2008

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, at 2:30 p.m. in room SD-366, Dirksen 
Senate Office Building, Hon. Ron Wyden presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. This committee will come to order. There are 
several wilderness bills and other public land measures. They 
include S. 580 and H.R. 1101 to designate national forest lands 
in Virginia as wilderness, S. 758 and H.R. 1311 to direct the 
Secretary of the Interior to convey certain lands in Las Vegas 
to the Nevada Cancer Institute, S. 1680 to provide for a land 
exchange in the Izembek National Wildlife Refuge in Alaska, S. 
2109 to designate certain Federal lands in Riverside County, 
California, as wilderness, S. 2124 to direct the Secretary of 
Agriculture to convey certain lands to Jefferson County, 
Montana, for use as a cemetery, and S. 2181 to designate 
certain lands in the Monongahela National Forest in the State 
of West Virginia.
    Although wilderness bills can certainly be contentious, my 
understanding is that the Virginia, West Virginia, and 
California bills have relatively few outstanding issues, and my 
sense is one of the reasons that is the case is our two very 
able colleagues, Chairwoman Boxer and Senator Warner, have been 
putting in very important and very thoughtful work on their 
legislation.
    The Administration has raised a number of concerns with 
some of the proposed boundaries. It's our intent to work very 
closely with them and the Senators to address the nonstandard 
wilderness management language contained in some of the bills 
and it's our hope that we will be successful with Chairwoman 
Boxer and Senator Warner very quickly on their legislation.
    The other bill relating to wilderness is Senator 
Murkowski's legislation to provide for a land exchange between 
the U.S. Fish and Wildlife Service, State of Alaska, and the 
King Cove Corporation to allow for construction of a road 
through an area currently designated as wilderness in the 
Izembek National Wildlife Refuge, to provide for on-the-ground 
access to King communities of King Cove and Cold Bay.
    The legislation also provides for additional land to be 
added to the wildlife refuge and designated as wilderness in 
exchange for the lands transferred out of Federal ownership.
    I certainly understand Senator Murkowski's desire to be 
responsive to folks in King Cove and I would note that we're 
going to work very closely with her to deal with a number of 
the issues raised by the bill. Concerns have been raised about 
adverse impacts to the wildlife in the area from the new road 
and accompanying vehicle use in the area.
    The Administration's testimony recommends that the bill be 
amended to comply with the National Environmental Policy Act 
which could be one way to answer some of the questions raised 
by the bill and it's going to be helpful this afternoon to hear 
the views of other witnesses who will be testifying on this 
bill.
    My thought was that it did make sense to hold this hearing, 
particularly with Senator Boxer and Senator Warner able to 
testify, so that the subcommittee could be able to get into the 
issues in the case of Senator Murkowski's legislation to better 
understand the issues involved with the proposed exchange and 
the potential effect on the wildlife refuge and the local 
communities.
    We're going to have our two Senators testify, but first I'd 
like to recognize Senator Barrasso, the ranking member of the 
subcommittee, for any comments he'd like to make.
    [The prepared statements of Senators Akaka, Ensign, and 
Representative Bono Mack follow:]
 Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator From Hawaii, 
                               on S. 1680
    Thank you, Chairman Wyden and Ranking Member Barrasso for holding 
this hearing on the various bills before the Subcommittee.
    Today, I am particularly interested in S.1680, legislation 
introduced by Senator Murkowski and cosponsored by Senator Stevens that 
would benefit one of Alaska's most isolated regions. The legislation 
would add 61,000 acres to the Izembek and Alaska Peninsula wildlife 
refuges in exchange for allowing the State of Alaska to build a small, 
one-lane gravel road through the edge of the Izembek refuge.
    As I did a decade ago when this issue came before the Committee on 
Energy and Natural Resources, I believe that the 800 residents of King 
Cove, most of which are native Aleut deserve a means of transport that 
is accessible under all weather conditions, including gale force winds 
and fog. Building a road would provide dependable and safe year-round 
access for the residents of King Cove to the nearby Cold Bay airport. 
This will go a long way to alleviate the community's many safety, 
health, and medical concerns as the Cold Bay airport permits flights to 
Anchorage without regard to operational weather limits.
    In addition to providing an essential passageway for this 
community, the enhanced bill before us has other favorable provisions. 
These include authorizing tens of thousands of acres of pristine land 
going into wilderness status, as well as efforts to support and 
strengthen environmental safeguards. Given the aforementioned, I 
continue to support this bill.
    Thank you for holding these hearings, Mr. Chairman. I look forward 
to working with you on S. 1680 and the other measures being considered 
today.
                                 ______
                                 
Prepared Statement of Hon. John Ensign, U.S. Senator From Nevada, on S. 
                           758 and H.R. 1311
    Chairman Wyden, Ranking Member Barrasso, Members of the Committee: 
Thank you very much for scheduling this hearing and allowing me to 
submit my comments concerning this important piece of legislation.
    Mr. Chairman, my bill, which is cosponsored by Senator Harry Reid, 
would allow approximately 80 acres of Bureau of Land Management (BLM) 
land to be conveyed to the Nevada Cancer Institute (NVCI) for 
development of the Institute and to the city of Las Vegas for 
development of additional medical facilities consistent with the 
mission of the NVCI.
    Congresswoman Shelley Berkley introduced a companion to this 
legislation, H.R. 1311, which was passed by the House on March 4, 2008, 
by a vote of 377-0 with 51 not voting. I applaud Congresswoman Berkley 
for her efforts in getting this legislation passed, and I am hopeful 
that my Senate colleagues will take up the House measure and send it to 
the President.
    NVCI is committed to research, saving lives, and helping cancer 
patients across Nevada. By bringing together experts and community 
leaders, the NVCI is helping cancer patients and their families every 
day with critical treatment and research techniques. This legislation 
will go a long way toward helping NVCI focus resources on research and 
patient care. While this legislation is specifically about land 
conveyance, Mr. Chairman, I must be clear: this legislation is really 
about saving lives.
    As our state population grows, it is important that we continue to 
attract the best and brightest physicians and researchers in order to 
provide excellent medical care. During my time in public office, 
supporting efforts to further enhance cancer research, detection, and 
treatment has always been one of my top priorities. Historically, 
Nevada has struggled to maintain a competitive edge in the cancer 
research community, and it is my hope that this bill will enable Nevada 
to become a leader in cancer research.
    The NVCI cannot unilaterally achieve this goal. In order to become 
one of the nation's premier research centers, all of the Nevada 
hospital systems and research facilities will need to work together for 
the benefit of our community. This bill provides an exciting 
opportunity for our state to become a leader in cancer research, and it 
is my hope that this Committee can support Senator Reid's and my 
efforts by promptly passing this important legislation.
    Mr. Chairman, I would like to provide you and the Committee some 
history of the development of this legislation and identify the public 
good that will come out of this conveyance.
    The city of Las Vegas approached the Nevada congressional 
delegation several years ago to seek assistance in acquiring an 80-acre 
parcel of undeveloped land near the corner of Alta Drive and Hualapai 
Way. The land is owned by the federal government, but it has been 
effectively managed by the city for over 40 years under a Recreation 
and Public Purpose Act (R&PP) lease that dates back to the 
establishment of Angel Park. The current lease permits the city to use 
the Alta-Hualapai site exclusively for recreational purposes. The city 
would like to acquire the site from BLM for expansion of the NCVI and 
related economic development opportunities.
    The city's concept for the Alta-Hualapai site calls for coordinated 
development, creation of parks and open space, preservation of flood 
control channels, and the creation of economic development 
opportunities that are consistent with the mission of the Nevada Cancer 
Institute, that will benefit the entire region. The Nevada Cancer 
Institute Expansion Act, S. 758, enables the city's development concept 
by transferring the Alta-Hualapai site from BLM to the city for the 
purpose of developing a nonprofit cancer treatment facility, ancillary 
commercial projects, an adjacent park, a flood control project, and a 
water pumping facility. The city requested a legislative transfer of 
the land because it did not believe that a competitive sale of this 
parcel by BLM would yield results compatible with its development 
concept. The City Council approved a memorandum of understanding with 
the NVCI on December 21, 2005, and this agreement forms the basis of 
the development concept authorized by the legislation.
    H.R. 1311 / S. 758 authorizes the conveyance of a portion of the 
Alta-Hualapai site to NVCI at no cost to facilitate the development of 
a cancer treatment facility. In this respect, the legislation is 
similar to the R&PP Act, which affords nonprofit entities the ability 
to acquire BLM land in the Las Vegas valley at little or no cost for 
the purpose of providing facilities or services for the benefit of the 
public in connection with public health, safety, or welfare. The 
federal government's donation of this land is consistent with federal 
support of cancer research and care.
    The R&PP Act has been used for decades in Nevada by nonprofit 
corporations and governmental entities as a means of acquiring federal 
land at little or no cost. Due to the multiple uses envisioned for the 
Alta-Hualapai site, however, we agreed with the city that special 
legislation was needed to ensure that the city has sufficient authority 
to manage development of the site. The city has informed us that NVCI 
must still obtain the necessary zoning and use approval from the city 
prior to any facility being constructed. However, I am confident that 
the partnership between the city and the NVCI can yield a successful 
project and will be a benefit to the public good.
    Additionally, this legislation allows for the remainder of the 80-
acre Alta-Hualapai site to be conveyed to the city of Las Vegas for 
ancillary medical offices or nonprofit use compatible with the mission 
of the Nevada Cancer Institute. Any further conveyance of land by the 
city of Las Vegas for these purposes would be at full market value with 
proceeds deposited in the special account set up under the Southern 
Nevada Public Lands Management Act. A conveyance of this nature is 
permissible under the Southern Nevada Public Lands Management Act. 
While the BLM might prefer to see this land sold at auction or through 
a modified competitive sale, I believe this transfer would provide a 
tremendous benefit to the community and would provide a fair return to 
the taxpayer. The 80-acre parcel of land that we discuss in this 
legislation is surrounded by mostly residential development, which 
presents challenges with respect to disposal and further development. I 
commend the city of Las Vegas for devising this innovative solution and 
hope that Congress will give it every consideration.
    Mr. Chairman, I believe that this project is important not only to 
the over 100,000 newly diagnosed cancer patients in my state but also 
to the nation as a whole. With the passage of this legislation, I am 
confident that the NVCI can attract top-quality doctors and researchers 
with the objective of finding new and exciting breakthroughs to this 
debilitating and life-threatening disease. I urge this Committee to 
pass this important legislation for the good of Nevadans and for all 
Americans.
                                 ______
                                 
  Prepared Statement of Hon. Mary Bono Mack, U.S. Representative From 
                         California, on S. 2109
    Good afternoon Chairman Wyden, Ranking Member Craig, and Members of 
the Subcommittee, I would like to thank you for the opportunity to 
provide a statement on S. 2109, the California Desert and Mountain 
Heritage Act. Last year, I introduced H.R. 3682, which mirrors this 
legislation being heard today. I also offered similar legislation in 
the 109th Congress, and it is my hope that today's hearing will convey 
the hard work undertaken in refining and improving this bill.
    I would like to emphasize at the outset that I am pleased to have 
worked closely with Senator Boxer on getting to this point, as without 
a strong bicameral effort through continual cooperation, we wouldn't 
have been able to see such rapid results.
    In simple terms known well by this Subcommittee, S. 2109 and H.R. 
3682 designate new and expand existing wilderness, along with four Wild 
and Scenic Rivers. Additionally, the bills include a small expansion of 
the Santa Rosa and San Jacinto Mountains National Monument.
    One highly visited area of my district is Joshua Tree National 
Park, which will bring under its umbrella new lands designated as 
wilderness that will enhance the protection of the Joshua tree, which 
is immediately recognizable to so many, along with many other plant and 
animal species.
    Looking beyond the Park, there are other proposed wilderness lands 
in the eastern half of my district. These areas are an impressive 
example of our continually changing landscape, as the San Andreas Fault 
quite literally cuts through the region, creating unique peaks and 
views of the nearby Salton Sea.
    The western half of my Congressional district brings with it a 
different landscape, one that is dominated by the unique rock 
formations of Beauty Mountain, and transitioning to groves of oak and 
fir trees in the South Fork San Jacinto River Canyon area. These 
forests are part of an ecosystem that is also covered in chaparral, 
making the region highly prone to devastating fires.
    As we saw just last year, when one combines the chaparral that is 
dry and dense with the Santa Ana winds, the fires spread with 
incredible pace, evidenced in the half-million acres recently lost 
throughout Southern California. With Riverside County's recent drought 
designation, it is clear to me that we are fortunate to have avoided 
another event on the scale of the Esperanza fire in my district last 
year, one that took the lives of five brave firefighters.
    Because of the difficult circumstances facing the Forest Service 
Supervisors in this area, Senator Boxer and I agreed to build into our 
respective legislation what we see as a unique but necessary approach 
that will hopefully empower the local decision-makers, protect vital 
funding for fuels management, and allow for the tools needed to keep 
the area safe. The input provided by my local residents was important 
to crafting sound, thoughtful language.
    This subcommittee understands well just what sort of detailed 
efforts can go into talking to residents about these wilderness 
proposals. Efforts in this vein will continue and have already resulted 
in the support of the nearby County Supervisors, State Legislators, and 
municipal governments. These locals have spent years of their own time 
putting together the Coachella Valley Multiple Species Habitat 
Conservation Plan, and this federal effort is consistent with this 
important proposal.
    Thank you again, Mr. Chairman and Ranking Member, for providing the 
time for a hearing on this legislation so that we can better recognize 
the benefits of this legislation as well as any challenges that remain. 
I look forward to working closely with this legislation's Senate 
sponsor, Senator Boxer, as well as Senator Feinstein as we move the 
bill toward enactment.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I 
appreciate you holding this hearing, and I want to welcome, add 
to your welcome for Senator Warner and Senator Boxer. I know 
you have bills that are very important to you, and I want to 
work closely with you to make sure we can get them through with 
any concerns others might have. So, I'm very much looking 
forward to working with both of you.
    I want to thank the Administration folks for being here to 
testify as well as public officials and with that, Mr. 
Chairman, look forward to the hearing.
    Senator Wyden. We have two friends here and both of them 
have hectic schedules. Can we ask you two to mediate who will 
go first? The Senate at its very best and most bipartisan.
    Senator Boxer, welcome.

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. Yes, it is so good to be here with you, 
Chairman Wyden, with the Ranking Member Barrosso, and thank you 
for the tone you sent. Nice to see Senator Murkowski and, of 
course, sitting next to one of my heroes in life, John Warner. 
It's a pleasure to be here.
    I also thank you for allowing me to go first. I've got two 
things happening, a hearing on EPW and a bill on the Floor on 
technical corrections. So, thank you for your understanding.
    What I'm excited about is that you're considering a great 
bipartisan bill, the California Desert Mountain Heritage Act. 
Working with my colleagues and in particular Representative 
Mary Bono Mack and Senator Diane Feinstein, we've put together 
a bill that protects some of the last wild places in Riverside 
County which is one of the fastest-growing counties in 
California, and I would ask unanimous consent that 
Congresswoman Bono Mack's testimony be made part of the record.
    Senator Wyden. Without objection, it will be ordered.
    Senator Boxer. I won't be speaking very long but I will be 
showing you some photos because I couldn't possibly describe 
what you're about to see.
    My bill would create four new wilderness areas and expand 
six existing wilderness areas, including the Joshua Tree 
National Park Wilderness and Jeff will show everybody, I hope 
you can see, some of the beauty. It's hard with the light 
behind you, but you can see some of it. Do you have any others? 
This is more of the beautiful wildflowers growing in the 
desert. People say desert and they don't think about it quite 
in such a way. Any other photos from Joshua Tree? More 
beautiful wildflowers, the mountains and trees growing. 
Anything else from there? How many? That's it. OK.
    It would designate segments of four rivers as wild and 
scenic and we'll show you the North Fork of San Jacinto Creek 
and also magnificent pictures here and add four parcels to the 
Santa Rosa and San Jacinto Mountains National Monument.
    The total scope of this proposal is slightly more than 
200,000 acres of Federal lands and 31 miles of rivers. The 
included areas represent the incredible diversity of Southern 
California, ranging from the sandy pristine deserts of the 
McCoy Wash, McCoy and Oracopia Region, Oracopia and Cahuilla, 
Cahuilla to the pine-covered flanks of Santa Rosa Peak, and 
this is the peak.
    These are truly magnificent places which deserve to be 
passed on to future generations of Americans. I say to all of 
you that I now live a lot closer to these mountains and you 
really have a spiritual feeling and you just know you're just a 
little speck and there's a lot more to the universe when you 
get out into these areas.
    As stunningly beautiful as these places are, there is so 
many other reasons to protect them, to provide critically 
important habitat for a multitude of wildlife and plants, many 
of which are found nowhere else on earth, Mr. Chairman.
    The big-horned sheep, the desert tortoise, the mule deer, 
the mountain lion and bald eagle are all found in areas 
protected by this bill, and these areas also provide much-
needed clean water for nearby communities. The high desert 
mountains receive more precipitation than the surrounding 
landscape and flow via rivers and streams to the municipal 
water supply.
    By protecting these areas, we're also protecting the 
region's water supply and I don't have to tell you that in arid 
Southern California, this is tremendously important.
    Additionally, with nearly one in every $10 earned in 
Riverside tied to recreation and tourism, protecting these 
areas is really--will give lasting economic benefit to our 
region. It will increase property values. It will make outdoor 
recreation opportunities visible. It will attract birdwatchers, 
hikers, campers, fishermen and other visitors.
    And the last point I want to make is the bipartisanship of 
this bill. We have such diverse support. I mentioned 
Congressman Bono Mack and we both engaged at the local 
communities to build support for our proposal and, by the way, 
these conversations have led to important boundary and 
administrative changes which has added depth to our bipartisan 
support.
    I'll just name a couple of the supporters. The city of 29 
Palms, the city of Coachella, June Batten, California State 
Senator, a Republican, John Van Tran, California State 
Assemblyman, Republican, Jeff Stone, Riverside County 
Supervisor, Roy Wilson, Riverside County Supervisor, the Agua 
Caliente Band of Cahuilla Indians, Palm Springs Chamber of 
Commerce, Yucca Valley Chamber of Commerce, International 
Mountain Bike Association, Offroad Business Association. The 
list goes on and on.
    I ask unanimous consent to put the rest of my statement in 
for the record and just say to all of you I think we've really 
run the traps on this one. I think this one has such strong 
support and we're excited at the prospect of getting a vote on 
this.
    Thank you very much.
    [The prepared statement of Senator Boxer follows:]
 Prepared Statement of Hon. Barbara Boxer, U.S. Senator From California
    Chairman Wyden, Ranking Member Barrasso, and Members of the 
subcommittee, thank you for providing this opportunity to consider a 
great bipartisan bill the California Desert and Mountain Heritage Act, 
and for giving me the opportunity to testify on its behalf.
    Working with my colleagues, Representative Mary Bono Mack, who 
represents the areas included in this bill, and Senator Dianne 
Feinstein, my Senate cosponsor, I have put together a bill that 
protects some of the last wild places in Riverside County, one of the 
fastest growing counties in California.
    And colleagues, the places are truly spectacular. I would like to 
take the next few minutes and demonstrate just how truly special and 
wild these areas of Riverside County California are.
    My bill would create four new wilderness areas and expand six 
existing wilderness areas including the Joshua Tree National Park 
Wilderness CHARTS--JOSHUA TREE WILDERNESS AREA.
    It would designate segments of four rivers as wild and scenic 
CHART--NORTH FORK SAN JACINTO CREEK, and add four parcels to the Santa 
Rosa and San Jacinto Mountains National Monument.
    The total scope of this proposal is slightly more than 200,000 
acres of federal lands and 31 miles of rivers.
    The included areas represent the incredible diversity of southern 
California, ranging from the sandy, pristine deserts of the McCoy Wash 
CHART--MCCOY and Orocopia region CHART--OROCOPIA and Chuckwalla CHART--
CHUCKWALLA, to the pine-covered flanks of Santa Rosa Peak CHART--SANTA 
ROSA PEAK.
    These are truly magnificent places which deserve to be passed on to 
future generations of Americans. As stunningly beautiful as these 
places are, there are so many other reasons to protect them.
    They provide critically important habitat for a multitude of 
wildlife and plants, many of which are found nowhere else on earth. 
Peninsular bighorn sheep, desert tortoise, mule deer, mountain lion, 
and bald eagles are all found in areas protected by this bill.
    These areas also provide much needed clean water for nearby 
communities. The high desert mountains receive more precipitation than 
the surrounding landscape and flow, via rivers and streams, to 
municipal water supplies. By protecting these areas, we are also 
protecting a region's water supply--I don't have to tell you that in 
arid southern California, this is tremendously important.
    Additionally, with nearly one in every ten dollars earned in 
Riverside County tied to recreation and tourism, protecting these areas 
would also provide lasting economic benefit to the region by increasing 
nearby property values, making outdoor recreation opportunities more 
visible, and attracting more birdwatchers, hikers, campers, fishermen 
and other visitors.
    I also want to highlight another important aspect of this bill--its 
broad, bipartisan, and diverse support from the local communities. Over 
the past several years, Congresswoman Bono Mack and I have engaged the 
local communities to build support for our proposal and develop 
solutions to their concerns.
    These conversations have led to important boundary and 
administrative changes that have contributed dramatically to the bill's 
backing. I will submit these letters of support for the record but, 
just to give you a sense of the depth of bipartisan support, let me 
highlight a few.

  <bullet> City of Twenty-nine Palms
  <bullet> City of Coachella
  <bullet> Jim Battin, Jr., California State Senator (Republican)
  <bullet> John Benoit, California State Assemblyman (Republican)
  <bullet> Jeff Stone, Riverside County Supervisor
  <bullet> Roy Wilson, Riverside County Supervisor
  <bullet> Agua Caliente Band of Cahuilla Indians
  <bullet> Palm Springs Chamber of Commerce
  <bullet> Yucca Valley Chamber of Commerce
  <bullet> International Mountain Bike Association
  <bullet> Off-Road Business Association

    The list goes on and on and includes scientists, equestrians, small 
business owners, outdoor educators, conservation organizations, 
realtors, and outfitters.
    I hope that these pictures have demonstrated just how special these 
places are and why Representative Bono Mack and I have worked so hard 
over the years to conserve them.
    Thank you again for this opportunity to testify on this bill, and I 
look forward to working with you and Chairman Bingaman and Ranking 
Member Domenici to move this bill forward.

    Senator Wyden. Without objection, we will put your entire 
statement into the record, and it is very evident, Senator 
Boxer, that you have toiled long and well to bring together all 
of those various groups and knowing particularly the mountain 
bikers' interest in this kind of issue, we see that in Oregon, 
and I'm especially glad you've included them.
    I don't have any questions for you. The staff will follow 
up with your staff on a handful of issues that go to some of 
the boundary questions, but you've done very good work.
    I think my intention now is to see if Senator Barrasso or 
Senator Murkowski have any questions. I don't think they do. 
We'll excuse you. I think, if it's acceptable, Senator 
Murkowski, let's hear from Senator Warner, who has also done 
very good work to try to bring together all the interests in 
Virginia.
    We'll hear from Senator Warner and then I'll recognize 
Senator Murkowski for an opening statement.
    Senator Boxer, well done.
    Senator Warner. Let's have Senator Murkowski proceed with 
her opening statement and then I'll be happy to speak.
    Senator Murkowski. Mr. Chairman, I'm happy to defer to 
Senator Warner, unless he would like to be educated about the 
Izembek National Refuge, and I would be happy to do that, but 
in the interest of time and out of respect to my senior 
colleague, I will defer to him.
    Senator Wyden. It is a deferral contest and you will go 
first, Senator Warner.

          STATEMENT OF HON. JOHN WARNER, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Warner. I think all of this expression of 
friendship and collegiality here is a consequence of the 
distinguished occupant of the chair who is noted here in the 
Senate.
    [Laughter.]
    Senator Warner. I don't know of anyone that expresses 
greater unilateral----
    Senator Wyden. Comes from the W in the alphabet.
    Senator Warner. That's true, and our good friend Senator 
Boxer.
    Thank you, members of the committee. First, I'm just going 
to put a statement in. I would want to make just a little 
comment or two of my own.
    This is called the Virginia Ridge and Valley Act of 2007 
and Senator Webb and I are jointly putting it in. I ask 
unanimous consent that my statement be followed by his in the 
record today.
    Senator Wyden. Without objection, so ordered.
    [The prepared statements of Senators Webb and Warner 
follow:]
    Prepared Statement of Hon. Jim Webb, U.S. Senator From Virginia
    Good afternoon Chairman Bingaman, Ranking Member Domenici and 
members of the Committee. I would like to thank you for holding a 
hearing on this important matter. I am proud to join with my colleague, 
Senator Warner, in supporting the Virginia Ridge and Valley Act (S. 
570). The Virginia Ridge and Valley Act would designate nearly 43,000 
acres of the Jefferson National Forest as wilderness or wilderness 
study areas. In addition, the legislation would designate more than 
10,000 acres of the Jefferson National Forest as National Scenic Areas. 
If enacted, this bill would create new Wilderness Areas, new National 
Scenic Areas and would expand six existing Wilderness Areas in portions 
of Bland, Craig, Grayson, Giles, Lee, Montgomery and Smyth Counties, 
Virginia within the Jefferson National Forest.
    Virginia is fortunate to have such an abundant supply of pristine 
lands. The ridges and valleys of western Virginia are an integral part 
of the lives of its inhabitants and our state's shared heritage and the 
protection of these lands will preserve them for future generations to 
enjoy. Our children and grandchildren will be able to experience the 
same untouched landscapes their ancestors experienced for generations 
before.
    The bill will also help promote ecotourism in Southwest Virginia. 
Tourism is one of the fastest growing industries in Southwest Virginia 
and the designation of these wilderness and scenic areas within the 
region will support increased tourism and outdoor recreational 
opportunities. The areas under consideration will provide opportunities 
for solitude and wilderness recreation including hiking, hunting, 
fishing, camping, rock climbing, canoeing, backpacking, horseback 
riding and many other outdoor activities which are enjoyed by local 
residents and visitors alike.
    I would note that a similar bi-partisan measure, H.R. 1011, was 
approved by the House of Representatives in October of last year under 
the leadership of Congressman Rick Boucher. Congressman Boucher worked 
diligently with his colleagues in the Virginia delegation, the House 
and the Forest Service to pass this important piece of legislation. It 
enjoys the support of Congressmen Frank Wolf, Tom Davis, Jim Moran and 
Bobby Scott, as well as the late Congresswoman Jo Ann Davis. The 
legislation also been endorsed by Virginia Governor Tim Kaine and a 
broad range of local communities, local businesses, tourism 
organizations, and conservation groups.
    I thank the Committee for holding a hearing on the Virginia Ridge 
and Valley Act and I look forward to working with you to secure its 
expeditious passage.
                                 ______
                                 
   Prepared Statement of Hon. John Warner, U.S. Senator From Virginia
    Chairman Wyden, Ranking Member Barasso, I thank you for holding 
this hearing today regarding the Virginia Ridge and Valley Act of 2007 
(S.570/H.R.1011). I have worked closely on this bi-partisan bill with 
my colleagues, Senator Jim Webb (D-VA), and Congressman Rick Boucher 
(D-VA-9), who has championed this legislation in the House of 
Representatives. I thank both of them for their tremendous efforts.
    I also want to thank Dr. Jim Murray for his willingness to come to 
Washington and testify on behalf of this bill. His long time efforts to 
promote wilderness in Virginia are much appreciated, and I am proud to 
know that a man with ties to Washington and Lee University and the 
University of Virginia, two institutions for which I have a particular 
pride, is advocating for such a worthy cause.
    As you know, the Virginia Ridge and Valley Act seeks to add six new 
wilderness areas, expand six existing wilderness areas, and create two 
new national scenic areas in the Jefferson National Forest in Southwest 
Virginia. I am pleased that this legislation enjoys the support of many 
local governments, organizations, businesses, tourism groups, and 
elected officials. Virginia's Governor, Tim Kaine, has endorsed this 
legislation as well.
    While I am aware that the U.S. Forest Service supports some but not 
all of these designations, I, as an alumni of the Forest Service from 
1943, am confident that the Forest Service will continue to work with 
us on this legislation so that it may move quickly in the Senate. 
Certainly a bill that enjoys so much local support, and I will submit a 
list of endorsers for the record, should move swiftly.
    I am proud to say that Virginia boasts just over 100,000 acres of 
designated wilderness lands today. It has been my privilege to work on 
behalf of many of these areas over my nearly 30 years in the Senate. 
However, there is still much work to be done. If enacted, the Virginia 
Ridge and Valley Act of 2007 will substantially increase this figure by 
expanding our opportunities for uninterrupted enjoyment in the forest 
with the addition of nearly 43,000 acres of new wilderness and 
wilderness study lands and almost 12,000 acres of national scenic 
areas.
    As an avid outdoorsman, I enjoy opportunities for recreation like 
most Americans. Therefore, I want to stress the many joyful outdoor 
activities that will be enhanced by the wilderness designation in these 
areas, including: hunting, fishing, hiking, camping, canoeing, and 
horseback riding, to name a few. By designating these lands as 
wilderness and scenic areas, we ensure that Virginians will be able to 
enjoy these activities in an unspoiled playground for generations to 
come.
    Thank you for this opportunity to speak on behalf of the Virginia 
Ridge and Valley Act of 2007. It is my hope to see this important 
legislation become law before my last term in the U.S. Senate is over.

    Senator Warner. Then we have Congressman Rick Boucher who's 
in this district in Virginia, and I'm finishing up 30 years 
here and I think Rick has got well over 20 years in the Senate 
and one thing about it, this man, he is noted for his hard work 
and his thoroughness with which he does things.
    I'm pleased to say that our staffs and others have 
carefully gone to all of the--just call it the political 
entities involved, the Boards of Supervisors, the town councils 
in all the areas down there, and so far as I know, there's not 
a word of dissent within that very important structure of 
elected individual public servants who try to administer their 
respective areas in the best interests of their citizens and 
the State.
    Now, the national forests, it's the Jefferson National 
Forest, is one of the oldest, and I looked up in preparation 
for this statement, there's a 100,000 acres total in all 
through Virginia and there was only one of the wilderness areas 
put in before I came to the Senate. So, I've had the privilege 
and I underline the privilege to work on almost, I guess, all 
of the 100,000, save that one small piece, in my years up here, 
many years of serving on this committee, as a matter of fact.
    I just think it's one of the noblest things that members of 
congress can do for the future generations, is to set aside 
these areas while they can still be done. Now this one is 
fairly large. It's around 43,000 acres and I want to introduce 
Mr. Murray right here. Would you stand a minute? This 
gentleman, I believe you're going to testify, aren't you?
    Here's a man who's the father of the whole system for all 
these years and he's served many years in the Forest Service. 
Now I'm going to go into some greater detail right away about 
the concerns of the Forest Service. I respect them.
    As I understand, there are just certain areas that they 
have some reservation about, but I want to bring to the 
attention and put in the record in 1943, I wouldn't doubt 
that's before everybody in the Forest Service in this room was 
born, I went out West to work in Idaho as a fire-fighter with 
the U.S. Forest Service and thanks to Senator Craig, he 
arranged for me to go back up way into the mountains to find 
the remnants of the old camp that we had in the Summer of 1943 
and we operated with broken down Army trucks and mules but we 
did a good job and we only had crosscut saws and double-ended 
axes and we managed pretty well.
    So, I would hope the Forest Service wouldn't too vigorously 
oppose the actions of one of their alumni but let's hear what 
they have to say.
    I think, Mr. Chairman, that I have pretty well covered any 
of the major areas of this wonderful statement which I think 
the bulk will be put into the record with a few technical 
changes, and I thank the distinguished members of this 
committee, and if there are no questions for this humble 
Senator, I'll absent myself.
    Senator Wyden. Senator Warner, I want to only say that your 
interest in natural resources is longstanding. I've been very 
much aware of it and I don't want to make this a bouquet-
tossing contest, but you have done so much good work in this 
area and others. We're going to do everything we can to 
expedite your legislation.
    There are some, as I understand it from the Administration, 
some questions about this aspect of the boundaries or that 
aspect of the boundaries, but we're going to work very quickly 
to get this resolved and I think this is another example of 
your extraordinary service to the people of Virginia and the 
people of our country.
    Senator Warner. I thank you, Mr. Chairman. If I could just 
take one other minute, people ask me why I've taken an interest 
in this global climate change issue. It was on that trip, I 
told my friend Senator Craig that I went back and visited the 
mountains and the hills and the streams that I knew in 1943 and 
the damage today to that forest, not by man but by climatic 
changes which enabled the bee population to treble and eat up 
the trees, I could see visibly in those streams and areas which 
is still undeveloped, it's so far up in the wilderness, not 
wilderness but the areas of the State, I just barely was able 
to recognize and it's all been done--in other words, no man has 
gone up in that area to any extent, other than an occasional 
fisherman or trapper.
    Boy, the forests have suffered and suffered heavily. So, I 
think the extent to which we can try and preserve pieces here 
and there for future generations, it's high on my agenda. You 
concur in my observation, would you not, Senator Craig, in the 
deterioration of some of those forests that I visited?
    Senator Craig. There is no question, and I think you speak 
well of it. The situation, Senator Warner, we've known since 
the early 1990s, especially the forests of the Great Basin West 
that's experiencing greater extremes of weather and drought are 
in real difficulty.
    But I would say in the context of your legislation, while 
you refer to it as a sizable area, in Idaho and Wyoming, that's 
a pretty good size ranch. In Alaska, Lisa Murkowski would 
probably call it a backyard that you'd have to buy two mores, 
and in Oregon, pretty good farm.
    Senator Warner. Gentlemen, then I'm not being too greedy.
    [Laughter.]
    Senator Craig. Thank you. Well said, Senator Warner.
    Senator Wyden. Senator Warner, thank you very much. Let's 
now take the opportunity to have Senator Murkowski and Senator 
Craig make any opening statements that they would care to make.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. I'd like to provide a quick summary 
because I think it is important to lay the groundwork of what 
we're talking about here with S. 1680. This is a bill that I 
have introduced at the request of the people of King Cove, 
Alaska.
    This is a community of about 800 full-time residents. 
During fishing season, it might get up to about an additional 
400 or so, but basically the people of King Cove are involved 
in fishing or fish processing. It is a community that's 
populated by an Aleut population. They've been in the area for 
4,000 years or so. This is home.
    The community is about 80 percent Native and King Cove 
itself was designated as an Alaska Native Village under the 
Alaska Native Claims Settlement Act of 1971. Of course, this 
was the legislation that settled the Aboriginal Land Claims of 
Alaska's Native People.
    The King Cove Native Corporation was given the right to 
select 109,000 acres of land near King Cove. So what we have 
with S. 1680 is a land exchange among the State of Alaska, the 
King Cove Native Corporation, and the Fish and Wildlife Service 
that will enable the construction of a road between King Cove 
and the nearest all-weather airport which is at Cold Bay. This 
is about 30 miles away from King Cove.
    The Cold Bay Airport was essentially given to us as a gift 
from the military. It is the third longest runway within--of 
any civilian airport within the State of Alaska. It can handle 
all size of jet aircraft. It has IFR capabilities, and the 
reason we need to have a road between King Cove and the Cold 
Bay area is King Cove is essentially landlocked. It's 
landlocked by the Izembek Refuge and during many parts of the 
year, you just simply can't get from King Cove to Cold Bay.
    The numbers are very important and Senator Craig was 
alluding that in Alaska, that sometimes our numbers just 
overwhelm other statistics, and I think this exchange is one 
where the numbers are very significant.
    The Izembek Refuge encompasses about 417,533 acres. This is 
actually the smallest refuge in the State of Alaska. The land 
that's required for the road is about 206 acres. So we're 
talking about less than 1 percent of the total refuge.
    In return for this narrow road corridor that we're talking 
about of 206 acres, an additional 1,600 acres on Kodiak Island, 
the State of Alaska and King Cove Corporation are willing to 
transfer 61,723 acres of land to the Federal Government. So 
those are numbers that deserve to be repeated. We're talking 
about 206 acres required for this road and we're willing to 
transfer 61,723 acres of land to the Federal Government.
    Now of this total, the King Cove----
    Senator Craig. It sounds like a pretty good deal.
    Senator Murkowski. It sounds like a pretty good deal. The 
King Cove Native Corporation is prepared to part with 13,800 
acres. This is about 17 percent of their aboriginal land, and 
again I don't mean to harp on the numbers but you've got 206 
acres in the refuge, the area that we're talking about building 
this road, only 97 acres of those 206 are in the existing 
wilderness area.
    The road itself would traverse seven miles of the existing 
wilderness and in contrast, you've got 45,493 acres of new 
wilderness lands that's going to be transferred to the Federal 
Government under the legislation. So, I think most people would 
say, well, it sounds like a pretty good deal but why? Why would 
you do this? Why would the State of Alaska and the King Cove 
Native Corporation be willing to give up more than 61,000 acres 
and only get a fraction of this acreage in return and it's a 
very, very simple answer. It's the health and the safety of 
King Cove's people.
    King Cove doesn't have a hospital. They have an Indian 
Health Service clinic that does have telemedicine connections 
with the Alaska Native Medical Center in Anchorage.
    Right now, at this point in time, the clinic is staffed by 
a nurse practitioner and our community health aide. We did have 
a doctor out there as recently as 2006 but he left after just 6 
months. He said that King Cove was just too small.
    So, we've got real advantages in telemedicine and we 
appreciate that, but we also know that it has severe 
limitations. When a patient or an individual is in dire need of 
medical attention, they need to be medevaced to Anchorage and 
those flights typically depart from the Cold Bay Airport.
    Now King Cove does have an airstrip, but it's surrounded by 
4,000-foot mountain peaks. You've got a video on your desk here 
and you can kind of see as you look at the community of King 
Cove, you've got mountains going straight up on either side. 
I've had an opportunity to fly in and I do a lot of flying in 
Alaska, and there's not a lot of time where it raises my 
eyebrows but you paid attention when you are landing in King 
Cove.
    So often what we have is an airstrip that is shut down by 
fog in the summer. During the winter, you've got the snowfall, 
the strong winds, the heavy turbulence. It is a dicey flight 
in. In addition, you can only go in during the daylight. You're 
limited to VFR. It's inaccessible for perhaps 30 percent of the 
daylight hours. We have had deaths coming in and out of King 
Cove.
    In 1980, we had four people died when the medevac flight 
went down in snow squalls as darkness was approaching, and this 
was really a defining moment for this community when they said 
we've got to do something and this is why this community is so 
passionate about getting a road.
    The other way to get out of King Cove is by sea. You can go 
across to Cold Bay, to the all-weather airport, takes about two 
and a half hours in a fishing vessel, but that's assuming that 
you've got some decent weather out there. You get some pretty 
high seas, waves in excess of 20 feet. It's not something you 
want to go through if you have somebody that is in a life 
situation.
    Congress has recognized that we need to deal with the 
access issue. In 1998, there were 59 Senators who voted in 
favor of a land exchange that would provide for a wilderness 
road corridor in return for 664 acres of land to be transferred 
by the King Cove Corporation, 580 acres of those lands were to 
be added for the wilderness area. So, I think you can see that 
the deal we've got on the table now is substantially better for 
certainly the Federal Government.
    Now, we have some objections that we will hear today by 
those who suggest that we need to forego a road through the 
wilderness, we need to work with the conservation community in 
a planning process to identify alternatives to the road, and 
I've never been entirely clear to me why we needed to pursue 
these alternatives.
    The proposed road would be built along the Kensarof Lagoon 
which is at the south end of an isthmus and the biological 
heart of this refuge is generally acknowledged to be at the 
Izembek Lagoon at the north end of the isthmus.
    We've got more than 40 miles of all-weather and dry weather 
roads leading to the Izembek Lagoon along with numerous parking 
areas, many run across the isthmus, and, you know, you can see 
them when you're flying over them. They're on the map. We've 
got perhaps 14 or 15 miles of roads that already extend into 
the wilderness area.
    In any event, the outgrowth of that planning process, along 
with a full-blown EIS, is that the people of the United States 
agreed to provide the people of King Cove with hovercraft to be 
the marine link between King Cove and Cold Bay, but what we've 
seen, the hovercraft has reliability problems of its own. The 
Aleutian East Borough, which is the county government, realizes 
they can't maintain the hovercraft service.
    So for this reason, the people of King Cove have joined 
with the State of Alaska, the National Congress of American 
Indians, the Alaska Federation of Natives, to petition Congress 
for a land route out of the community, and I guess I would add, 
Mr. Chairman, that, well, the question of whether the Native 
people of King Cove should have to part with any of their 
aboriginal lands in return for a reliable way out of their 
village presents some serious ethical questions to me.
    The fact is the State of Alaska and the Native people of 
King Cove are prepared to pay dearly for a road to the airport. 
I don't think any community, much less an aboriginal community, 
deserves to be landlocked by the Federal Government. So that's 
why I've introduced this legislation again at the request of 
the community.
    I know that they will have some compelling stories to tell. 
I appreciate that you've given me some latitude with my opening 
statement, but as you can probably note, it's an issue that 
gives folks great passion. So, I appreciate your time, Mr. 
Chairman.
    Senator Wyden. Very good. Senator Craig, any opening 
statement?
    Senator Craig. I do not have any opening statement. Thank 
you very much, Mr. Chairman.
    While Senator Murkowski was talking about her concern and 
this refuge out on the Aleutian Chain, I was reading here and 
thought I might share this with the committee.
    She talks of the weather. The average daily wind speed is 
nearly 20 miles per hour year-round with wind guests greater 
than 50 miles an hour, which is not uncommon. Temperatures are 
reasonable during the summer, a bit cold during the winter.
    But here's the thing I found most fascinating. There's a 
whole column on how to deal with bears. Visitors often observe 
brown bears while hiking, fishing and hunting. Keep these 
unique encounters safe by following a few common sense 
guidelines.
    Now here are a couple that I don't quite understand. It 
said play dead if attacked. Some of you might appreciate that. 
In the extremely unlikely event of a bear attack, play dead. 
You probably already are, so that wouldn't be too difficult to 
do.
    It says don't run. You can't outrun a bear. Watch me. I 
would certainly try. Some have been clocked at speeds up to 35 
miles an hour. If they can go 35, I can go 36, at least for a 
short stretch. Then it says about fishing, if a bear approaches 
you while you're fishing, stop fishing. Good idea. Cut the 
line, don't let the fish splash. Then it talks about how you 
would prepare your food, keeping the wind to your back and all 
of those other kinds of things.
    I just found that really quite fascinating. It's an 
environment that, unless you've been there, you probably don't 
have any appreciation for. I am amazed that for a right-of-way 
for a road, that a Native corporation would be willing to give 
up 60,000 acres. That is a phenomenal give-away for the right 
to have access to humankind without effectively disturbing the 
non-humankind. It sounds like the bears are pretty dominant up 
there.
    Thank you.
    Senator Wyden. Thank you very much. Let's go right to our 
panel. Joel Holtrop with the National Forest Service, Henri 
Bisson, Deputy Director, Bureau of Land Management, and Elena 
Daly, director of National Landscape Conservation System for 
the Department of the Interior.
    We're going to make your prepared remarks part of the 
hearing record. I know that there's almost a compulsion to just 
put your head down and start reading. We will make your remarks 
a part of the record and if you could just take 5 minutes or so 
to just sort of summarize your principal concerns. I do pledge 
to you that your full remarks will be part of the record.
    We'll begin with you, Mr. Holtrop.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to provide the department's view 
on the Virginia Ridge and Valley Act, the Wild Monongahela Act, 
the California Desert and Mountain Heritage Act, and the 
Montana Cemetery Act.
    I have had the opportunity to provide testimony on each of 
these bills in the House of Representatives. The House versions 
do reflect changes as a result of working with the subcommittee 
but concerns remain.
    I look forward to working with the Senate on these bills 
and I will discuss each bill separately.
    The Virginia Ridge and Valley Act. The department supports 
several of the designations included in the bill but we object 
to other designations and to mandatory planning and 
construction requirements.
    The department would like to work with the committee to 
offer suggestions which we think will improve S. 570. The 
department had the opportunity to provide testimony on this 
bill to the House Natural Resources Committee on two separate 
occasions in 2007.
    H.R. 1011 as passed by the House included several 
recommendations made by the department but we still have 
concerns we would like to work with the subcommittee to 
address.
    The Wild Monongahela Act. The department supports 
designation of Cheat Mountain, Cranberry Expansion, Dry Fork 
Expansion and Roaring Plains West as wilderness.
    For all four areas, wilderness designation would be 
consistent with recommendations by the Monongahela National 
Forest in its 2006 Forest Plan Revision. We do not object to 
wilderness designation for the other three areas proposed by 
the bill.
    We would like to recommend boundary adjustments to account 
for mapping errors, to provide access to State and private land 
to exclude developed sites and managed wildlife openings, to 
add offsets for power lines and other features inconsistent 
with wilderness, and to align the boundaries with existing 
wilderness boundaries.
    The House Committee on Natural Resources approved an 
amendment in the nature of a substitute to H.R. 5151. These 
adjustments address concerns raised by the department in our 
previous testimony and we support them.
    The California Desert and Mountain Heritage Act. The 
proposed wilderness designations in the bill do not match the 
wilderness recommendations identified in the revisions to the 
Forest Plans for the Southern California forests.
    Of the 30,630 acres S. 2109 proposes for wilderness, only 
approximately 800 acres overlap with the Forest Plan's 
recommendation for wilderness. We would like to work with the 
subcommittee to remedy the inconsistency this bill has with the 
California Forest Plan Revisions.
    The Forest Service has always been a champion of 
wilderness. We believe that wilderness designation is special 
and as a general principle that natural processes should be 
allowed to work in wilderness without intervention. However, 
natural process may pose potential conflicts with other 
priorities or land objectives, such as protection from wild 
land fire.
    During the revision process, most of these proposed 
wilderness designations were determined not to meet criteria 
for wilderness suitability. The areas were found unsuitable 
because of current or potential uses that would conflict with 
wilderness designation, such as reduction of hazardous fuels, 
elements of fire management, current recreational uses, grazing 
improvement maintenance and habitat management for threatened 
and endangered species.
    Therefore, the department does not support these proposed 
wilderness additions.
    The department does not oppose the additions to the 
National Wild and Scenic Rivers System, but we would like to 
work with the committee to clarify river management and address 
differences between mileage and classifications in this bill 
and those in the Forest Plan.
    The department fully supports that portion of the expansion 
of the Santa Rosa and Santa Jacinto Mountains National Monument 
under national forest management.
    Montana Cemetery Act. The department is supportive of 
Senate 2124 but requests that the conveyance of the public land 
estate include consideration for the market value of the 
property and for the administrative costs associated with the 
conveyance.
    The department does not support the reversion of the lands 
back to the Secretary.
    The bill provides for the continued protection of the 
historic and cultural values associated with the site but does 
not exempt the Forest Service from its obligations to comply 
with the National Historic Preservation Act or any other law at 
the time of transfer.
    This concludes my statement, and I'll be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture
    Thank you for the opportunity today to provide the Department's 
view on S. 570 and H.R. 1011, the Virginia Ridge and Valley Act of 
2007; S. 2581, Wild Monongahela Act: A National Legacy for West 
Virginia's Special Places; S. 2109, California Desert and Mountain 
Heritage Act; and S. 2124, Montana Cemetery Act of 2007. I am Joel 
Holtrop, Deputy Chief, National Forest System of the Forest Service. I 
will address each of these bills separately.
                          s. 570 and h.r. 1011
    S. 570 would designate 27,817 acres in the Jefferson National 
Forest as new components of the National Wilderness Preservation System 
(NWPS). Specifically, the bill would designate the following areas: 
Brush Mountain East Wilderness, Brush Mountain Wilderness, Raccoon 
Branch Wilderness, Stone Mountain Wilderness, Hunting Camp Creek 
Wilderness, and Garden Mountain Wilderness. S. 570 would also designate 
11,344 acres as additions to existing wilderness areas namely, Mountain 
Lake Wilderness, Lewis Fork Wilderness, Little Wilson Creek Wilderness, 
Shawvers Run Wilderness, Peters Mountain Wilderness, and Kimberling 
Creek Wilderness.
    S. 570 would designate 3,226 acres in the Jefferson National Forest 
as the ``Lynn Camp Creek Wilderness Study Area.'' The bill also would 
designate 349 acres depicted on the map as the ``Kimberling Creek 
Additions and Potential Wilderness Area'' as a potential wilderness 
area for eventual incorporation in the Kimberling Creek Wilderness. The 
bill would set forth requirements regarding ecological restoration 
within this area and would provide for the designation of the area as a 
wilderness within five years.
    In addition, the bill would designate 11,583 acres of the Seng 
Mountain and Bear Creek areas as national scenic areas for purposes of 
ensuring the protection and preservation of scenic quality, water 
quality, natural characteristics, and water resources; protecting 
wildlife and fish habitat; protecting areas that may develop 
characteristics of old-growth forests; and providing a variety of 
recreation opportunities.
    Finally the bill would direct the Secretary of Agriculture to 
develop a management plan for the designated national scenic areas. The 
Secretary also would be required to develop a trail plan for hiking and 
equestrian trails on lands designated as wilderness by this Act and to 
develop a plan for non-motorized recreation trails within the Seng 
Mountain and Bear Creek National Scenic Areas. The bill also would 
direct the Secretary to develop a sustainable non-motorized trail in 
Smyth County, Virginia.
    We recognize and commend the delegation and the Committee for its 
collaborative approach and local involvement that has contributed to 
the development of this bill. The Department supports several of the 
designations included in the bill but we object to other designations 
and to mandatory planning and construction requirements. The Department 
would like to work with the Committee to offer suggestions which we 
think will improve S. 570.
                          wilderness proposals
    During the development or revision of a forest land and resource 
management plan (LRMP), a national forest conducts an evaluation of 
potential wilderness or wilderness study areas that satisfies the 
definition of wilderness found in section 2(c) of the Wilderness Act of 
1964. On National Forest System (NFS) lands in the Eastern United 
States (east of the 100th meridian) the criteria for evaluating 
potential wilderness recognizes that much, if not all of the land, 
shows signs of human activity and modification. The Record of Decision 
for the revised Jefferson National Forest LRMP, signed on January 15, 
2004, was developed over an 11-year period with extensive public 
involvement. It contains recommendations for 25,200 acres of wilderness 
study areas, including new wilderness study areas and additions to 
existing areas designated as wilderness.
    The Department supports the provisions in S. 570 that would 
designate new components of the NWPS that are consistent with the 
Jefferson National Forest LRMP recommendations for wilderness study. 
These areas are the proposed Garden Mountain, Hunting Creek Camp, and 
Stone Mountain Wilderness areas.
    The Department supports the designation of additions to existing 
wilderness areas for the following areas: Kimberling Creek A and B 
Additions, Lewis Fork Addition, Little Wilson Creek Addition, Mountain 
Lake A and C Additions, Peters Mountain Addition, and Shawvers Run A 
Addition.
    The Department does not oppose the designation of the ``Lynn Camp 
Creek Wilderness Study Area,'' the Mountain Lake B Addition, and 
Shawvers Run Additions B and C areas. However, we have concerns about 
the suitability of the Lynn Camp Creek Wilderness Study Area as a 
component of the NWPS due to its small size, configuration, and 
manageability (due to outstanding mineral rights). The Department is 
willing to work with the committee to look at other options for 
protection of this area. We also have concerns about the suitability of 
the Mountain Lake B Addition and the Shawvers Run Additions B and C as 
components of the NWPS due to their size and configuration. An 
additional concern with the Mountain Lake Addition B is that it 
contains a 59-acre private inholding which could require associated 
road access in the future if the parcel is developed.
    The Department does not support the designation as ``potential 
wilderness'' for the 349-acre portion of the Kimberling Creek area. The 
designation ``Potential Wilderness'' is not a designation referenced in 
the Wilderness Act of 1964. A subsequent designation of wilderness 
following a fixed time period and associated compulsory changes in 
conditions can serve to limit the Secretary's discretion in the 
allocation of scarce resources and other management actions associated 
with the administration of the NFS and the NWPS. We use the term, 
potential wilderness, in our wilderness evaluation process under our 
LRMP efforts to evaluate areas as potential additions to the NWPS. The 
Kimberling Creek addition was recently acquired as NFS land and in its 
current condition does not contain the basic natural characteristics 
that make it suitable for wilderness due to an extensive road network. 
We would recommend that the Committee consider allowing the Secretary 
to continue the current management prescription for this area which is 
Dispersed Recreation-Unsuitable. This management emphasis provides for 
a variety of dispersed recreation uses with minimal vegetation 
management and would allow use of motorized and mechanized equipment 
for needed road and trail rehabilitation work. We plan to develop 
rehabilitation plans and implement these plans within the next 5 to 10 
years. While this area was not recommended as a potential wilderness 
area in the LRMP, future wilderness designation of this area could be 
reevaluated after restoration activities occur.
    The Department does not support wilderness designation for the 
Brush Mountain and Brush Mountain East areas. These areas lie on the 
north side of Brush Mountain and are separated by a 345 kilovolt 
powerline corridor. They were not recommended for wilderness study in 
LRMP. They contain fire-dependent forest habitat which make up 
approximately 50 percent of these two areas. Additionally, the areas 
are largely surrounded by private lands. Wildland urban interface 
(subdivisions and housing developments) exists on the north and south 
boundaries. If designated as wilderness, our ability to utilize 
prescribed fire for the maintenance of southern yellow pine forest 
communities and to conduct hazardous fuels reduction projects would be 
hampered in these interface areas. Our ability to use prescribed fire 
is compromised when we cannot mechanically construct firelines to 
better control fire management activities. Additionally, the narrow 
width of these areas and the bisecting powerline corridor within these 
areas detract from their naturalness and offer few opportunities for 
solitude. We have also recently identified a need for a small boundary 
change in the proposed wilderness area along the northwest side of 
Brush Mountain East. An electric distribution line is located along 
Craig Creek and the current boundary includes some of the line within 
the proposed wilderness. If the Committee proceeds with wilderness 
designation, we would like to work with the Committee to adjust the 
boundary to exclude this existing line.
    The Department could support the designation of the Raccoon Branch 
area as a wilderness area if agreements are reached in resolving trail 
maintenance issues in the area and if the requirement contained in 
section 5(d) of the bill for a sustainable trail is amended to provide 
more flexibility for any future alternative trail locations. Nearly six 
miles of the Virginia Highlands Horse Trail (VHHT) and the Dickey Knob 
Trail traverse this area. These trails are heavily used by both 
equestrians and mountain bikers. Currently only four of the six miles 
of the VHHT in the Raccoon Branch area are open to mountain bike use 
due to the steep nature of the trail where it enters the west end of 
Raccoon Branch. Wilderness designation would eliminate mountain bike 
use within the area. While equestrian use is compatible with wilderness 
designation, heavy use and ground conditions along the VHHT necessitate 
extensive maintenance to sustain the integrity of the trail and protect 
watershed and other resources values. To maintain the trail to the 
standards that are needed without mechanized or motorized equipment 
will require cooperative agreements and commitments from user groups to 
help in maintenance to protect the resources and to provide for 
continued equestrian use of the trail. We would like to work with the 
Committee to adjust the boundary as now proposed in the bill. The 
adjustment would exclude the section of VHHT from the western boundary 
to its intersection with Hickory Ridge Trail #4516 which we believe 
would alleviate much of the concern with maintaining the trail for 
equestrian use.
                     national scenic area proposals
    Section 4 of S. 570 would establish Seng Mountain and Bear Creek 
National Scenic Areas (NSAs). In August 2007, the President signed 
Executive Order (E.O.) No. 13443, ``Facilitation of Hunting Heritage 
and Wildlife Conservation.'' This E.O. requires Federal land management 
agencies to ``...Manage wildlife and wildlife habitats on public lands 
in a manner that expands and enhances hunting opportunities...'' Forest 
Service direction on compliance with the E.O. is being developed. 
Portions of both the Seng Mountain and Bear Creek NSAs are managed 
under the LRMP to manage black bear habitat. We would like to work with 
the Committee on language that would allow a low level of habitat 
management for black bear that would be consistent with the E.O. and 
compatible with the purposes for which the scenic areas are being 
established.
    The proposed Seng Mountain NSA is within the congressionally 
designated Mount Rogers National Recreation Area (NRA). The Mount 
Rogers NRA is managed to provide public outdoor recreation benefits and 
the continued use by a diversity of recreation uses. The Seng Mountain 
area contains a motorized trail, the Barton Gap Trail #4624. Motorized 
use of the trail would be prohibited under S. 570. The Barton Gap Trail 
is one of only five designated motorcycle trails on the George 
Washington and Jefferson National Forests and is an important part of 
the diversity of recreation opportunities that we provide the visitors 
that use the Forest and the Mount Rogers NRA. The Department would like 
to work with the Committee to resolve any confusion resulting from the 
overlapping designations for the Seng Mountain area. The Department 
recommends that the overlapping designation be clarified and continued 
motorized use on the Barton Gap Trail be allowed.
                        trail development plans
    S.570 would require the Secretary to establish a trail plan to 
develop hiking and equestrian trails on lands designated as wilderness 
by this bill. The designated lands would be administered in accordance 
with the Wilderness Act. The Forest Service already addresses trail 
management and planning standards within the LRMP planning process. The 
Department considers the requirement to develop additional trail plans 
to be unnecessary.
    S.570 also would require the Secretary to develop a sustainable 
trail to provide a continuous connection for non-motorized travel 
between State Route (SR) 650 and Forest Development Road 4018. This 
trail would be along SR 16. We believe that it would be costly and 
difficult to provide a trail in this general location that would be 
safe for both equestrians and mountain bikers. The existing gravel road 
(SR 650) is winding and narrow and contains several blind curves. It 
receives high local use and is the main access road for campers and 
recreational vehicles to enter Hurricane Campground. Further, a 
potential connector trail for horses and bikes from SR 650 along the 
route of the old Marion-Rye Valley rail bed would require crossing SR 
16, a 55-mph State highway that receives heavy commercial use, in a 
location with poor sight distance. Trail construction along the stream 
would be unlikely to meet our Forest standards for riparian protection. 
The bill language that specifies the terminus of the connector route 
limits our ability to locate and construct a trail that will meet 
Forest Service standards for safety and in a manner that is 
environmentally appropriate. We would like to work with the Committee 
on language that would allow us to construct trail facilities with 
adequate consideration for alternatives, priorities, and costs.
                      house amendment to h.r. 1011
    The Department had the opportunity to provide testimony on this 
bill to the House Natural Resources Committee on two separate 
occasions, May and September of 2007. H.R. 1011, as passed by the 
House, contains the following amendments to the bill as introduced.
    Section 2 was amended to adjust the acreage of the Brush Mountain 
East Wilderness from 3,769 acres to 3,743 acres to provide for a 
setback of 100 feet along the 345 kilovolt powerline corridor. The 
Department supports this acreage adjustment, but we remain concerned 
designating this area as wilderness for the reasons stated earlier in 
this testimony.
    Section 4 was amended to adjust the acreage of the Seng Mountain 
National Scenic Area from 6,455 to 5,192 acres to provide for continued 
motorized use of the Barton Gap Trail and Black Bear habitat 
management. The Department supports this acreage adjustment but would 
like to work with the Committee to refine the boundaries of the 
designation further.
    Section 4 was amended to authorize motorized travel on Forest 
Development Road 6261 in the Bear Creek NSA during bear and deer 
hunting seasons. In testimony before the House Committee on Natural 
Resources in May 2007, the Department expressed concerns regarding the 
proposed Bear Creek NSA. Specifically, we were concerned about the 
limitation on our ability to improve black bear habitat and to provide 
opportunities for hunting as a result of this designation and mandated 
closure of the road. The Department indicated it could support the Bear 
Creek NSA designation if allowances were made for seasonal motorized 
use of the road during hunting season. The Department supports this 
amendment since it provides these allowances.
    Section 5 was amended to allow motorized access for emergency 
purposes involving the heath and safety of persons, including search 
and rescue efforts and responses to an Amber Alert. The Department 
considers this addition to be unnecessary as these actions are 
currently allowed in wilderness under section 4 (c) of the Wilderness 
Act of 1964 and Forest Service policy, and recommends its deletion from 
the bill. Section 5 also was amended to provide more flexibility for 
the location of a non-motorized trail located along the southern 
boundary of the Raccoon Branch Wilderness. The Department supports this 
part of the amendment.
                                s. 2581
    S. 2581 would designate about 47,128 acres of the Monongahela 
National Forest as wilderness, adding to three existing wilderness 
areas and designating four new ones. The Department supports 
designation of Cheat Mountain, Cranberry Expansion, Dry Fork Expansion, 
and Roaring Plains West as wilderness. For all four areas, wilderness 
designation would be consistent with recommendations by the Monongahela 
National Forest in its 2006 forest plan revision.
    We do not object to wilderness designation for the other three 
areas proposed by the bill. In the environmental impact statement that 
accompanied the 2006 forest plan revision, the Monongahela National 
Forest determined that Big Draft, the Dolly Sods Expansion, and Spice 
Run are all available for wilderness designation. The Monongahela 
National Forest designated all three areas as ``semiprimitive 
nonmotorized'' in order to help maintain their roadless attributes over 
time while still permitting other established uses.
    The Monongahela National Forest has five existing wilderness areas, 
all of which offer outstanding wilderness experiences. I have 
personally visited some of the seven areas proposed in this bill, and I 
believe that all seven areas have outstanding wilderness attributes. 
All are rugged forested land minimally affected by outside forces, with 
natural processes operating and vestiges of human impacts (such as old 
roads and clearcuts) rapidly healing over. Ranging in elevation from 
just under 2,000 feet to over 4,000 feet, these landscapes harbor rare 
ecosystems (such as high-elevation red spruce) and habitat for 
federally listed species.
    That is why the Monongahela National Forest recommended four of the 
seven areas for wilderness study in its revised forest plan in 2006: 
Cheat Mountain, Cranberry Expansion, Dry Fork Expansion, and Roaring 
Plains West. These units represent nearly 27,700 acres recommended for 
wilderness study. The Department supports their inclusion in this bill.
    In its forest plan revision, after consulting with the public, the 
Monongahela National Forest decided not to include Big Draft, the Dolly 
Sods Expansion, and Spice Run among the areas recommended for 
wilderness. Instead, we designated all three as semiprimitive 
nonmotorized areas, one of the most restrictive allocations that the 
Forest Service can give. This management prescription protects their 
naturalness while permitting such popular and relatively low-impact 
uses as mountain biking. It also allows the manipulation of vegetation 
to create wildlife openings.
    However, we recognize the wilderness eligibility of all three 
areas, and their designation as wilderness would be consistent with 
values that the Monongahela National Forest's revised forest plan is 
designed to protect. In other locations, the Monongahela National 
Forest maintains opportunities for mountain biking and for manipulating 
vegetation to improve wildlife habitat. Therefore, the Department would 
not object to including Big Draft, the Dolly Sods Expansion, and Spice 
Run in this bill if boundary adjustments and other issues are 
addressed.
    If all seven areas are designated as wilderness, we would suggest 
adjusting some of the proposed boundaries to avoid conflicts and make 
the wilderness areas more manageable. Some proposed boundaries appear 
to be based on the boundaries of the roadless areas analyzed during the 
2006 forest plan revision. Those roadless area boundaries were not 
intended to define wilderness boundaries. Adjustments should be made to 
account for mapping errors; to provide access to state and private 
land; to exclude developed sites and managed wildlife openings; to add 
offsets for powerlines and other features inconsistent with wilderness; 
and to align the boundaries with existing wilderness boundaries.
    The largest boundary question regards the southwestern corner of 
the proposed Spice Run unit, an area of 974 acres. This area lies 
outside the area that the Monongahela National Forest evaluated for 
wilderness in its 2006 forest plan because it did not meet the criteria 
for roadless areas. Should it become designated wilderness, motorized 
access to three adjacent parcels of private land could become an issue.
    We would like to work with the bill's sponsors and the subcommittee 
to adjust the boundaries to accommodate these and other concerns. The 
Forest Service has prepared a set of proposed boundary adjustments, 
taking care to ensure that our proposed adjustments would not detract 
from the overall wilderness legislation. We would welcome the 
opportunity to provide this information to the subcommittee.
    Removing most of the structures incompatible with wilderness would 
not be necessary if our proposed boundary adjustments were made. Even 
with the adjustments, however, a hiking shelter and about 9 miles of 
road would remain within the wilderness boundaries. The shelter would 
likely be allowed to deteriorate and then be removed. Unless converted 
to trails, the roads (currently closed to vehicular traffic) would 
require decommissioning to protect water quality and other natural 
resource values. The Monongahela National Forest would conduct an 
analysis to determine the appropriate management actions and then make 
the investments needed, subject to available appropriations, to remove 
culverts, construct trail, or contour the land to reduce erosion.
    We strongly support the spirit of this legislation, and we confirm 
that all seven areas proposed for wilderness designation meet the 
criteria for wilderness. Working with the subcommittee, we are 
confident that we can remedy boundary deficiencies and establish final 
wilderness boundaries that are sound and manageable.
    The House Committee on Natural Resources approved an Amendment in 
the Nature of a Substitute to H.R. 5151. This amendment includes 
updated acreage figures resulting from boundary adjustments to the Big 
Draft Wilderness, the Cranberry Expansion, the Dolly Sods Expansion, 
the Otter Creek Expansion Proposed Wilderness, the Roaring Plains West 
Wilderness, and the Spice Run Wilderness. These adjustments address 
concerns raised by the Department in our previous testimony, and we 
support them.
    H.R. 5151, as amended, allows for the continuation of a competitive 
running event in the vicinity of the Dolly Sods Wilderness and the 
Roaring Plains West Wilderness. Forest Service policy does not permit 
competitive events in wilderness. Our intent would be to work with the 
sponsors to find a suitable alternative for the competitive event.
    Section 3 was added to H.R. 5151 to adjust the boundary to the 
Laurel Fork South Wilderness by 123 acres. Section 4 was added to 
confirm that the Monongahela National Forest boundary includes recently 
acquired tracts of land. The Department supports these changes to the 
bill. Section 4 should be amended to include reference to the Land and 
Water Conservation Fund Act (LWCFA) because expenditures of LWCFA funds 
are restricted to forest boundaries as they existed on the original 
date of the Act.
                                s. 2109
    The Department of Agriculture supports S. 2109, if amended.
    S. 2109 would create two new wildernesses on the San Bernardino 
National Forest, and would add additional acreage to existing 
designated wilderness on the Cleveland and San Bernardino National 
Forests. It would also designate stretches of four rivers on the San 
Bernardino National Forest as components of the National Wild and 
Scenic Rivers System. This bill would also expand the boundaries of the 
Santa Rosa and San Jacinto Mountains National Monument.
    There are discrepancies between the proposed wilderness 
designations in the bill and the revisions to the forest plans for the 
Southern California forests (Forest Plan), for which the Record of 
Decision was published in the Federal Register on April 21, 2006. Of 
the 30,630 acres S. 2109 proposes for wilderness, only (approximately) 
800 acres overlap with the Forest Plan's recommendation for wilderness. 
Discrepancies also exist between the proposed designations under the 
Wild and Scenic Rivers Act and the Forest Plan.
    The Forest Service has always been a champion of wilderness. We 
believe that wilderness designation is special, and as a general 
principle, that natural processes should be allowed to work in 
wilderness without intervention. However, natural process may pose 
potential conflicts with other priorities or land use objectives such 
as protection from wildland fire. When situations arise, such as fuel 
buildup, climate change, and an expanding urban interface, our 
preference is still for natural processes to dominate.
    During the revision process, most of these proposed wilderness 
designations were determined not to meet criteria for wilderness 
suitability. The areas were found unsuitable because of current or 
potential uses that would conflict with wilderness designation such as 
reduction of hazardous fuels (mechanical treatments and prescribed 
burning), elements of fire management (including Burned Area Emergency 
Response--BAER treatments), current recreational uses (e.g., mountain 
bikes), grazing improvement maintenance, existing protections (Research 
Natural Area), habitat management for threatened and endangered 
species, external influences and the availability of nearby wilderness.
    For example, the portion of the Agua Tibia Wilderness addition in 
the Cleveland National Forest that would be designated by the bill is 
not the same as the area of National Forest recommended for wilderness 
designation in the Forest Plan. The Department does not support the 
addition of the area that was not recommended in the Forest Plan. We 
defer to the Bureau of Land Management (BLM) for its part of this 
proposal.
    The Cahuilla Mountain Proposed Wilderness in the San Bernardino 
National Forest also was found not to meet Forest Service wilderness 
criteria during the Forest Plan revision process. We continue to 
support the Forest Plan's final recommendation, developed with public 
involvement. Therefore, the Department does not support this proposed 
addition.
    Section 104(f)(2) of the bill contains provisions related to access 
and use of the Cahuilla Mountain Wilderness by members of an Indian 
tribe for traditional cultural and religious purposes, including 
temporarily closing areas to the general public for use by members of 
an Indian tribe. The Department supports and encourages providing 
access to tribes consistent with PL 95-341 (also known as the American 
Indian Religious Freedom Act) but we do not support the provision in 
the bill. To that end, the Forest Service has directives that allow for 
voluntary temporary closures to protect privacy for tribes in the 
conduct of traditional cultural activities. We would like to work with 
the bill's sponsor, the Subcommittee, and the Department of Justice to 
address these concerns.
    The proposed South Fork San Jacinto Wilderness on the San 
Bernardino National Forest was found not to meet the wilderness 
criteria during the revision process. The South Fork San Jacinto area 
is a combination of two inventoried roadless areas with the same issues 
as the Cahuilla proposal. The Department does not support this area to 
be designated as wilderness. We remain in support of our Forest Plan 
recommendation to manage this area as backcountry allowing greater 
flexibility to address resource management needs.
    Additionally, during the revision process thirteen acres of Cactus 
Springs Inventoried Roadless Area were recommended as an addition to 
the Santa Rosa Wilderness. The Department supports this 13-acre 
addition, and defer to the Bureau of Land Management for its portion of 
the addition.
    Although a suitability study has not been conducted for the four 
rivers that would be designated by the bill, the Department does not 
oppose their addition to the National Wild and Scenic Rivers System 
based on general support by the communities of interest and consistency 
of the designation with the management of the National Forest System 
lands within the river corridors. We wish, however, to work with the 
Committee to clarify river management and address differences between 
mileage and classifications in this bill and those in the Forest Plan.
    The Department fully supports that portion of the expansion of the 
Santa Rosa and San Jacinto Mountains National Monument under National 
Forest management.
    We would like to work with the Subcommittee, to remedy the 
inconsistencies this bill has with our California Forest Plan 
Revisions.
                                s. 2124
    This legislation directs the Secretary to convey for no 
consideration, all right, title, and interest in 10 acres of land 
within the Beaverhead-Deerlodge National Forests to Jefferson County, 
Montana to be used for cemetery purposes. The Department is supportive 
of S. 2124, but would recommend that this bill provide consideration to 
the Federal government for the conveyance.
    The parcel to be conveyed to Jefferson County is currently being 
used for cemetery purposes but a special use authorization has never 
been issued for this purpose. The 10-acre conveyance will provide a 
sufficient amount of land to accommodate all known grave sites and any 
additional sites that may be outside of the concentration of known 
sites. In addition the conveyance is of adequate size to include the 
cemetery parking lot so that it will be located on private property. 
The parcel to be conveyed is a National Register eligible property that 
contributes to the significance of the Elkhorn town site and the 
Elkhorn historic mining district. The bill provides for the continued 
protection of the historic and cultural values associated with the site 
but does not exempt the Forest Service from its obligations to comply 
with the National Historic Preservation Act, or any other law, at the 
time of transfer.
    We are concerned about conveying public land to other jurisdictions 
without any form of consideration. The Department does not object to 
making the Federal land available for use as a cemetery, but requests 
that the conveyance of the public land estate include consideration for 
the market value of the property and for the administrative costs 
associated with the conveyance. The Department does not support the 
reversion of the lands back to the Secretary should this bill be 
enacted.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

    Senator Wyden. Thank you.
    Ms. Daly.

     STATEMENT OF ELENA DALY, DIRECTOR, NATIONAL LANDSCAPE 
 CONSERVATION SYSTEM, BUREAU OF LAND MANAGEMENT, DEPARTMENT OF 
                          THE INTERIOR

    Ms. Daly. Thank you, Mr. Chairman, members of the 
subcommittee.
    I'd like to thank you for inviting the Department of the 
Interior to testify on a number of bills before the 
subcommittee.
    S. 2109, the California Desert and Mountain Heritage Act, 
designates wilderness throughout Riverside County, California, 
on land managed by the BLM, the Park Service, and the Forest 
Service. It also expands the Santa Rosa and Santa Jacinto 
National Monument.
    The Department of the Interior supports 2107 as it applies 
to BLM and NPS designations but would like the opportunity to 
work with the subcommittee on a number of clarifications.
    Specifically, we would like to work with the sponsors and 
the committee on some boundary adjustments. Given the growing 
need for renewable energy in this area, we are particularly 
sensitive to ensuring that renewable energy needs are properly 
accommodated.
    Some of the boundaries, as presently constituted, may pose 
problems for future renewable energy transmission needs and we 
would like to work with the sponsors of the bill and the 
committee to adjust those boundaries.
    We defer to the Department of Agriculture on those 
designations on Forest Service-managed lands, and I am 
accompanied by Karen Taylor Goodrich, Associate Director, 
Visitor and Resource Protection, who will join me at the table 
to answer any questions you may have related to the National 
Park Service and S. 2109.
    This bill is a result of the multiyear process undertaken 
by the California Congressional Delegation. This public process 
included engaging elected officials, interest groups, local 
communities, and the affected land-managing agencies.
    We appreciate these efforts as we believe that local input 
and consensus-building processes are essential ingredients to 
successful wilderness bills.
    S. 758, the Nevada Cancer Institute Expansion Act, would 
convey without consideration 80 acres to the city of Las Vegas, 
Nevada, for the development of a cancer treatment facility and 
adjoining park, a flood control project, a water pumping 
facility, and other commercial projects.
    While the BLM supports the goals of S. 758 and the House 
companion bill, H.R. 1311, we cannot support the bill unless 
there are additional modifications. The bill should be modified 
to ensure that the conveyances outlined in Section 3(a) 
guarantee a fair return to the public and are consistent with 
existing conveyance authorities.
    In addition, many of the purposes could be accomplished 
administratively and we would be happy to work with the city of 
Las Vegas, the Flood Control District, and others toward this 
end.
    While some of our concerns were addressed in H.R. 1311 as 
passed by the House of Representatives on March 4th of this 
year, we urge the committee to make the additional 
modifications described in our testimony.
    Thank you for the opportunity.
    [The prepared statements of Ms. Daly follow:]

    Prepared Statement of Elena Daly, Director, National Landscape 
   Conservation System, Bureau of Land Management, Department of the 
                                Interior

    Mr. Chairman and members of the Subcommittee, thank you for 
the opportunity to testify on S. 758, the Nevada Cancer 
Institute Expansion Act. H.R. 1311, the companion bill to S. 
758, passed the House on March 4, 2008 and, as requested by the 
Committee, I'll also address H.R. 1311, as amended. While we 
support the goals of S. 758 and H.R. 1311, as amended, we 
cannot support the bills without modifications.

                                 S. 758

    S. 758 would convey without consideration approximately 80 
acres of public lands (the ``Alta-Hualapai'' site) to the City 
of Las Vegas, Nevada, for the development of a cancer treatment 
facility, an adjoining park, a flood control project, a water 
pumping facility, and other commercial projects. While the BLM 
supports the goals of S. 758, we cannot support the bill unless 
there are major clarifications and modifications to make it 
consistent with our existing conveyance authorities and 
standard BLM practices.
    The 80 acres proposed for conveyance under S. 758 are part 
of a larger parcel of land totaling 320 acres that was patented 
to the City in 1963 under the Recreation and Public Purposes 
Act (R&PP). The Federal government retains a reversionary 
interest in these lands if they are not used for the specific 
purposes for which they were transferred. A significant portion 
of this parcel of land was developed as the Angel Park Golf 
Course; however, the 80 acres proposed for conveyance under 
this bill remain undeveloped.
    S. 758 provides that the City may convey without 
consideration portions of these lands to the Nevada Cancer 
Institute for the development of a new treatment facility and 
to the Las Vegas Valley Water District for the development of 
the pumping facility. The United States would retain a 
reversionary interest only for the portions the City conveys.
    The bill also provides that if the City conveys portions of 
the site for the other purposes specified in section 3(a) of 
the bill that it must receive not less than fair market value 
and that the revenues received from the sales of these lands be 
distributed according to the formula outlined in Section 
4(e)(1) of the Southern Nevada Public Land Management Act 
(SNPLMA), which allows for 85 percent of the proceeds from the 
land sales to be deposited in the special account established 
under SNPLMA; 10 percent paid directly to the Southern Nevada 
Water Authority; and 5 percent paid directly to the State of 
Nevada for use in the state's general education program. It is 
unclear whether or not the development of an adjacent park and 
the flood control project would involve the City selling the 
land.
    While BLM is generally supportive of the intentions of S. 
758, we believe that the bill should be modified to ensure that 
the conveyances outlined in Section 3(a) guarantee a fair 
return to the public and are consistent with existing 
conveyance authorities. Where the conveyances are for public 
purposes, they should be done consistent with the R&PP Act. The 
R&PP Act provides for conveyances at less than fair market 
value in certain circumstances. For example, the provisions in 
the R&PP Act provide for a 50 percent reduction in value of 
conveyances to non-profit entities, such as the Nevada Cancer 
Institute. However, the Administration recognizes that there 
may, indeed, be circumstances in which the public benefits of a 
proposed transfer outweigh financial considerations.
    For the portions of land that are intended to be used for 
the development of commercial projects, we recommend that S. 
758 be amended to direct the BLM to sell the identified lands 
at auction or through a modified competitive sale and 
consistent with SNPLMA. In contrast, the bill, as drafted, 
would require that the Secretary convey the property to the 
City of Las Vegas, which, in turn, could convey it for ``not 
less than fair market value.'' Such an amendment would 
eliminate the unnecessary step of conveying the land to the 
City, would ensure a fair return to the public, and would be 
consistent with standard BLM practices.
    It is also possible that the specified uses identified in 
Section 3(a), such as the flood control project and the water 
pumping facility, can be administratively accomplished through 
the granting of rights-of-ways. The BLM would be happy to work 
with the City, the Flood Control District, and others in this 
effort.

                               H.R. 1311

    H.R. 1311 was introduced in the House of Representatives on 
March 5, 2007. The BLM testified on H.R 1311, a companion bill 
to S. 758, on October 23, 2007. The bill, as amended, passed 
the House on March 4, 2008, incorporating some but not all of 
our suggested changes.
    Section 3 of H.R. 1311 requires the Secretary to convey to 
the Nevada Cancer Institute the portion of the 80 acre Alta-
Hualapai Site needed for a cancer facility. It also requires 
the Secretary to convey to the City the remaining portion of 
the site needed for ancillary medical or nonprofit uses. All 
conveyances by the Secretary are at no cost, except for costs 
associated with title transfers or land surveys, at the 
discretion of the Secretary. Further conveyances by the City 
shall be ``for no less than fair market value'' and the 
proceeds are to be distributed in accordance with SNPLMA. To 
implement the conveyances, the bill directs the City to prepare 
a land survey that conforms to BLM's cadastral survey 
standards, and it provides for relinquishment of the R&PP site. 
The bill in Section 4 authorizes the Secretary to grant rights-
of way to the Las Vegas Water District for a flood control 
project and water pumping facility. Under Section 5, the United 
States retains a reversionary interest on all conveyed lands.
    Consistent with our views on S. 758 and prior testimony on 
H.R. 1311, as amended, our overarching interest is that 
conveyances of public lands be in accordance with existing 
conveyance authorities and guarantee a fair return to the 
public. H.R. 1311, as passed, partially fulfills these 
objectives. The bill provides for administrative grants of 
rights-of-way to the Water District, consistent with FLPMA, to 
authorize the flood control project and water pumping facility. 
We are pleased this provision utilizes BLM's existing 
conveyance practices and authorities, and reflects the comments 
raised in our previous testimony on H.R. 1311. The bill also 
directs the City to conduct a land survey that conforms with 
the BLM's cadastral survey standards. We support this provision 
because it applies standard administrative practices.
    However, other key provisions of H.R. 1311, as amended, are 
not consistent with existing authorities and we cannot support 
the bill without additional modifications. Consistent with our 
views on S.758, we support the purpose of the conveyance to the 
Nevada Cancer Institute, but it should be done in accordance 
with the R&PP Act to ensure a fair return to the public. While 
the bill provides for lands to be conveyed to the City at no 
cost, and for further conveyance by the City at ``no less than 
fair market value'', it is not clear if the lands conveyed to 
the City are intended to be used for non-profit or commercial 
purposes. Again, to ensure a fair return to the public, we 
believe that conveyances for public purposes should be 
consistent with the R&PP Act, while conveyances for commercial 
purposes should be consistent with SNPLMA and offered by the 
BLM at auction or through a modified competitive sale.
    Finally, H.R. 1311, as amended, requires the Secretary to 
report to Congress, within 180 days of enactment, on all 
transactions conducted under SNPLMA.
    Thank you for the opportunity to testify on S. 758 and H.R. 
1311, as amended. I will be happy to answer any questions.

                                S. 2109

    Thank you for inviting me to testify on S. 2109, the 
California Desert and Mountain Heritage Act. The Department of 
the Interior supports S. 2109 as it applies to BLM and NPS 
designations but would like the opportunity to work with the 
subcommittee on a number of clarifications, including acreage 
and mapping adjustments. We defer to the Department of 
Agriculture on those designations on National Forest System 
lands.
    The Department strongly supports Congressional efforts to 
resolve wilderness designations throughout the West, and we 
welcome this opportunity to further those efforts. Only 
Congress can determine whether to designate Wilderness Study 
Areas (WSAs) as wilderness or release them for other multiple 
uses. We support the resolution of WSA issues and stand ready 
to work with Congress toward this goal.
    S. 2109 designates wilderness throughout Riverside County, 
California on lands managed by the BLM, National Park Service 
(NPS) and Forest Service. It also expands the BLM and Forest 
Service-managed Santa Rosa and San Jacinto Mountains National 
Monument (designated by Public Law 106-351) as well as 
designates a number of Wild and Scenic rivers under the 
management of the Forest Service.
    S. 2109, as introduced, includes acreage numbers that do 
not match area descriptions or the maps provided to the 
sponsors by the Department. We are working with the sponsor and 
the subcommittee to make appropriate corrections. Our 
discussions of the bill in this testimony will reflect the 
updated acreage numbers.
    Title I designates four new wilderness areas: Beauty 
Mountain and Pinto Mountains Wilderness to be managed by the 
BLM as well as Cahuilla Mountain and South Fork San Jacinto 
Wilderness to be managed by the Forest Service.
    The proposed new Beauty Mountain Wilderness would cover 
over 15,000 acres of BLMmanaged lands. It is one of the last 
undeveloped areas in the region; numerous outside groups 
recognize both its significance as open space and the important 
resource values of Beauty Mountain. We should note that the 
boundary for Beauty Mountain is arbitrarily set at the 
Riverside County line. The second new BLM wilderness area, 
Pinto Mountains wilderness, lies just to the north of the 
National Park Service's Joshua Tree National Park and 
wilderness. Much has changed in these areas during the last 15 
years. In 1994, the California Desert Protection Act changed 
the management landscape in the entire California desert. That 
same year, much of the area was designated as critical habitat 
for the threatened desert tortoise. This area is important 
habitat for the desert bighorn sheep. Many inholdings have been 
acquired by the State, private groups, or BLM that made this 
area more manageable and enhanced their wilderness 
characteristics. Far fewer mining claims exist in the area than 
were therel5 years ago. These areas are currently primarily 
non-motorized.
    In addition, Title I expands six existing wilderness areas 
that were designated under Public Law 103-433 the California 
Desert Protection Act and earlier wilderness bills: Agua Tibia, 
Orocopia Mountains, Palen/McCoy, and Chuckwalla Mountains 
Wilderness managed by the BLM; Joshua Tree National Park 
Wilderness managed by NPS; and additions to the Santa Rosa 
Wilderness within Santa Rosa and San Jacinto Mountains National 
Monument managed by both the BLM and the Forest Service. The 
expansions, which will improve manageability, protect important 
resource values and improve dispersed recreational 
opportunities, range from a mere 500-acre addition to the 
existing Agua Tibia Wilderness to a large 23,000-acre addition 
to the Palen/McCoy Wilderness. Other additions include 5,000 
acres to the Orocopia Mountains Wilderness and 13,000 acres to 
the Chuckwalla Mountains Wilderness. These expanded wilderness 
designations are possible now because of acquisitions of land 
by the BLM and changes in on-the-ground conditions that have 
occurred since the original wilderness designations.
    Within the boundary of Joshua Tree National Park, section 
102(f) of S. 2109 designates 36,800 acres of land in non-
contiguous parcels as wilderness. All of these lands are 
wilderness quality. Of these acres, about 8,400 acres were 
designated only as potential wilderness as part of the original 
wilderness designation for Joshua Tree National Park in 1976 
(Public Law 94-567), because they were privately owned or used 
for non-wilderness purposes. The lands now are owned by the 
National Park Service and are appropriate for wilderness 
designation. Another 28,400 acres, owned by the National Park 
Service, are located in a roadless area west of the Cottonwood 
Entrance. A draft study conducted by the National Park Service 
supports wilderness designation for these lands.
    Section 103 of S. 2109 designates as potential wilderness 
approximately 43,100 acres of land along the park's 
southwestern boundary. This area is physically inaccessible and 
has no available water source. As such, the park already is 
managing this area as wilderness. About one-third of the 
acreage is in private ownership, and the National Park Service 
has been working to acquire these lands with donated funds, on 
a willing-seller basis. While we recognize the Congress' 
authority to designate this area as potential wilderness, we 
would like to work with the sponsor and the subcommittee to 
further clarify some ambiguities in this section.
    Finally, Title III of S. 2109 expands the boundary of the 
Santa Rosa and San Jacinto Mountains National Monument by 
approximately 8,360 acres, designating 2,990 of those acres as 
wilderness inside the monument. Santa Rosa and San Jacinto 
Mountains National Monument was originally designated by Public 
Law 106-351. Since then, the communities, agencies, and other 
interested members of the public in the Coachella Valley have 
strongly embraced the Monument and take great pride in their 
many achievements towards making the Monument a success story. 
The Santa Rosa and San Jacinto Mountains National Monument 
Advisory Committee fully participated in the development of a 
management plan that is now in the implementation phase. We 
support this proposed expansion, which would enhance 
manageability of the monument and expand protection of 
important habitat for the endangered Peninsular bighorn sheep.
    S. 2109 is a result of a multi-year process undertaken by 
the California Congressional delegation. This public process 
included engaging elected officials, interest groups, local 
communities, and the affected land managing agencies. We 
appreciate these efforts as we believe that local input and 
consensus-building are essential ingredients to successful 
wilderness bills. As this bill moves forward, we look forward 
to the opportunity to work with the Committee on the 
corrections and amendments discussed in this testimony and to 
ensure that the maps most accurately reflect the intended 
boundaries.
    Thank you for the opportunity to testify. I will be happy 
to answer any questions.

    Senator Wyden. Thank you.
    Mr. Bisson.

  STATEMENT OF HENRI BISSON, DEPUTY DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Bisson. Mr. Chairman and members of the committee, 
while I was introduced as Deputy Director for BLM, I'm here in 
my capacity as the Acting Senior Advisor to the Secretary on 
Alaskan Affairs, and I appreciate this opportunity to testify 
and will briefly summarize my testimony today.
    This Act would convey land from the Izembek National 
Wildlife Refuge to the State of Alaska for the purpose of 
constructing a road and would convey other non-Federal lands to 
the Izembek and Alaska Maritime National Wildlife Refuges and 
designate a portion of those additions as wilderness.
    The Fish and Wildlife Service is reviewing the proposal to 
assess the potential impacts, potential benefits and values for 
wildlife and wilderness resources. Additionally, the 
Administration has identified several technical issues in the 
legislation that we believe must be addressed and these are 
included in my written statement.
    The communities of King Cove and Cold Bay are located in 
the westernmost region of the Alaska Peninsula. These 
communities are accessible only by sea or air. King Cove and 
Cold Bay are separated by less than 20 miles but there is no 
road between the two communities.
    For many years, local residents have advocated the building 
of a road between the two communities across the Izembek Refuge 
and Wilderness for both transportation accessibility and 
safety. Until last year, transportation options between the 
communities were limited to private boats and commuter air 
service. Residents believe that the area's stormy weather makes 
these modes of transport unsafe, especially during medical 
emergencies when rapid transport to hospitals in Anchorage is 
essential.
    In 1997, legislation was introduced in the House and the 
Senate but did not pass. This would have resulted in 
construction of a road through the refuge and wilderness. To 
address community concerns, Congress appropriated $37.5 million 
in Fiscal Year 1999 for critical health and safety needs while 
avoiding building a road through the refuge and wilderness. 
Twenty million dollars was provided to construct a road-
hovercraft link between King Cove and Cold Bay. Fifteen million 
dollars was for improvements to the King Cove Airstrip and $2.5 
million was for a major renovation of King Cove Health Clinic.
    The State of Alaska determined that King Cove's location, 
as Senator Murkowski alluded to, in the valley prevented 
improvements to the airport to accommodate jets. So roughly $9 
million of the funds were then spent on a hovercraft and 
additional funds were directed to the road.
    In 2006, the Alaska Aleutians East Borough constructed a 
one-lane gravel road from the King Cove Airstrip to a temporary 
hovercraft dock four miles away where a hovercraft recently 
began carrying up to 49 passenger, an ambulance and cargo to 
and from Cold Bay. This marine road system was a preferred 
alternative, evaluated in a 2003 final EIS completed by the 
Army Corps of Engineers.
    The Administration recognizes the legitimate needs of the 
Alaska residents to have access to medical, dental and other 
health care. At the same time, we must also fulfill our 
obligation to the American public to ensure that any decisions 
affecting public trust are decided in the best interests of the 
American public.
    Dale Hall, Director of the Fish and Wildlife Service, 
visited Izembek Refuge and flew over the areas being proposed 
for conveyance. He met with the residents of King Cove and Cold 
Bay and discussed this issue with them. To date, the Department 
of the Interior has opposed proposals to build a road through 
the refuge and wilderness because of the impact on the 
wilderness values and biological resources within the refuge.
    However, over the last year and a half, the Service has met 
numerous times with representatives of the State of Alaska, 
Aleutian East Borough and the King Cove Corporation to discuss 
various interests in lands that now comprise the acres 
described in S. 1680.
    The bill offers more than 61,000 acres of State and private 
lands in exchange for 1,600 acres of national wildlife refuge 
land. Of that, more than 41,000 acres would be exchanged to 
make up for 206 acres of wilderness lands. This proposal would 
offer approximately 38 acres for every acre of wetland and 
wildlife habitat and over 200 acres per every acre of 
wilderness exchange which is a good deal for the refuge.
    Therefore, the Administration supports this exchange, 
subject to NEPA and several technical changes we would be happy 
to work with you on.
    I appreciate the opportunity to be here today and would be 
happy to answer any questions you may have.
    [The prepared statements of Mr. Bisson follow:]
  Prepared Statement of Henri Bisson, Deputy Director, Bureau of Land 
                 Management, Department of the Interior
                                s. 2109
    Thank you for inviting me to testify on S. 2109, the California 
Desert and Mountain Heritage Act. The Department of the Interior 
supports S. 2109 as it applies to BLM and NPS designations but would 
like the opportunity to work with the subcommittee on a number of 
clarifications, including acreage and mapping adjustments. We defer to 
the Department of Agriculture on those designations on National Forest 
System lands.
    The Department strongly supports Congressional efforts to resolve 
wilderness designations throughout the West, and we welcome this 
opportunity to further those efforts. Only Congress can determine 
whether to designate Wilderness Study Areas (WSAs) as wilderness or 
release them for other multiple uses. We support the resolution of WSA 
issues and stand ready to work with Congress toward this goal.
    S. 2109 designates wilderness throughout Riverside County, 
California on lands managed by the BLM, National Park Service (NPS) and 
Forest Service. It also expands the BLM and Forest Service-managed 
Santa Rosa and San Jacinto Mountains National Monument (designated by 
Public Law 106-351) as well as designates a number of Wild and Scenic 
rivers under the management of the Forest Service.
    S. 2109, as introduced, includes acreage numbers that do not match 
area descriptions or the maps provided to the sponsors by the 
Department. We are working with the sponsor and the subcommittee to 
make appropriate corrections. Our discussions of the bill in this 
testimony will reflect the updated acreage numbers.
    Title I designates four new wilderness areas: Beauty Mountain and 
Pinto Mountains Wilderness to be managed by the BLM as well as Cahuilla 
Mountain and South Fork San Jacinto Wilderness to be managed by the 
Forest Service.
    The proposed new Beauty Mountain Wilderness would cover over 15,000 
acres of BLM-managed lands. It is one of the last undeveloped areas in 
the region; numerous outside groups recognize both its significance as 
open space and the important resource values of Beauty Mountain. We 
should note that the boundary for Beauty Mountain is arbitrarily set at 
the Riverside County line. The second new BLM wilderness area, Pinto 
Mountains wilderness, lies just to the north of the National Park 
Service's Joshua Tree National Park and wilderness. Much has changed in 
these areas during the last 15 years. In 1994, the California Desert 
Protection Act changed the management landscape in the entire 
California desert. That same year, much of the area was designated as 
critical habitat for the threatened desert tortoise. This area is 
important habitat for the desert bighorn sheep. Many inholdings have 
been acquired by the State, private groups, or BLM that made this area 
more manageable and enhanced their wilderness characteristics. Far 
fewer mining claims exist in the area than were there15 years ago. 
These areas are currently primarily non-motorized.
    In addition, Title I expands six existing wilderness areas that 
were designated under Public Law 103-433 the California Desert 
Protection Act and earlier wilderness bills: Agua Tibia, Orocopia 
Mountains, Palen/McCoy, and Chuckwalla Mountains Wilderness managed by 
the BLM; Joshua Tree National Park Wilderness managed by NPS; and 
additions to the Santa Rosa Wilderness within Santa Rosa and San 
Jacinto Mountains National Monument managed by both the BLM and the 
Forest Service. The expansions, which will improve manageability, 
protect important resource values and improve dispersed recreational 
opportunities, range from a mere 500-acre addition to the existing Agua 
Tibia Wilderness to a large 23,000-acre addition to the Palen/McCoy 
Wilderness. Other additions include 5,000 acres to the Orocopia 
Mountains Wilderness and 13,000 acres to the Chuckwalla Mountains 
Wilderness. These expanded wilderness designations are possible now 
because of acquisitions of land by the BLM and changes in on-the-ground 
conditions that have occurred since the original wilderness 
designations.
    Within the boundary of Joshua Tree National Park, section 102(f) of 
S. 2109 designates 36,800 acres of land in non-contiguous parcels as 
wilderness. All of these lands are wilderness quality. Of these acres, 
about 8,400 acres were designated only as potential wilderness as part 
of the original wilderness designation for Joshua Tree National Park in 
1976 (Public Law 94-567), because they were privately owned or used for 
non-wilderness purposes. The lands now are owned by the National Park 
Service and are appropriate for wilderness designation. Another 28,400 
acres, owned by the National Park Service, are located in a roadless 
area west of the Cottonwood Entrance. A draft study conducted by the 
National Park Service supports wilderness designation for these lands.
    Section 103 of S. 2109 designates as potential wilderness 
approximately 43,100 acres of land along the park's southwestern 
boundary. This area is physically inaccessible and has no available 
water source. As such, the park already is managing this area as 
wilderness. About one-third of the acreage is in private ownership, and 
the National Park Service has been working to acquire these lands with 
donated funds, on a willing-seller basis. While we recognize the 
Congress' authority to designate this area as potential wilderness, we 
would like to work with the sponsor and the subcommittee to further 
clarify some ambiguities in this section.
    Finally, Title III of S. 2109 expands the boundary of the Santa 
Rosa and San Jacinto Mountains National Monument by approximately 8,360 
acres, designating 2,990 of those acres as wilderness inside the 
monument. Santa Rosa and San Jacinto Mountains National Monument was 
originally designated by Public Law 106-351. Since then, the 
communities, agencies, and other interested members of the public in 
the Coachella Valley have strongly embraced the Monument and take great 
pride in their many achievements towards making the Monument a success 
story. The Santa Rosa and San Jacinto Mountains National Monument 
Advisory Committee fully participated in the development of a 
management plan that is now in the implementation phase. We support 
this proposed expansion, which would enhance manageability of the 
monument and expand protection of important habitat for the endangered 
Peninsular bighorn sheep.
    S. 2109 is a result of a multi-year process undertaken by the 
California Congressional delegation. This public process included 
engaging elected officials, interest groups, local communities, and the 
affected land managing agencies. We appreciate these efforts as we 
believe that local input and consensus-building are essential 
ingredients to successful wilderness bills. As this bill moves forward, 
we look forward to the opportunity to work with the Committee on the 
corrections and amendments discussed in this testimony and to ensure 
that the maps most accurately reflect the intended boundaries.
    Thank you for the opportunity to testify. I will be happy to answer 
any questions.
                                s. 1680
    Mr. Chairman and Members of the Committee, I am Henri Bisson, 
Acting Senior Advisor to the Secretary for Alaska Affairs, and I 
appreciate the opportunity to testify today on S. 1680, the ``Izembek 
And Alaska Peninsula Refuge and Wilderness Enhancement Act of 2007.'' 
This Act would convey land from the Izembek National Wildlife Refuge to 
the State of Alaska for the purpose of constructing a road, and would 
convey other non-Federal lands to the Izembek and Alaska Maritime 
National Wildlife Refuges and designate a portion of those additions as 
Wilderness.
    When evaluating proposals such as the one outlined in S. 1680, we 
must ensure that any change in the public estate improves the 
ecological and social values available to the public. In that spirit, 
the Administration could support S. 1680 if it is amended to ensure 
that a full National Environmental Policy Act (NEPA) analysis of the 
proposed exchange is required, including an analysis of the impacts of 
the road through Izembek National Wildlife Refuge. The NEPA analysis 
would provide a full disclosure of the impacts and benefits of the 
exchange and allow for public input into the decision-making process. 
The Service is currently reviewing the proposal to assess the potential 
benefits, values, and costs to wildlife and wilderness areas. These 
efforts will help inform the NEPA process. Additionally, we have 
identified some technical issues in the legislation that we believe 
must be addressed.
                               background
    The communities of King Cove and Cold Bay are located in the 
westernmost region of the Alaska Peninsula. These communities are 
accessible only by sea or air. King Cove and Cold Bay are separated by 
less than twenty miles, but there is no road between the two 
communities. For many years the residents of the Aleutians East Borough 
and King Cove have advocated building a road between King Cove and Cold 
Bay, across the Izembek Refuge and Wilderness for both transportation 
accessibility and safety. Until last year transportation options 
between the communities were limited to private boats and commuter air 
service. Residents believe that the area's stormy weather makes these 
modes of transport unsafe, especially during medical emergencies when 
rapid transport to Anchorage hospitals requires reaching Cold Bay's 
all-weather airport.
    In 1997, legislation was introduced in, but did not pass, the House 
and Senate that would have resulted in construction of a road through 
the Izembek Refuge and Wilderness to address critical health and safety 
needs of the King Cove community. To address these needs, Congress 
appropriated $37.5 million for a compromise in the Fiscal Year 1999 
Consolidated Appropriations Bill that addressed the critical health and 
safety needs while avoiding building a road through the Izembek Refuge 
and Wilderness. Specifically, $20 million was provided to construct a 
road-hovercraft link between King Cove and Cold Bay, $15 million was 
for improvements to the King Cove airstrip, and $2.5 million was for a 
major renovation of the King Cove health clinic. The State of Alaska 
determined that King Cove's location in a valley prevented improvements 
to the airport to accommodate jets. Roughly $9 million of the funds 
were then spent on a hovercraft and additional funds were directed to 
the road.
    In 2006, the Aleutians East Borough constructed a one-lane gravel 
road from the King Cove airstrip to a temporary hovercraft dock four 
miles away where a hovercraft now carries up to 49 passengers, an 
ambulance, and cargo to and from Cold Bay. An additional 14 miles of 
road beyond the temporary hovercraft dock have been completed or are 
under construction. The road does not extend into the Izembek Refuge or 
Wilderness, a requirement of the 1999 legislation providing the funding 
for the road. This marine-road system was the preferred alternative 
evaluated in a 2003 Final Environmental Impact Statement completed by 
the Army Corps of Engineers. That FEIS, which contained a partial 
analysis of a road only alternative, concluded that impact intensities 
for the road only alternative varied from negligible to significant.
    After six months of training and practice runs, on August 7, 2007, 
the hovercraft known as the Suna-X began its commercial service runs 
between King Cove and Cold Bay. King Cove residents, however, continue 
to seek a road linking their community with Cold Bay due to concerns 
about the reliability of the hovercraft in severe weather and 
uncertainty about future funding for the operational costs associated 
with the hovercraft.
    The Administration recognizes the legitimate needs of Alaska 
residents to have access to medical, dental, and other health care. At 
the same time, we must also fulfill our obligation to the American 
public to ensure that any decisions we make regarding lands held, and 
resources managed, in the public trust are decided in the best 
interests of the American public. Dale Hall, Director of the United 
States Fish and Wildlife Service visited Izembek Refuge and its 
significant wildlife values, and flew over the areas being proposed for 
conveyance; he met with the residents of King Cove and Cold Bay and 
discussed this issue with them.
                    izembek national wildlife refuge
    At approximately 315,000 acres, Izembek National Wildlife Refuge is 
the smallest and one of the most ecologically unique of Alaska's 
refuges. Most of the Refuge, about 300,000 acres, was designated as 
Wilderness in 1980 under the Alaska National Interest Lands 
Conservation Act. Izembek is internationally renowned for having some 
of the most striking wildlife diversity and wilderness values in the 
northern hemisphere.
    At the heart of the Refuge is the 150-square mile Izembek Lagoon. 
The lagoon and its associated state-owned tidal lands have been 
protected by the State of Alaska since 1960 as the Izembek State Game 
Refuge. Here, shallow, brackish water covers one of the world's largest 
beds of eelgrass, creating a rich feeding and resting area for hundreds 
of thousands of waterfowl. Virtually the entire world's population of 
Pacific black brant, Taverner's Canada goose, and emperor goose inhabit 
the lagoon each fall. Steller's eiders, a species listed as threatened 
under the Endangered Species Act, molt and winter in Izembek and 
Kinzarof Lagoons.
    In addition, the corridor between Izembek and Kinzarof Lagoons, 
through which the road proposed by this legislation would extend, is 
heavily used as a migration route and winter habitat for the Southern 
Alaska Peninsula caribou herd. Steller's eiders and sea otters, listed 
as threatened species, Pacific black brant, emperor geese and harlequin 
ducks use Izembek and Kinzarof Lagoons extensively.
    To date, the Department of the Interior and the Service have 
opposed proposals to build a road through the Izembek Refuge and 
Wilderness because of the impact on wilderness values and biological 
resources within the refuge. Over the last year and a half the Service 
has met numerous times with representatives of the State of Alaska, the 
Aleutians East Borough, and the King Cove Corporation to discuss 
various interests in lands that now comprise the acreage described in 
S. 1680. The bill offers more than 61,000 acres in exchange for 1,600 
acres of National Wildlife Refuge lands. Of that, more than 41,000 
acres would be exchanged to make up for 206 acres of wilderness lands. 
These proposals would offer approximately 38 acres for every acre of 
wetlands and wildlife habitat, and over 200 acres for every acre of 
wilderness exchanged.
                        technical considerations
    We have reviewed S. 1680 and identified a number of technical 
provisions we believe warrant further attention from the Committee as 
it considers this bill. For example, we encourage the Committee to 
review and amend the bill to remedy legal deficiencies or conflicts 
with established federal land laws such as sections 22(g) and 22(i) of 
the Alaska Native Claims Settlement Act and the wilderness withdrawal 
provisions of the Alaska National Interest Lands Conservation Act. 
Additionally, we note the need for a number of technical corrections 
concerning characterizations of ownership and management status of 
lands in the vicinity of the proposed road corridor, as well as various 
acreage figures provided in the bill. We would also be glad to provide 
you with more information on the lengthy and inclusive public 
involvement process leading to the 1980 designation of Wilderness 
within the Izembek National Wildlife Refuge.
    Moreover, we have significant concerns about Section 4 of the bill, 
which would provide for immediate reconveyance of the 61,723 acres of 
non-federal lands back to non-federal ownership if a court injunction 
prohibits construction of the road or the State or King Cove 
Corporation determine that the road cannot be feasibly constructed or 
maintained. As written, this provision shifts the risks of the road 
project largely to the public trust. In the event of this reconveyance 
there is no provision for a similar reconveyance of the road corridor 
back to federal ownership, nor is there provision for mitigation or 
rehabilitation of lands damaged by incomplete construction activities. 
Additionally, we are concerned about the timeline for which the 
Secretary must complete a cooperative planning process; we need to 
better understand the compatibility and construction authorization 
provisions of the legislation; and treatment of new and existing King 
Cove Corporation roads provisions. We hope our continuing review will 
assist in this understanding.
    We are happy to meet with your staff to discuss these issues in 
further detail.
                               conclusion
    In conclusion, I look forward to working with you as you move 
forward on this important issue. The Administration could support 
passage of this legislation if it were amended to ensure a full NEPA 
analysis on the exchange. We have also identified a number of technical 
changes and issues with the bill that we would like to work with you 
on, as well. I appreciate the opportunity to be here today and am happy 
to answer any questions you may have.

    Senator Wyden. Mr. Bisson, thank you, and I don't want to 
make too much mischief, but I found it curious that the 
Administration's recommending that with S. 1680 there be a full 
NEPA analysis of the proposed exchange since the Administration 
has repeatedly pushed for limitations to and exemptions from 
NEPA on a variety of issues relating to oil and gas drilling on 
public land, but we'll have some questions on those matters 
here in a minute.
    Let me start with you, if I might, Ms. Daly. It seems on 
the California bill, 2109, that one of the major issues is 
concerned with how the wilderness designation is going to 
affect fire management and it seems that several of the 
wilderness areas are additions to previously designated 
wilderness areas.
    How does the designation of these existing wilderness areas 
in some way frustrate your ability to manage fire?
    Ms. Daly. Actually, they do not frustrate our ability at 
all. The Wilderness Act specifically provides for managers to 
be able to use the appropriate equipment and techniques 
necessary for the protection of human health and safety, and I 
can give you a couple of examples, if I might, as to how this 
works.
    In Southern California, actually in the Santa Rosa and the 
Santa Jacinto National Monument in 2006, there was a very large 
wildfire in the Draghonia Wilderness Area. Because we are able 
to authorize that through our State directors very quickly, we 
were able to build approximately seven miles with a bulldozer 
of fire break to protect the locations and the communities 
around.
    This is not the first time it's happened in that area. The 
White River Wilderness totally burned in 1995 and because we 
were able to get in there and do the same kinds of techniques, 
we were able to assist the community of Morongo and the Capisan 
Reservation from being damaged by that fire.
    So, we don't see that there are restrictions. We have the 
tools necessary.
    Senator Wyden. Mr. Holtrop, the Forest Service is objecting 
to several of the proposed wilderness designations in the bills 
before the subcommittee where the designations aren't 
recommended in the Forest Plans.
    In contrast, the testimony of the BLM states that the 
department strongly supports congressional efforts to resolve 
these wilderness designation questions and that only Congress 
can designate wilderness areas.
    Why does there appear to be such a difference in the way 
that the two agencies are approaching wilderness?
    Mr. Holtrop. I believe that our testimony is reflective of 
the need to honor the public process that's involved in our 
forest planning effort. At the same time, we have taken a hard 
look at each of the proposed wilderness designations in each of 
the bills and looked at what our forest plan designations, 
again based on our public involvement process, was and if there 
was possibilities for meeting the commitments that we've made 
to the public through the designations in these various bills, 
we've offered suggestions as to adjustments that could be made 
to be successful in accomplishing that.
    Senator Wyden. One last question. The California Wilderness 
Bill includes language that requires the Forest Service to 
amend the applicable management plans within 6 months after the 
bill is enacted to authorize forest supervisors to take 
whatever appropriate actions are necessary in wilderness areas 
for fire prevention.
    What's the current role of the forest supervisors in 
dealing with this?
    Mr. Holtrop. The forest supervisor is the responsible 
official at the local level for all fire management activities 
and this would just be a continuation of that responsibility.
    Senator Wyden. One last question. I think we're going to 
have to if we're going to get to all the witnesses and try to 
stay within the 5-minute rule.
    Just if you could, Mr. Holtrop, tell us briefly why it 
would be beneficial to comply with NEPA prior to completing the 
proposed exchange.
    Mr. Holtrop. This is the Montana Cemetery Act you're 
referring to?
    Senator Wyden. No, this is the Alaska King Cove.
    Mr. Holtrop. I'm not the person for you to be asking that 
question.
    Senator Wyden. Oh, I'm sorry. Excuse me. This is for Mr. 
Bisson. Excuse me. My apologies.
    Mr. Bisson. The Administration feels that the NEPA is 
necessary in this case because of the fact that this is a mixed 
exchange. If this were an exchange simply between the Native 
Corporation and the Fish and Wildlife Service under existing 
laws, NEPA wouldn't necessarily be required, but because, I 
understand, this includes some State lands in the exchange, we 
would not normally be exempt from doing NEPA on this particular 
project.
    Furthermore, I think that the Fish and Wildlife Service is 
concerned that there be full public disclosure about the values 
involved in the exchange and that there be some public 
discussion about management descriptions related to use of the 
lands along the road should it be constructed.
    Senator Wyden. Very good.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Let me just 
follow up with questioning on the NEPA.
    Under the Alaska National Interest Lands Conservation Act, 
ANILCA, it does permit land exchanges to be done without the 
official NEPA analysis and contained within the legislation 
that we have in front of us, S. 1680, we've got an exclusive 
planning process that is specifically written into the bill to 
identify and mitigate potential adverse impacts on the bill.
    Can the planning process be structured so that we can reach 
agreement about the land exchange? The concern that I have, of 
course, is that this gets bogged down in litigation, this gets 
drug out by those who would really not want to see a land 
exchange take place whatsoever.
    Can you speak a little bit more to what we can do with the 
planning process that is included in this legislation?
    Mr. Bisson. Senator, if Congress passes legislation and the 
president signs it telling us to do a land exchange, subject to 
NEPA, which is what we're asking for, I view, and I believe 
Dale Hall would say he views that planning process as the tool 
to try to reach agreement on the management prescriptions in 
terms of what activities might be allowed adjacent to the road 
and that certainly, I think, would resolve a number of the 
concerns that people may have about what may or may not happen 
if that road were constructed.
    I think the bottom line is that the Administration is 
concerned about the health and welfare of the people in King 
Cove and feels that, you know, this process is necessary to get 
us to an endpoint.
    Senator Murkowski. So the planning process should only 
cover the location or the routing of the road as opposed to 
whether or not we advance with a road, yes or no?
    Mr. Bisson. I think it probably depends on what the 
legislation says. If the legislation says do a land exchange 
for these purposes and we're not excluded from doing NEPA, we 
would probably do NEPA on the exchange and the road, but 
ultimately and once that process is concluded, we would carry 
out the wishes of the Congress.
    Senator Murkowski. Let me ask you. You mentioned Dale Hall. 
He was at the House Resources Committee back in October when he 
testified at that time on the companion legislation that has 
been introduced over there and he expressed at that time that 
the land exchange would prove to be a net substantial gain for 
the American people, for the refuge and for wilderness.
    I'm assuming that that statement is still the department's 
position on that, that this in fact is a net gain?
    Mr. Bisson. It absolutely is, Senator.
    Senator Murkowski. We will hear testimony from several 
witnesses on the next panel. We have a representative from the 
Audubon Society and in his written statement, Mr. Senner 
indicates that the Audubon is opposed to this because the road 
is incompatible, he says, ``with the purposes for which the 
refuge was established because it would violate congressionally 
designated wilderness which deserves great respect.''
    Now, I continue to have some problems with the ethics of 
designating wilderness that leaves a community of 800 or 1,200 
people with no possible road access as a community, but setting 
aside that issue, doesn't the Alaska National Interest Lands 
Conservation Act, doesn't ANILCA expressly contemplate that 
transportation corridors can be established through wilderness 
areas?
    Mr. Bisson. I honestly don't know the answer to that 
question, Senator. I can only assume that it does but I don't 
know that for a fact.
    Senator Murkowski. It does.
    Mr. Bisson. OK.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Wyden. Thank you. Thank you, all. We may have some 
additional questions to pose to you in writing. We thank you.
    Our next panel, Dr. James Murray, President of the Virginia 
Wilderness Committee, Stan Senner, Executive Director and Vice 
President of Audubon Alaska, and Della Trumble with the 
Agdaagux Tribe in King Cove, Alaska.
    Ms. Trumble, while you're getting seated, am I pronouncing 
the tribe's name correctly? Agdaaux?
    Ms. Trumble. Very good.
    Senator Wyden. All right. Good enough for government work.
    All right. We thank all of you. Let's go first to Dr. 
Murray. All right. Dr. Murray, you've already been saluted by 
Senator Warner. Why don't you go? Again, let me ask all of you, 
I know the temptation is just to read your prepared statement, 
if you could just summarize your principle concerns, that will 
leave time for questions.
    Dr. Murray.

   STATEMENT OF JAMES MURRAY, PRESIDENT, VIRGINIA WILDERNESS 
                 COMMITTEE, CHARLOTTESVILLE, VA

    Mr. Murray. Yes, Chairman Wyden, members of the committee, 
thank you for the opportunity to testify on the Virginia Ridge 
and Valley Act.
    I last appeared before this committee in 1973 when I was 
here for the hearing on Senator Jackson's Eastern Wilderness 
Areas Act that gave Commonwealth of Virginia its very first 
wilderness area, the James River Face.
    This Act that we have before us today will designate nearly 
43,000 acres of new wilderness and wilderness study areas and 
nearly 12,000 acres of scenic areas.
    I'd like to commend our two Senators, Senator Warner and 
Senator Webb, for their hard work that they have put in on this 
bill.
    They have listened to all the interested parties, to local 
Boards of Supervisors, to members of users groups, hikers, 
horseback riders, mountain bikers, and above all members of the 
general public, and I have a list here of numerous 
organizations that I would like to have entered into the 
record.
    Senator Wyden. Without objection, it will be so ordered.
    Mr. Murray. The short answer is that we have a lot of 
public support for this in terms of Boards of Supervisors of 
four counties, Craig, Montgomery, Bland and Smyth, and lots of 
others of which I'll just single out Trout Unlimited, Virginia 
Council of Trout Unlimited, and the International Mountain 
Bikers Association, and I think this is a first occasion in 
which IMBA has endorsed a wilderness area.
    Some concerns have been expressed by the Forest Service 
about particularly the Brush Mountain Wilderness. Brush 
Mountain is unusual in it consists of a very large and very 
wild forest area that is almost adjacent to the community of 
Blacksburg, Virginia, and to its university, Virginia Tech.
    The Forest Service has concerns about the possibility of 
fire in the urban forest interface. However, in this case, the 
wilderness would be separated from the suburban areas by a road 
that runs along the very top of this mountain and by a 
substantial area of forest land that is between that road and 
the subdivision but which would not be included in the 
wilderness.
    The wilderness is supported by the homeowners association 
of that development and by the Montgomery County Board of 
Supervisors.
    There's also some question about the management of the 
Table Mountain Pine which is a species of pine that is endemic 
to the Rocky Ridges of the Southern Appalachians. It's a semi-
serotinous species which means that it takes fire to open the 
cones and the Forest Service would like to continue using 
managed fire in Brush Mountain to favor this species.
    I think there are two points that I can make here. The 
first is that we have worked with the Forest Service to exclude 
from the wilderness some of the major stands of Table Mountain 
Pine, and second, research at Virginia Tech has suggested that 
actually Table Mountain Pine now has larger populations than it 
did historically because of the logging of the end of the last 
century and early in this century where the Table Mountain Pine 
has been able to expand its area of habitation beyond its 
traditional habitat, so that the species is now retreating to 
its favored habitat on the tops of the mountain.
    The Virginia Ridge and Valley Act, I think, represents a 
truly bipartisan effort to protect some of the finest lands in 
the Jefferson National Forest. Its companion bill was supported 
in the House by a majority of the Virginia delegation from both 
sides of the aisle and we are most grateful to Senators Warner 
and Webb for their support in the Senate.
    We earnestly solicit your favorable action on this bill.
    [The prepared statement of Mr. Murray follows:]

  Prepared Statement of James Murray, President, Virginia Wilderness 
                     Committee, Charlottesville, VA

    Chairman Wyden, Ranking Member Barrasso, and Members of the 
Subcommittee, my name is James Murray, Professor of Biology 
Emeritus in the University of Virginia and President of the 
Virginia Wilderness Committee. Thank you for the opportunity to 
testify before the Subcommittee in support of the Virginia 
Ridge and Valley Act. I last had the privilege of appearing 
before your antecedent Committee in 1973, during hearings on 
Senator Jackson's Eastern Wilderness Areas Act, which gave the 
Commonwealth of Virginia its very first Wilderness, the James 
River Face. We have come a long way since then.
    S. 570, the Virginia Ridge and Valley Act, would designate 
nearly 43,000 acres of national forests as wilderness or 
wilderness study areas and nearly 12,000 acres as scenic areas. 
I should like to commend Senators Warner and Webb, as well as 
the House sponsor, Congressman Rick Boucher for their hard work 
on this legislation. This bill has taken shape in its current 
form under their leadership. In developing this proposal, they 
listened to all interested parties including the Forest 
Service, other interested Members of Congress, local governing 
bodies, representatives of users' groups such as hikers, 
horseback riders, and mountain bikers, and, above all, members 
of the general public. Today's bill is different from that 
which started out in 2001, as changes have been made to 
accommodate the various points of view. The result is that it 
enjoys wide local support. Four county governing boards have 
passed resolutions of endorsement, Craig, Montgomery, Bland, 
and Smyth. The list of supporting organizations is very long. 
We are most pleased to have received the endorsement of the 
Virginia Council of Trout Unlimited and the International 
Mountain Bicycling Association, truly a first endorsement of 
wilderness by the latter group.
    Some concerns have been expressed by representatives of the 
Forest Service with respect to the proposed wilderness areas on 
Brush Mountain. Brush Mountain is unusual in that it consists 
of a very large area of very wild forest, eight and a half 
thousand acres if we include the adjacent proposed Brush 
Mountain East Wilderness, almost at the back door of the 
community of Blacksburg, VA and its university, Virginia Tech. 
The Forest Service has concerns about fire in the forest-
suburban interface, and also about their ability to use 
prescribed fire in the management of Table Mountain Pine. While 
it is no doubt true that management of the suburban interface 
poses particular issues, consider what a wonderful resource 
this wilderness will be for the University and the community. 
We must remember that one of the purposes cited in the 
Wilderness Act is the use of wilderness for scientific 
research. Also we should note that the possibility of fire 
spreading from the wilderness to suburbia is mitigated by the 
existence of a road along the crest of Brush Mountain, serving 
as a ready-made fire-break, and by a substantial buffer of non-
wilderness national forest land between the road and the 
development. The proposed Brush Mountain Wilderness has been 
endorsed by the adjacent homeowners' association and the 
Montgomery County Board of Supervisors, and the proposed Brush 
Mountain East Wilderness has been endorsed by the Craig County 
Board of Supervisors.
    Table Mountain Pine is an endemic species restricted to 
special rocky ridge habitats in the southern Appalachians, and 
the Forest Service is concerned that populations may be on the 
decline. Since it is a semi-serotinous species, i.e. fire 
serves to increase the frequency of germination, the Forest 
Service would like to use prescribed fire in sites like Brush 
Mountain. Two points can be made here. First, an accommodation 
has been made whereby some of the larger stands of Table 
Mountain Pine have been excluded from the wilderness proposal. 
Second, research at Virginia Tech suggests that the current 
extent of the pine populations has resulted from the extensive 
logging of a century ago, which allowed the pine to extend its 
occupancy into habitats where it would not normally be able to 
compete. Hence the current retrenchment as the species retreats 
to more favorable habitats. We can therefore reasonably expect 
Table Mountain Pine to continue its hold on its preferred 
habitat. Populations of Table Mountain Pine can be found in all 
the mountain counties of the Jefferson National Forest except 
in the Clinch Ranger District in far southwest Virginia.
    Mr. Chairman, the Virginia Ridge and Valley Act represents 
a truly bi-partisan effort to protect some of the finest lands 
in the Jefferson National Forest. Its companion bill was 
supported in the House by a majority of the Virginia 
delegation, from both sides of the aisle, and we are most 
grateful to Senator Warner and Senator Webb for their 
unwavering support in the Senate. We earnestly solicit your 
favorable action on this bill.

    Senator Wyden. Thank you very much. Let's go now to you, 
Mr. Senner.

   STATEMENT OF STANLEY SENNER, EXECUTIVE DIRECTOR, AUDUBON 
                     ALASKA, ANCHORAGE, AK

    Mr. Senner. Thank you, Mr. Chairman and Senator Murkowski. 
I'm pleased to be here. Thank you.
    Audubon is opposed to the land exchange proposed in S. 1680 
for the purpose of building a road between the communities of 
King Cove and Cold Bay.
    Going back a decade now, Audubon is on record as 
recognizing the needs of the people of King Cove with respect 
to transportation and we have supported approaches that do not 
require a road through the Izembek National Wildlife Refuge and 
Wilderness.
    Specifically, Audubon supported improving the 
transportation link between King Cove and Cold Bay with a 
combination of a road to Leonard Harbor and a marine link, 
preferably a deep draft ferry.
    Audubon finds that the road is incompatible with the 
purposes for which the refuge was established. The road would 
fragment and ultimately degrade what we think are essential 
wildlife habitats in the heart of the Izembek Refuge, risking 
globally significant populations of migratory birds and, yes, 
it would violate congressionally designated wilderness.
    The lands proposed for addition to the refuges are 
generally not similar in character to the important habitats 
that would be impacted by the road. The exchanged lands are 
mostly peripheral to the area that would be impacted, and there 
are relatively few threats to those lands. Addition of these 
lands would not mitigate the long-term impacts of the road.
    When Congress redesignated what had been the Izembek 
National Wildlife Range from back in 1960, redesignated it as a 
refuge, it did so for the purpose of the conservation of fish 
and wildlife populations and habitats, including waterfowl, 
shore birds, other migratory birds and brown bears. This was in 
the Alaska Lands Act of 1980.
    Congress also designated the area under question here as 
wilderness and I'd like to quote from the House Report, House 
Merchant Marine and Fisheries Committee, 96th Congress. ``The 
Izembek Wilderness possesses outstanding scenery, key 
populations of brown bear, caribou and other wilderness-related 
wildlife and critical watersheds to Izembek Lagoon. About 68 
percent of the total lands in Izembek Lagoon are covered with 
the largest eel grass beds in the world. These beds are 
utilized by millions of waterfowl for migration for wintering 
purposes. A wilderness designation will protect this critically 
important habitat by restricting access to the lagoon.''
    Now, I'm a biologist, educated at the University of Alaska, 
worked on birds all over the State, and I'm here to tell you 
that the center of Izembek Refuge, the biological heart, is the 
combination of Izembek and Kinzarof Lagoons and the narrow 
isthmus that separates them as an integral part of that system.
    From the standpoint of migratory birds, this combined 
complex is essentially of global significance. I won't 
enumerate all the birds that use the area. Among them are the 
entire Pacific population of Brant, including birds from 
Canada, Russia, and Alaska. Many of those birds, Mr. Chairman, 
many of those Brant end up down on the coast of Oregon in 
migration where waterfowl hunters are able to take advantage of 
them along the Pacific Coast.
    Until last year, U.S. Fish and Wildlife Service 
consistently found that a road across the narrow isthmus 
between the Izembek and Kinzarof Lagoons would be incompatible 
with the purposes of the refuge and that a road would cause 
significant long-term harm to important values and resources.
    Problems with roads are well documented. I won't walk 
through the details of the testimony here. I will note that the 
legislation requires the cable barrier on each side of the 
road. I think that's a positive thing, but it's the road itself 
and the access and the use that comes with it that is the 
issue.
    Also note that the Army Corps of Engineers, in analyzing 
the various alternatives that followed passage of the King Cove 
Health and Safety Act, indicated that the road alternative 
would have the greatest impact on subsistence resources and 
it's no accident that 56 Native villages in the Yukon-Kuskokwim 
Delta under the banner of the Association of Village Council 
Presidents has also consistently opposed completion of this 
road, in part because it's the Brants that use Izembek in their 
area that are dependent. So they have a vested interest in 
that.
    I'll just conclude by saying that Audubon appreciates the 
State of Alaska's and the King Cove Corporation's proposals to 
add lands to the refuge. I know in the case of King Cove, this 
is a heartfelt decision. I've seen the area. I've visited with 
Della Trumble. I know it's a big decision. In the end, though, 
we don't believe that those lands compensate for what we think 
would be long-term impact of the road.
    Thank you.
    [The prepared statement of Mr. Senner follows:]
   Prepared Statement of Stanley Senner, Executive Director, Audubon 
                   Alaska, Anchorage, AK, on S. 1680
    My name is Stanley Senner, and I am Executive Director and Vice 
President of Audubon Alaska, which is the National Audubon Society's 
Alaska State Office. Thank you for the invitation to address the 
Members of the Senate Committee on Energy and Natural Resources 
Subcommittee on Public Lands and Forests today, 15 April 2008, in 
regard to S. 1680, the Izembek and Alaska Peninsula Refuge and 
Wilderness Enhancement Act.
    I offer this testimony on behalf of Audubon, an organization with 
more than 500,000 members and supporters across the country. Audubon's 
mission is the conservation of natural ecosystems, emphasizing birds 
and other wildlife, and their habitats, for the benefit of present and 
future generations. Audubon established an office in Alaska in 1977, 
and we have about 2,100 members in the state.
    By way of personal background, I first moved to Alaska in 1974 and 
have an M.S. degree in biology from the University of Alaska Fairbanks. 
I have studied birds and their habitats throughout the state, and I 
have spent much of the last 33 years engaged in wildlife and natural 
resources management and policy issues in Alaska. My career includes 
more than 7 years of service to the State of Alaska, under three 
governors, in the restoration and science programs following the Exxon 
Valdez oil spill, and three years in Washington, DC, on the Minority 
(Republication) Professional Staff) of what used to be the House of 
Representatives Committee on Merchant Marine and Fisheries. In the late 
1970s I was deeply engaged in developing what became the Alaska 
National Interest Lands Conservation Act of 1980.
    My home and office are in Anchorage, but I am fortunate to have 
visited the communities of Cold Bay and King Cove. I have driven the 
road from the King Cove side as far as it is possible to do so, walked 
in the Izembek Wilderness, and flown over the proposed exchange lands 
and road alignment.
                                overview
    Audubon is opposed to the land exchange proposed in S. 1680 for the 
purpose of building a road between the communities of King Cove and 
Cold Bay. Going back a decade, Audubon is on record as recognizing the 
wishes of the people of King Cove with respect to transportation, and 
we have supported approaches that do not require a road through the 
Izembek National Wildlife Refuge and Wilderness. Specifically, Audubon 
has supported improving the transportation link between King Cove and 
Cold Bay with the combination of a road to Lenard Harbor and a marine 
link (preferably a ferry) to Cold Bay. We continue to believe this is 
the best option and regret that much time and energy and millions of 
public dollars were spent on a longer road and hovercraft, which King 
Cove and the Aleutian East Borough have now concluded are insufficient.
    Audubon finds that the proposed road is incompatible with the 
purposes for which the Izembek refuge was established. This road would 
fragment and degrade essential wildlife habitats in the heart of the 
Izembek refuge, risking globally significant populations of migratory 
birds, and it would violate Congressionally-designated Wilderness, 
which deserves great respect. Further, the lands proposed for addition 
to the Izembek and Alaska Peninsula refuges are generally not similar 
in character and are not equal in value to the important habitats that 
would be impacted by the road, the lands are peripheral to the area 
that would be traversed by the road, and there are no threats to these 
lands. Addition of these lands would not mitigate the long-term impacts 
of the road. Hence, there is no net benefit to, nor enhancement of, the 
Izembek refuge, notwithstanding the acreage proposed for addition to 
the Izembek and Alaska Peninsula refuges.
                      importance of izembek refuge
    In 1980, as part of the Alaska National Interest Lands Conservation 
Act, Congress redesignated the existing Izembek National Wildlife Range 
(established in 1960) as the Izembek National Wildlife Refuge and 
designated about 300,000 of 417,533 acres in the refuge as 
Wilderness\1\. The purposes for which the refuge was established 
include conservation of fish and wildlife populations and habitats, 
including waterfowl, shorebirds and other migratory birds and brown 
bears.
---------------------------------------------------------------------------
    \1\ Not incidentally, proposed Wilderness at what was then the 
Izembek National Wildlife Range was endorsed by Alaska Governor Keith 
Miller as early as 1970.
---------------------------------------------------------------------------
    Congress has provided for one of the highest possible levels of 
protection for the portion of the Izembek refuge under consideration 
today: Wilderness designation within a federally-protected national 
wildlife refuge. This level of protection is well deserved, and the 
following excerpt from House Report No. 96-97, Part II (p. 136), in 
1979 makes clear why:

          The Izembek Wilderness possesses outstanding scenery, key 
        populations of brown bear, caribou and other wilderness-related 
        wildlife, and critical watersheds to Izembek Lagoon. About 68 
        percent of the total lands in Izembek Lagoon are covered with 
        the largest eelgrass beds in the world. These beds are utilized 
        by millions of waterfowl for migration and wintering purposes. 
        A wilderness designation will protect this critically important 
        habitat by restricting access to the Lagoon.

    At the center of Izembek refuge are two lagoons--Izembek and 
Kinzarof--separated by a narrow (< 3-mile wide) isthmus. In 
combination, the lagoons, their immediate watersheds, and the isthmus--
the Izembek-Kinzarof lagoons complex--make up the ecological heart of 
the refuge. From the standpoint of migratory birds, especially, this 
relatively small area is unquestionably of global significance and has 
been repeatedly recognized as such. For example, in 1986, President 
Reagan named Izembek as the first Wetland of International Importance 
in the United States under the Ramsar Convention on Wetlands. In 1991, 
Izembek was named a ``sister refuge'' with Russia's Kronotskiy State 
Biosphere Reserve under the U.S.--Russian Governmental Agreement on 
Cooperation in Environmental Protection. And in 2001, BirdLife 
International, in cooperation with the National Audubon Society, 
recognized Izembek as an Important Bird Area of global significance.
    Izembek refuge is best known for its world-class waterfowl and 
shorebird populations and habitats. The lagoons complex provides 
wintering, breeding, molting, refueling, staging or resting grounds 
for:

  <bullet> the entire Pacific population of Brant (138,000), including 
        birds from Canada, Russia and Alaska;
  <bullet> the world population of Emperor geese (70,000);
  <bullet> up to 70 percent of the world population of Steller's eiders 
        (100,000), including birds from Russia and Alaska. The Alaska 
        breeding population is listed as threatened under the 
        Endangered Species Act;
  <bullet> many species of other shorebirds, including Pacific Golden-
        Plovers, Rock Sandpipers, Dunlins; and
  <bullet> a resident (mostly nonmigratory) population of Tundra Swans.

    Many of the avian species using Izembek--including the Brant and 
Pacific Golden-Plover--are recognized on Audubon's Alaska WatchList of 
declining and vulnerable bird populations.
    Directly or indirectly, the lagoons complex is important for so 
many bird species and other fish and wildlife due to the presence of 
the world's largest eelgrass beds, which cover about half of each of 
the lagoons. Brant, Emperor Geese and other waterfowl graze on the 
eelgrass, and shorebirds prey on the invertebrates associated with the 
eelgrass. Eelgrass provides food and cover for commercially important 
fish and shellfish. The enormous productivity of the eelgrass beds in 
Izembek Lagoon and other lagoons on the north side of the Alaska 
Peninsula is a key element in driving the productivity of the larger 
Bering Sea ecosystem.
    The importance of the combination of Izembek and Kinzarof lagoons 
and the adjacent watersheds cannot be understated. Migrating and 
wintering Brant fly back and forth between the lagoons to forage; 
migrating and wintering Emperor Geese use Kinzarof Lagoon, while often 
foraging in the adjacent upland tundra for crowberries; and wintering 
and molting Steller's Eiders use Kinzarof Lagoon. When Izembek Lagoon 
freezes, Kinzarof Lagoon becomes particularly important for the 
survival of wintering bird populations. Kinzarof and Izembek lagoons 
are also used by marine mammals. Especially noteworthy is the fact that 
large numbers of threatened northern sea otters and also harbor seals 
can be found near the entrance to Kinzarof Lagoon, while threatened 
Steller's sea lions use the barrier islands on the outside of Izembek 
Lagoon.
    The narrow ``upland'' isthmus between Izembek and Kinzarof lagoons 
is a crucial travel corridor--the only path between the west and east 
sides of the refuge--for such wide-ranging species as brown bears and 
caribou. The Alaska Peninsula Caribou Herd, a population that has 
declined from about 10,000 to fewer than 350 animals in the last 10 or 
so years, uses the isthmus as its primary migration route (to and from 
calving grounds) and wintering area.
    Some of the highest densities of brown bears on the lower Alaska 
Peninsula are found in the Joshua Green River Valley, an area within 
three miles of the isthmus and proposed road corridor. Low levels of 
human disturbance have helped maintain the high habitat value of this 
area for brown bears. Bears produced in the Joshua Green watershed 
frequently roam the isthmus in their search for food.
    Numerous small streams along the north shore of Kinzarof Lagoon 
provide access routes to upland lakes for spawning sockeye salmon. 
Resident Tundra Swans nest in small wetlands and molt on the larger 
lakes on and near the isthmus.
                       harmful impacts of a road
    From the time that the King Cove road project was identified in the 
Bristol Bay Area Plan in 1985 until this past year, 2007, the U.S. Fish 
and Wildlife Service (``Service'') has consistently found that a road 
across the narrow isthmus between Izembek and Kinzarof lagoons would be 
incompatible with the purposes for which the Izembek refuge had been 
established and that a road would cause significant, long-term damage 
to important fish, wildlife, habitat, and wilderness values of the 
refuge. For example, in an August 1997 King Cove Road Briefing Report, 
the Service found the ``road alternative contrary to the purposes of 
the refuge'' and anticipated ``unacceptable environmental impacts if a 
road is constructed on refuge lands through the wilderness area.'' The 
Service supported further study and consideration of other 
alternatives, such as a marine link, which would provide increased 
travel safety, economic growth and fewer ecological impacts.
    The Environmental Impact Statement (EIS) on the King Cove Access 
Project, prepared in 2003 by the Army Corps of Engineers, in 
cooperation with the Service and funded by the Aleutian East Borough, 
examined the potential threats of the proposed road. The EIS found the 
all-road alternative to be the most damaging of all the alternatives 
evaluated. This conclusion was based in part on the largest footprint 
(287.0 acres) among the alternatives. The report documented the 
potential scope of the construction, noting the need for 36.7 acres of 
placement of fill material in waters of the U.S., including some 
wetlands below the high tide line, and 254 stream and drainage 
crossings requiring 8 bridges and 19 culverts across fish bearing 
streams. The report cited direct, indirect and cumulative impacts on 
the lands and on wildlife.
    The EIS also found that if the road between King Cove and Cold Bay 
was completed, it would be open for travel by all residents, placing no 
restrictions on the numbers or types of vehicles. Estimates of traffic 
rates on the road are unavailable, but vehicular traffic is likely to 
be variable on a daily and seasonal basis. Increased traffic is 
expected beyond that needed for emergency medical access to Cold Bay 
airport, including possible commercial use for transporting seafood to 
the Cold Bay airport. Increased traffic and transit by large and noisy 
vehicles would exacerbate impacts on birds and mammals using these 
vital habitats, thereby increasing stress and negative effects. 
Increased traffic also means increased dust, erosion and sedimentation, 
and pollution.
    Many scientific studies have implicated roads as having negative 
effects on terrestrial and aquatic ecosystems (e.g., Trombulak and 
Frissell 1999, US Forest Service 2001). According to the US Forest 
Service (2001):

          Undesirable consequences [of roads] include adverse effects 
        on hydrology and geomorphic features (such as debris slides and 
        sedimentation), habitat fragmentation, predation, road kill, 
        invasion by exotic species, dispersal of pathogens, degraded 
        water quality and chemical contamination, degraded aquatic 
        habitat, use conflicts, destructive human actions (for example, 
        trash dumping, illegal hunting, fires), lost solitude, 
        depressed local economies, loss of soil productivity, and 
        decline in biodiversity.

    Because roads have potential for introducing varied impacts to both 
terrestrial and aquatic ecosystems, roadless areas provide a 
significant foundation for developing comprehensive regional 
conservation strategies (Strittholt and Dellasala 2001).
    Although Section 4(c)(2)(A) of S. 1680 requires a cable barrier on 
each side of the road to prevent off-road motorized access, studies 
have shown that the mere presence of a road affects the behavior of 
wilderness-associated species, particularly brown bears and wolves.
    Roads generally result in harmful impacts to large carnivores (Noss 
et al. 1996, Trombulak and Frissell 1999). The construction of roads in 
what had been roadless brown bear habitat has been demonstrated by many 
investigators to have significant adverse impacts on bear populations 
by increasing human access, which results in displacement of bears or 
the direct mortality of bears through legal hunting, defense-of-life-
or-property (DLP) kills, illegal killing, and road kills (McLellan and 
Shackleton 1989, McLellan 1990, Mattson 1990, Schoen et. al. 1994, Mace 
et al. 1996). Titus and Beier (1991) demonstrated the strong 
relationship of road construction to increased bear mortality on 
northeastern Chichagof Island. Suring and Del Frate (2002) demonstrated 
an increasing probability of brown bears killed in DLP with increasing 
road density on the Kenai Peninsula.
    At Izembek, this situation is compounded by the fact that the 
isthmus is narrow, making it difficult for wildlife to avoid the road. 
Over time, use of the road would exacerbate the initial, adverse 
impacts of the road. Further, as we have seen elsewhere in Alaska, 
today's restrictions may be subsequently lifted. I well remember when 
the Dalton Highway, which runs north from the Fairbanks area to the 
Prudhoe Bay oilfields, was closed to public access. Today, you can 
drive a Winnebago to the Arctic Ocean. In 2006, the Alaska State 
Legislature considered lifting the ban on off-road vehicles (``ORV'') 
traffic off the Dalton Highway, and a picture of sport hunters with 
their pick-up truck stuck up to its axle in wet tundra was widely 
publicized. Problems with off-road access and increased hunting 
pressure, both legal and illegal, would be exacerbated by the Izembek 
refuge's lack of resources and staff, especially for law enforcement.
    The EIS also noted that the all-road alternative has the greatest 
potential of any alternative to adversely affect subsistence harvest 
due to its potential to create competition between residents of Cold 
Bay and King Cove. This impact on subsistence use due to enhanced 
access would be negative and potentially significant, and the local 
caribou herd, in particular, cannot withstand additional pressure.
    Concern about impacts on subsistence harvests extends beyond the 
Izembek area to the Yukon-Kuskokwim (Y-K) Delta, where many Alaska 
Native residents are dependent on Brant as a key subsistence resource. 
It is for this reason that the Association of Village Council 
Presidents (AVCP), the recognized tribal organization and non-profit 
Alaska Native Regional Corporation for 56 member Native villages in 
western Alaska, has consistently opposed the King Cove Road. In 1998, 
the AVCP passed a resolution opposing the road, and this opposition was 
reaffirmed in 2007 and again in 2008. It may be relevant to note that 
many residents of the Y-K Delta live in communities with fewer and less 
reliable transportation and medical-care options than are found in King 
Cove.
                congress previously addressed this issue
    Congress determined that a road through the Izembek Wilderness is 
not in the public's best interest when, in 1997, it passed the King 
Cove Health and Safety Act. With this legislation, Congress addressed 
King Cove residents' health and safety concerns by providing $37.5 
million from the American taxpayer to upgrade King Cove's medical 
facilities, improve the airstrip in King Cove, and provide for a 
transportation link between King Cove and the Cold Bay Airport, 
including a single lane, unpaved road from King Cove to a marine 
facility.
    Congress reiterated its intention not to permit a road through 
Izembek's designated Wilderness in the King Cove Health and Safety Act, 
Section 353(d):

          In no instance may any part of such road, dock, marine 
        facilities or equipment enter or pass over any land within 
        congressionally-designated wilderness in the Izembek Wildlife 
        refuge . . . 

    In addition, Congress required that all actions undertaken pursuant 
to this section must be in accordance with all other applicable laws.
    After passage of the King Cove Health and Safety Act, and prior to 
the Corps of Engineers issuance of a Record of Decision for the EIS, 
Congress adopted an appropriations bill with a rider that directed 
construction of a 17.6-mile road from the King Cove air strip to a 
hovercraft terminal. Construction for this road began in March 2004. 
More than $35 million dollars have been spent for this road, which 
remains unfinished. Construction costs continued to escalate as crews 
confronted numerous obstacles, including unstable volcanic soils in the 
area. Avoiding the unstable soils has meant rerouting the road onto the 
shores of Cold Bay, where winter ice scouring and spray will increase 
maintenance costs and safety problems. All of that effort and 
additional cost remain puzzling to observers since it would require 
moving the existing hovercraft terminus in Lenard Harbor, which is only 
seven miles from King Cove, to a point 10 miles farther away and 
require longer transits across steep, windy mountainous terrain where 
winter travel conditions would be made even more treacherous.
    Although any marine vessel is costly to maintain and operate, and 
won't be safe to operate under all conditions, the same may be said of 
a road, especially in the harsh environment surrounding Cold Bay. In 
fact, in the community of Cold Bay, it is not unusual for roads--
including the main road to the airport--to be closed because of an 
inability to keep the road plowed during snow/wind storms. Audubon has 
yet to see a current, rigorous analysis of the construction and 
operation-and-maintenance costs of the road. Nor have we seen an 
analysis of what can be expected in terms of road closures due to 
weather or what can be expected in the way of the inevitable accidents, 
injuries, and fatalities that will occur on the road. These issues 
should be considered fully prior to any further action on 
transportation alternatives.
                       lands offered for exchange
    Audubon appreciates that the State of Alaska and King Cove 
Corporation are proposing to exchange lands that have value as 
wilderness and wildlife habitat. Especially in the case of the 
Corporation, which has been a good steward of its lands, I know this 
was a very difficult decision.
    The exchange lands proposed in S. 1680, however, would not provide 
habitat comparable to or compensate for the loss or degradation of the 
Izembek-Kinzarof lagoons complex. Fundamentally, this is not an issue 
that can resolved on the basis of acreage: no amount of exchange lands 
can compensate for the unacceptable and irreversible impacts of a road 
on globally significant and unique wildlife habitats, which are the 
very heart of Izembek refuge.
    State Townships.--The two townships offered by the State 
(approximately 43,000 acres) do not include comparable wetlands 
habitat. The southernmost State township is primarily uplands, and is 
adjacent to some bear denning habitat, but has virtually no value for 
waterfowl. The more northern township has some wetlands and some 
caribou and brown bear habitat, but, except for Tundra Swans, is of low 
or very low value for the waterfowl species of concern in the lagoons 
complex. Although the State townships have wilderness qualities, as a 
practical matter, there is little or no development threat and little 
in the way of compensatory value. Neither of the State townships is 
located in the Izembek or Kinzarof lagoon watersheds.
    King Cove Corporation lands.--Corporation-owned lands offered along 
the eastern shore of Cold Bay (relinquished ANILCA selections, 
approximately 5,430 acres) are primarily uplands with low value for 
caribou or key waterfowl species.
    Lands offered in the Mortensen's Lagoon parcel, approximately 
10,800 acres, include upland and freshwater wetland habitats of medium 
to high value for caribou, brown bears, salmon, Tundra Swans, Emperor 
Geese, and several other waterfowl species, not including Brant and 
Steller's Eiders. Although Mortensen's Lagoon has some tidelands, it 
does not have the major eelgrass beds present in Izembek and Kinzarof 
lagoons, and it is these eelgrass beds that drive the productivity of 
the Izembek ecosystem. The Mortensen's Lagoon tract is bisected by a 
road, which would remain in use.
    The ``bookend'' parcels at the mouth of Kinzarof Lagoon, about 
2,500 acres, contain high-value habitats for waterfowl, northern sea 
otters and harbor seals, but have no foreseeable development threat. 
Further, these parcels are located within the ``zone of influence'' of 
road construction, operation and maintenance and, therefore, may 
sustain diminished usage and reduction in value over time.
    State Refuges.--The exchange proposal includes an offer to make 
Kinzarof Lagoon a State game refuge refuge. Although Kinzarof Lagoon is 
very valuable from a conservation perspective, historically Alaska has 
not made protection and management of State game refuges a priority. 
For example, Izembek State Game Refuge was established in 1972 and 
there still is no management plan and little in the way of an on-site 
State presence. In State ownership, the future of Kinzarof Lagoon would 
remain in question and may sustain unavoidable negative impacts from 
road construction, operation and maintenance, thereby limiting its 
benefit to Izembek refuge.

    Senator Wyden. Very good. Ms. Trumble, welcome.

          STATEMENT OF DELLA TRUMBLE, AGDAAGUX TRIBE, 
                         KING COVE, AK

    Ms. Trumble. Thank you, Mr. Chairman. Good afternoon, Mr. 
Chairman, Senator Murkowski, and other Members of the Senate 
Energy and Natural Resources Committee.
    My name is Della Trumble. I am Aleut, born and raised in 
King Cove, Alaska. I speak to you on behalf of the Agdaagux 
Tribe of King Cove, a federally recognized tribe of Alaska 
Natives.
    King Cove is an isolated Alaska Native village with roots 
that go back over 4,000 years. We Aleuts need a road from our 
village to the Cold Bay Airport, the third largest airport in 
the State of Alaska.
    We are blocked from the construction of the road by a 
wilderness area, the Izembek Wilderness, which Congress and 
this committee created and that is why we have come to this 
committee today to ask for Senate Bill 1680 be passed.
    We are supported in our effort by the National Congress of 
American Indians, the Nation's largest and most respected 
Indian organization, and Alaska Federation of Natives, the 
premier statewide Alaska Native organization, and we ask their 
resolution be included in the record.
    Senator Wyden. Without objection, that will be ordered.
    Ms. Trumble. Thank you. I speak to you today as an Aleut, 
Agdaaux tribal member, a mother, an Alaskan and a citizen of 
the United States. I am deeply connected to the lands that you 
know as Izembek Refuge through my ancestors who have lived and 
subsisted on this wilderness for 4,000 years. My ancestors and 
all the ancestors and people as well as future generations 
speak to me today in asking for your support of S. 1680.
    I remain puzzled and angered by the fact that the 
designation of these lands as wilderness are made without a 
single public hearing in King Cove. The records state that 
meetings were held in King Cove and in Anchorage without any 
notification given to King Cove, the community most affected by 
the decision to create wilderness.
    No one from the Federal Government has ever let us tell our 
story and why the wilderness would cut us off from the outside 
world with no hope of protecting our life, health, safety and 
quality of life.
    Gale force winds can dominate and fog can dominate our 
weather and one result is that air travel between our community 
airstrip located between two mountainous peaks, an all-weather 
airport in Cold Bay, is delayed or canceled half the time.
    Then it is anguish and for some families in King Cove it 
has brought tragedy. Since 1979, 11 people have died flying 
between King Cove and Cold Bay in bad weather. Even today, 
pregnant women must leave town and temporarily relocate to 
Anchorage for 6 to 9 weeks before their due date for fear of 
unpredictable weather, premature labor and complications.
    Because predictable, dependable, affordable and safe road 
transportation access in and out of King Cove is essential for 
our future, it continues to be our top priority. We have 
advocated for decades now to have this access to the Cold Bay 
Airport, an airport that the Agdaaux tribal members help build 
during World War II.
    We acknowledge and appreciate that Congress tried to help 
solve our transportation problems about 10 years ago with the 
King Cove Health and Safety Act, a road and marine link. 
Unfortunately, the Act has failed to solve our problems. The 
attached document describes the financial deficit which the 
hovercraft operations have generated and it seems to us that 
permanent shutdown is looming and is inevitable.
    When this happens, we're right back to the dark ages we 
have suffered since Congress first considered this issue 10 
years ago and we must have a real affordable solution and that 
is the road which is directed to be built by Senate Bill 1680.
    We have a 6-minute video which shows an infirm sick Aleut 
elder who was forced to climb up some 30 steps on a windblown, 
slippery and icy ladder which is the only way on to the 
isolated dock in Cold Bay.
    Mr. Chair, I guarantee you that you would not want any of 
your relatives or friends, whether pregnant, sick or infirm, to 
have to suffer this type of a fate. I ask that this video be 
given to each committee member and that it be included in the 
record.
    Senator Wyden. Without objection, it's so ordered.
    Ms. Trumble. I'm also the president of the King Cove 
Corporation, the local Alaska Native Village Corporation which 
owns the aboriginal Native land which Congress and this 
committee provided to the Alaska Natives in lieu of a 
traditional Lower 48 Indian reservation.
    On this issue, our tribe and corporation are as one. We 
recognize our duty to our people to improve the quality of 
their life and the lives of future generations.
    We come before you today not with our hat in hand. Senate 
Bill 1680 contains a land exchange of an unprecedented 
magnitude. More than 61,000 acres of land from the King Cove 
Corporation and State of Alaska are being offered to the 
Federal Government in exchange for 1,800 acres, of which 206 
acres are for a road corridor through a very small portion of 
the Izembek Refuge. Of those 61,000 acres, more than 45,000 
acres would become wilderness.
    Mr. Chairman, we believe this is unprecedented in the 
history of the Federal-tribal relations. We know of no instance 
in which a tribe traded back so much of its reservation to get 
access to an airport or similar need for its tribe's health and 
safety and quality of life which most Americans take for 
granted.
    We must have this road for our people to have a quality of 
life that all Americans expect, to protect the life, health and 
safety of the indigenous Aleuts and the people of King Cove.
    Thank you for your time and members of the committee.
    [The prepared statement of Ms. Trumble follows:]
Prepared Statement of Della Trumble, Agdaagux Tribe, King Cove, AK, on 
                                S. 1680
    Good afternoon, Mr. Chairman, Senator Murkowski, and other members 
of the Senate Energy and Natural Resources Committee.
    My name is Della Trumble. I am an Aleut born and raised in King 
Cove, Alaska. I speak to you on behalf of the Agdaagux Tribe of King 
Cove, a federally recognized tribe of Alaska Natives. King Cove is an 
isolated Alaska Native village with roots that go back over 4000 years 
in this area.
    We Aleuts need a road from our village to the Cold Bay airport, the 
3rd largest airport in the State of Alaska. We are blocked from the 
construction of the road by a wilderness area, the Izembek Wilderness 
which Congress and this Committee created. That is why we have come to 
this Committee today to ask that S. 1680 be passed.
    We are supported in our effort by the National Congress of American 
Indians, the nation's largest and most respected Indian organization 
and the Alaska Federation of Natives, the premier statewide Alaska 
Native organization. I ask that their resolutions* of support of our 
bill be included in the record.
---------------------------------------------------------------------------
    * All additional documents have been retained in subcommittee 
files.
---------------------------------------------------------------------------
    I am accompanied by another leader of my people, Stanley Mack an 
Aleut who was also born and raised in King Cove. Stanley is the Mayor 
of the Aleutians East Borough, our local government.
    I speak to you today as an Aleut, Agdaagux tribal member, a mother, 
an Alaskan and a citizen of the United States. I am deeply connected to 
the land that you know as the Izembek Refuge through my ancestors, who 
have lived and subsisted on this wilderness for 4,000 years. My 
ancestors and all the ancestors of my people as well as future 
generations speak through me today in asking for your support of 
S.1680.
    As an Aleut, and a U.S. citizen, I remain puzzled and angered by 
the fact that the designation of these lands as wilderness were made 
without a single public hearing in King Cove. The records state that 
meetings were held in Cold Bay and Anchorage, without any notification 
given to King Cove--the community most affected by the decision to 
create wilderness.
    No one from the federal government ever let us tell our story and 
why the wilderness would cut us off from the outside world with no hope 
of protecting our life, health, safety and quality of life. That is why 
we continue to fight for a just and fair solution to this problem. The 
passage of S.1680 will provide that solution.
    I would be proud to show you the beautiful community that is King 
Cove, nestled between sea and volcanic mountains. Gale force winds and 
fog can dominate our weather. One result is that air travel between our 
community airstrip, located between two mountain peaks, and the all-
weather airport in Cold Bay, is delayed or canceled about half of the 
time.
    Then it is anguish, and for some families in King Cove, it has 
brought tragedy. Since 1979, eleven people have died flying between 
King Cove and Cold Bay in bad weather. Even today, pregnant women must 
leave town and temporarily relocate to Anchorage for 6-9 weeks before 
their due date for fear of unpredictable weather, premature labor and 
complications. We think about this all the time because in a town as 
small as King Cove, we know who is facing this situation. In fact, my 
niece was born at sea on the galley table of a fishing vessel. Her 
mother's premature labor forced her to endure a dangerous 3-hour ocean 
voyage because of high winds and blizzard conditions.
    Because predicable, dependable, affordable and safe road 
transportation access in and out of King Cove is essential for our 
sustainable future, it continues to be our most important priority. We 
have advocated for decades now to have this access to the Cold Bay 
airport--an airport that King Cove residents helped to build in World 
War II.
    We acknowledge and appreciate that Congress tried to solve our 
transportation problem about ten years ago with the King Cove Health 
and Safety Act, requiring us to have a road and marine link. 
Unfortunately, the Act has failed to solve our problem.
    The attached document describes the financial deficit which the 
hovercraft operations have generated--$832,000 in that short time 
alone. This is a real cash deficit without any accounting for 
depreciation or other ``paper'' losses. We are a thinly populated area: 
the Borough as about 2700 residents and King Cove only 800 of those 
2700. It seems to us that permanent shutdown is looming and inevitable.
    When that happens, we are right back in the dark ages we have 
suffered since before Congress first considered this issue 10 years 
ago. We must have a real, affordable solution--that is the road which 
is directed to be built by S. 1680.
    What does that mean? It means that we have to endure cancellations 
and delays of scheduled aircraft constantly--often as much as 50% of 
the time. It means that in medical emergencies, King Cove residents, 
Aleuts and others, have to risk their lives to try to help someone get 
out of King Cove to Cold Bay so they won't suffer and possibly die.
    We have a 6 minute video which shows what this means. It shows an 
infirm, sick Aleut elder who was forced to climb up some 30 steps on a 
windblown, slippery and icy ladder which is the only way on to the 
isolated dock also located in an open windy, vulnerable location just 
offshore from Cold Bay. Mr. Chairman, I guarantee you that you would 
not want any of your relatives or friends, whether pregnant, sick, or 
just infirm or elderly to have to suffer this fate.
    We have provided a copy of this video which shows this for each 
committee member. I ask that this video be given to each committee 
member and that it be included in the record of this hearing.
    I am also President of the King Cove Corporation, the local Alaska 
Native village corporation which owns the aboriginal Native land which 
Congress and this committee provided to Alaska natives in lieu of a 
traditional lower 48 Indian reservation.
    On this issue, our tribe and corporation are as one. We recognize 
our duty to our people to improve the quality of their lives and the 
lives of future generations in ways that are direct, quantifiable and 
which reflect our deep and abiding connection to the land. That is the 
purpose of S. 1680.
    We come before you today not with our ``hat in hand.'' S. 1680 
contains a land exchange of an unprecedented magnitude. More than 
61,000 acres of land from the King Cove Corporation and State of Alaska 
are being offered to the federal government in exchange for 1,800 
acres, of which 206 acres are for a road corridor through a very small 
portion of the Izembek Refuge. Approximately 97 of these 206 acres 
would be in the wilderness section of the refuge.
    Of these 61,000 acres being offered to the federal government, more 
than 45,000 acres would become wilderness under the exchange. Almost 
13,300 acres of that land is King Cove native land which means we are 
trading back 17% of our heritage granted to us by Congress in 
settlement of our aboriginal rights in order to get our native, 
indigenous people what just about every other American takes completely 
for granted, the ability to drive to an airport when necessary for 
health, safety, and quality of life. We are also relinquishing a 5340 
acre selection under ANCSA which means about 20% of our total selection 
is affected by this trade.
    Mr. Chairman, we believe this is unprecedented in the history of 
federal-tribal relations. We know of no instance in which a tribe 
traded back so much of its reservation to get access to an airport or 
similar need for their tribe's health, safety, and quality of life 
which most Americans take for granted.
    This is indeed a heavy price to be paid for enhancing the lives of 
our people. But we are willing to do this because it is our scared duty 
to our ancestors and our future generations. WE MUST DO EVERYTHING WE 
CAN TO SECURE A SAFE AND GOOD LIFE FOR OUR FUTURE GENERATIONS.
    This Committee will probably hear today that this land to be 
exchanged is not threatened and therefore not necessary to add to the 
Refuge and Wilderness Systems. That is insulting to us. It is the 
Aleuts of King Cove who are threatened. We have been good stewards of 
all this land for 4,000 years. Are we to be punished because of our 
good stewardship?
    Congress rejected that same argument in 1980 when the Alaska 
National Interest Lands Conservation Act was passed. Most of the 
Izembek Refuge, and more than 50 million acres of ``non-threatened'' 
lands were turned into wilderness in 1980 by this Committee under 
ANILCA. Nevertheless, Congress deemed these ``non-threatened'' lands as 
necessary for protection in the wilderness system.
    We must have this road for our people to have a quality of life 
that all Americans expect and to protect the life, health, and safety 
of the indigenous Aleuts and all people in King Cove. To ensure that 
Congress will act on this request, we, and the State of Alaska have 
proposed an unprecedented land exchange, which will benefit all 
Americans. Please pass this bill so this road to protect our people can 
be built.
    Thank you for your time, Mr. Chairmen and members of the committee. 
I'll be happy to take any questions that you have.

    Senator Wyden. Well said, and it's evident that a great 
deal of work has gone into the Alaska legislation and yet I ask 
the question that I always ask when it gets to this point in 
the debate and having been through lots of efforts to try to 
fashion legislation.
    I'm curious whether there are any further talks that are 
underway among Alaskans trying to work out a compromise on 
1680. Obviously, you know, the topic would be how do you find a 
way to meet the needs of the communities which you have 
eloquently addressed, Ms. Trumble, while at the same time being 
sensitive to the various wildlife, you know, issues have also 
been raised today.
    Are there any further talks or are people just kind of in 
concrete here and this is the way it's going to be and tell me, 
if you would, whether there are further talks underway in an 
effort to try to find a compromise between Alaskans?
    I'll ask you first, Ms. Trumble, and then you can follow it 
up, Mr. Senner.
    Ms. Trumble. I'm not aware of any talks, that I'm aware of. 
I think we fully understand that and believe that this is our 
only alternative.
    Senator Wyden. Mr. Senner.
    Mr. Senner. Similarly, I'm not aware of additional talks.
    Senator Wyden. Would you all like to see additional talks 
or do you want to just say our way or that's that? I'm a big 
believer in further talks as a general effort to try to find a 
way to work these things out.
    Mr. Senner. If it were possible to have a conversation that 
was exploring alternatives to a road, I'd be delighted to have 
that talk. If it really is simply yes or no in regard to this 
road, then I think that's going to be a barrier.
    Senator Wyden. It seems to me the opportunity, and I don't 
pretend to be an authority on this, but I've listened to all of 
you and I know you're both very sincere that the area for 
common ground would be to look at a way to have a road so you 
meet the community's needs but to also be sensitive to the 
wildlife issues. I'll leave that for you Alaskans for another 
discussion.
    Just one question for you, Dr. Murray. With respect to the 
fire issues and you touched on, you know, Brush Mountain, my 
understanding is the local communities are very much aware of 
the fire issues and yet they are supporting the proposed 
designation of Brush Mountain as a wilderness area, is that 
right?
    Mr. Murray. That's correct, yes.
    Senator Wyden. OK. Congratulations to all of you in 
Virginia for your efforts, and we look forward to working 
further with you Alaskans as well and we'll wrap up today's 
hearing with Senator Murkowski's questions.
    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
your inquiry as to whether or not there is room to try to work 
out an accommodation. You're absolutely correct. The residents 
of King Cove are very passionate about it. They've lived with 
it. They've died with it, some have, and it is something that I 
think they would like a resolution and I think those who have 
concerns about it would also like that there be a resolution 
and that we're not in this constant seeming battle.
    I will remind the committee, though, that since the last 
time the Senate took up this matter back 10 years ago, 1998, at 
that time, the exchange was 664 acres of land to be transferred 
by King Cove, 580 of those to be added to the wilderness area 
as opposed to where we are now which is 61,000 acres versus the 
16.
    So, in terms of those that feel like they're giving, I 
think the people of King Cove feel that they have made quite an 
incredible accommodation. Certainly when a Native corporation 
agrees to give up 17 percent of their land that they were 
provided under ANILCA, that's a huge, huge give, but I would 
like to figure out a positive way forward.
    I want to acknowledge also that, in addition to Della being 
here today and speaking for the people of King Cove, we also 
welcome the Mayor and several other members of King Cove that 
have kind of put fishing season on hold and put their families' 
lives on hold in order to come and present these issues to us. 
So, I just wanted to acknowledge them, also.
    Della, I mentioned that the give that the people of King 
Cove are willing to make in order to get this road. It's 
substantial. It's beyond substantial. I don't know. I don't 
know if it is clear to others who have not seen what the 
community of King Cove lives with, understand exactly what it 
means that you are willing to give up so much for a road.
    We've got lots of roads back here, but if you could just 
perhaps go into a little more detail about what it means to 
live out in King Cove, what it means to be without the full 
medical facilities, knowing that your medevac is hours away and 
days away, depending on the weather, and you've given very good 
testimony in your written presentation, but a little bit more 
of the day in the life, and I appreciate you giving the 
committee members the story behind King Cove by way of video 
because I think we'll be able to see then some of the real life 
horror stories, the docking of the vessel and trying to get an 
injured person up when the waves have frozen on the rails and 
you're slipping all over the place.
    But could you just provide very quickly for the committee a 
little more detail about why you would be willing to give up so 
much just for a road?
    Ms. Trumble. Thank you, Senator. Yes, this issue, we've 
been fighting this for the last 30 years. This King Cove is a 
beautiful place. We're surrounded by mountains, 4,000 feet. You 
go toward the Cold Bay side and it's flat. You don't have the 
issue that the mountains create for us which is the wind. We 
get the wind off the--the wind shear off of the mountains.
    We can't fly between the two communities because of the 
wind and then it's a matter of trying to take the boat and 
sometimes that in itself, only if it's with a certain wind can 
you get by the dock in Cold Bay. King Cove has a weak water 
port. Cold Bay does not and so it's very dangerous to offload 
any patient in Cold Bay and there's been a lot of instances 
where just trying to haul a patient off in a stretcher with 
rope and moving back and forth and up and down and people 
getting hurt in just that way and personally from my own 
experience, I had a niece born on the galley table of a crab 
fishing boat in 70-mile-an-hour winds northwest and freezing 
spray.
    People are continuously put in dangerous circumstances of 
just trying to get into Cold Bay, not only the patients but 
including whoever is helping to transport them, and the other 
issue is when they're in King Cove long and they're waylaid 
longer, that contributes more to their health problems and 
usually makes it worse. It's a tough situation to be in. We 
love living there, but the people in King Cove really do 
deserve a better ability to get between the two communities, 
even just more than for medical evacuations.
    It's just the safety and ability to know that you can get 
back and forth to the communities without being afraid for your 
life.
    Senator Murkowski. Let me ask you because you and your 
family have lived there for generations. You know the land. You 
obviously love the land and care very deeply about it.
    There's been some dispute about the environmental values 
that are associated with the lands that would be part of this 
exchange, that perhaps what King Cove is giving up isn't as 
environmentally significant.
    Can you comment on that?
    Ms. Trumble. We disagree with that. The Aleut people in my 
region have lived and subsist off of those lands for thousands 
of years, including the whole Izembek Refuge. That's the part 
of what we're--that's what we're about.
    The lands that the King Cove Corporation are giving up, the 
Kinzarof Lagoon, and the Mortonson Lagoon have significant 
value to us as Aleuts. We also know from the standpoint of 
habitat value, that habitat is there because we hunt and 
subsist on those lands, also, and we believe that Fish and 
Wildlife would not agree to this exchange had they not believed 
that.
    Senator Murkowski. Mr. Chairman, I have a couple more 
questions, but I'm over my time. Did you want to ask some more 
here?
    Senator Wyden. No, I do not. You may proceed.
    Senator Murkowski. I can do that. Great. I appreciate that.
    Question for you, Mr. Senner. The Director of Fish and 
Wildlife Service believes that the desires of the King Cove 
people for a road and the conservation needs of the refuge can 
be harmonized. You don't agree with him or do not believe that 
they can be, yet your testimony doesn't identify any specific 
catastrophic consequences that could follow from construction 
of a one-land road on 206 acres in the refuge, yet the death of 
a Native elder or a child seeking medical attention, I mean, 
these are true catastrophes in my judgment.
    I guess as we as a committee try to balance out the 
potential risks and the harm, I'm clearly very sympathetic and 
understanding that we must ensure that we work to care for our 
environment, but when we have to balance, I guess, should we 
not err on the side of preserving human life?
    I do appreciate your--at least your body language and 
willingness that perhaps there are ways that we could work an 
arrangement, but I think if I heard you correctly, if the 
arrangement involved a road, you would continue to oppose it, 
is that correct?
    I don't want to be misreading your statement there.
    Mr. Senner. No, that is essentially correct, Senator. I do 
not see, given the choices for an alignment of a road, I do not 
see how that's an option that we could support.
    Senator Murkowski. So in your opinion then, there is no 
road that could be constructed that would be acceptable?
    Mr. Senner. I don't think so.
    Senator Murkowski. You have indicated several times, not 
only in your testimony but in your written testimony, that 
the--you refer to the real--the biological heart of the refuge 
and the concern that this road would be built in that 
biological heart.
    Where the eel grass is located in the Izembek, the other 
lagoons on the Bering Sea side of the refuge, I guess we've 
always heard that the real biological heart is where these eel 
grass beds are. So, are they or aren't they?
    Mr. Senner. They're in both. Kinzarof Lagoon is about 50 
percent covered by eel grass beds, the same as Izembek Lagoon. 
Of course, Izembek is much bigger, so it has more acres of eel 
grass.
    The birds use them both and in fact stellar siders which 
are a threatened species tend to prefer to use Kinzarof Lagoon. 
When Izembek Lagoon freezes over which it sometimes does, all 
of the wintering birds go to Kinzarof Lagoon and other 
locations on the south side of the isthmus.
    So, Senator, there really is an integrated system and 
biologically you don't want to start separating one from the 
other.
    Senator Murkowski. I've seen different--I've seen several 
maps of where the eel grass is in terms of the predominance of 
them and I don't know how old those maps are.
    Della, can you help me out with the location?
    Ms. Trumble. Thank you. The Kinzarof Lagoon is on the south 
side. It's a very small lagoon and that lagoon in itself has 
less than 50 percent. The Izembek Lagoon is 11 miles across and 
that is technically where the eel grass beds are and that's why 
the bulk, a 150,000 birds that go through there every year, the 
time they're there, are feeding in that lagoon and that is why 
we Aleut people classify the heart of Izembek Lagoon, the 
Izembek Lagoon.
    Kinzarof Lagoon is very, very small and very small eel 
grass beds.
    Senator Murkowski. Let me ask about the road and I 
appreciate the Chairman's time for this. This will be my last 
question to you, Mr. Senner, but your concern is you construct 
a road and basically it all falls apart after that and yet 
we've got about 14 miles, maybe 14 or 15 miles of road that are 
already in the wilderness. Many of the roads are used by the 
Cold Bay residents. The Fish and Wildlife Service uses them. 
The refuge personnel, hunters use them.
    So, you know, we're talking about an additional six miles 
of road that would be in the eastern part of the isthmus 
connecting the existing roads that already cross the isthmus 
and run right down to Kinzarof Lagoon and the eel beds that--I 
guess my question would be whether the habitat where the 
easement would be, is that less important or less significant 
to the migratory birds that--as compared to the existing roads?
    Your statement would lead one to believe that a road is 
new, it's foreign, it is something that hasn't happened, and 
yet you fly over and you've been out there, you know that those 
roads are in existence out there and you still have an 
incredible abundance of wildlife and waterfowl that come 
through.
    So, if the road is such a detriment, why has it not been a 
problem?
    Mr. Senner. Senator, first of all, the maintained roadways 
in the Izembek Refuge are not within the wilderness areas. The 
mileage that is within the wilderness area is not maintained 
and it is not driven on by U.S. Fish and Wildlife Service or 
other personnel.
    Second, one of the big differences is that there's only 80 
people in Cold Bay and the traffic on whatever roads there are 
is very limited. If you put in a road connection with the 
community of 800+ people in some seasons to Cold Bay, you add 
the daily traffic, you add possibly fish products moving from 
the fish processor in King Cove to Cold Bay and so on, we're 
talking about a much higher level of traffic. We're talking 
about a maintained roadway.
    We think the impacts will be significantly higher and then 
last, I would just say the point of the--what we think is a new 
road and it would be a new road to connect all the way through 
bisects a very narrow isthmus and that is with a maintained 
road that will have heavy traffic or heavier traffic and we 
think that that's a different order of magnitude in terms of 
the concern.
    Senator Murkowski. I think we need to keep in mind and 
appreciate that in this community of 800 people how many 
vehicles are there, Della?
    Ms. Trumble. There's 200 vehicles and I think on a daily 
average, you wouldn't see more than 10.
    Senator Murkowski. What are you paying for gasoline out 
there?
    Ms. Trumble. $4.30 a gallon.
    Senator Murkowski. OK. So people aren't going to be hopping 
in their car and just going out for a Sunday drive.
    Ms. Trumble. Not too many people can afford it that I am 
aware of at all, no.
    Senator Murkowski. It is something about that access, that 
I think we need to recognize that we're not talking about 
building a road the likes of which you would see back here that 
connects communities that are connected to other communities 
that then lead to something bigger. It is truly a very small 
connector road.
    Mr. Chairman, I appreciate your indulgence. Appreciate the 
opportunity to present this information to the committee today 
on behalf of the people of King Cove, and I would like to think 
that we can work with the committee in further advancing some 
positive progress.
    Senator Wyden. Thank you, Senator Murkowski, and let us 
also welcome the political leadership of King Cove as well. 
That is a long trek to make for the hearing.
    Here's what we're going to do at this point with respect to 
the Alaska legislation. I'm going to direct our staff, and they 
work very closely in a bipartisan way, to work with all of you 
and Senator Murkowski to see what we can do to come up with an 
approach that comes close to finding common ground.
    My view is that the best natural resources policy is always 
the policy that makes sense in terms of communities and makes 
sense in terms of the environmental values that we all feel so 
strongly about. So that will be the directive to the staff. 
Time is short because any efforts to try to address this issue 
will have to go into a second package of public lands bills 
that we have been working on that Chairman Bingaman and I feel 
very strongly about in some other areas that we care the most 
about that didn't find its way into the first package.
    But we will let the Virginians go with, I know, some issues 
that have to be worked out with the Administration, and you 
Alaskans, I know, feel passionately about your positions and 
we'll tell the staff to follow up working with Senator 
Murkowski on your concerns.
    With that, the subcommittee is adjourned.
    [Whereupon, at 4:04 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Joel Holtrop to Questions From Senator Barrasso
                          s. 570 and h.r. 1101
    Joel, in both the Virginia and the West Virginia bills, the forests 
had just recently completed revisions of their forest plans. Now you 
are being asked to respond to wilderness proposals that go beyond what 
the forest plans decided. I wonder how the public who invested their 
time and efforts in those plans might feel about Congress legislating 
over their hard work.
    Question 1. In terms of the Forest Service, does passing bills like 
these make it more difficult to engage the public in meaningful forest 
planning efforts on these forests or elsewhere?
    Answer. Engaging the public meaningfully in forest planning efforts 
is always a challenging and rewarding experience. We have attempted to 
honor the public's participation in these efforts by presenting to the 
committee the recommendations from the most recent Forest Plan. We will 
continue to offer the public opportunities to participate in our 
planning efforts and expect that they will continue to provide their 
comments and insights.
    Question 2. Your testimony includes a number of concerns related to 
S. 570 and H.R. 1101--the wilderness proposals on the Jefferson 
National Forest.
    In regard to the Kimberling Creek Addition and your concern about 
potential wilderness status. If we designated it as wilderness but gave 
the forest 10 years to implement the rehabilitation plan you spoke of, 
could you support this proposal?
    Answer. The Kimberling Creek addition was recently acquired as 
National Forest System (NFS) land. Due to an extensive road network, in 
its current condition, the area does not contain the basic natural 
characteristics that make it suitable for wilderness. In our testimony, 
we recommended that the Committee consider allowing the Secretary to 
continue the current management prescription for this area which is 
Dispersed Recreation--Unsuitable (for timber production). This 
management emphasis provides for a variety of dispersed recreation uses 
with minimal vegetation management and would allow use of motorized and 
mechanized equipment for needed road and trail rehabilitation work. We 
plan to develop rehabilitation plans and implement these plans within 
the next 10 years. We recommend that its designation as Wilderness be 
reevaluated by Congress after this work is complete.
    The Department does not support the designation as ``potential 
wilderness'' for the 349 acre portion of the Kimberling Creek area. The 
designation ``Potential Wilderness'' is not a designation referenced in 
the Wilderness Act of 1964. A subsequent designation of wilderness 
following a fixed time period and associated compulsory changes in 
conditions can serve to limit the Secretary's discretion in the 
allocation of scare resources and other management actions associated 
with the administration of the NFS and the National Wilderness 
Preservation System.
    For the same reasons the Department would not support bill language 
in which Kimberling Creek would be designated Wilderness in 10 years.
    Question 3. In the case of the Brush Mountain and Brush Mountain 
East proposals, how wide of an area does the Forest Service need in 
order to keep the power line corridor you expressed concern about 
viable? Would a quarter mile buffer on either side of the existing 
right-of-way suffice?
    Answer. There is a 765-kV electric transmission line that separates 
the proposed Brush Mountain wilderness area from the proposed Brush 
Mountain East wilderness area. The current maps show a 250-foot offset 
from the center of the transmission line to the wilderness boundaries. 
That 500-foot corridor keeps the utility corridor (as defined in our 
Forest Plan) for the transmission line out of both of the wildernesses, 
and this meets our needs.
                                s. 2109
    Upon reviewing the prepared maps of these wilderness proposals I 
have some concerns with the status of their roads should these 
proposals become designated.
    Question 4a. Within the South Fork San Jacinto Proposed Wilderness, 
do you think that a wilderness designation would impede the utilization 
of the existing roads to fight fires?
    Answer. All existing roads have been excluded from or 'cherry-
stemmed' out of the proposed designation so they remain open to 
facilitate fire suppression activities.
    Question 4b. Could the lack of ability to fight fires be a threat 
to areas surrounding this proposed wilderness?
    Answer. Our ability to aggressively suppress wildfires to protect 
public health and safety is not significantly hampered by the 
wilderness designation. Congress has specified that for the protection 
of public health and safety any necessary measure to control fire in 
wilderness areas may be taken.
    Question 4c. What about the roads and the ability to fight fire 
within the Cahuilla Proposed Wilderness?
    Answer. The same authority to fight fire in the South Fork San 
Jacinto Proposed Wilderness would apply within the Cahuilla Proposed 
Wilderness. Also see the answer to the previous question.
    Question 4d. Would the ability to fight fires be restricted in any 
of the other proposed wilderness areas under this bill? And would this 
restriction be a threat to surrounding areas?
    Answer. The provisions of this bill specific to fire suppression 
apply to all areas that would be designated as wilderness under this 
bill. Therefore, the authority and ability to fight fire in the South 
Fork San Jacinto Proposed Wilderness would apply equally in the other 
proposed wilderness areas established under this bill.
    Question 5a. Considering the State of California's Renewable 
Portfolio Standard which requires that 20% of its electricity needs be 
met with renewable energy by 2010:
    Are you aware of any utility corridors for renewable electricity 
projects near these proposed wilderness areas?
    Answer. We are not aware of any utility corridors near these 
proposed wilderness areas.
    Question 5b. What constraints would be imposed on these corridors 
and on renewable energy projects located near these proposed wilderness 
areas?
    Answer. There are no utility corridors present and no renewable 
energy projects located near the proposed wilderness areas.
    Question 5c. Would these wilderness designations exacerbate any 
difficulties the State might have in meeting its mandate by 2010?
    Answer. We defer this question to the State of California.
                                 ______
                                 
       Responses of Della Trumble to Questions From Senator Akaka
                                s. 1680
    Question 1. In your testimony you note that the designation of 
these lands as wilderness were made without a single public hearing in 
King Cove. Please tell this Subcommittee why you think the Aleuts of 
King Cove were not involved in the federal government 's decision over 
25 years ago to create the wilderness lands that ultimately prevented 
having surface transportation access to the Cold Bay Airport?
    Answer. I do not know why King Cove residents were omitted in this 
process. However. I do not believe it was by malicious intent. 
Communications of any kind between government agency personnel and 
local residents 30-40 years ago in rural Alaska were very limited. We 
only had one phone in the entire community at that time and summers 
were spent salmon fishing every day.
    In retrospect, the primary aggravation is that the public record 
shows that the federal government sent out over 1,500 notices to 
individuals in Alaska, the ``lower'' 48 states, Europe, and Canada, but 
not a single letter to anyone in King Cove. Two public hearings were 
held, one in Anchorage and one in Cold Bay. At the meeting in Cold Bay, 
the record shows that Mike Uttecht an elder, who was from King Cove and 
living in Cold Bay at the time, spoke to the issue of a possible road 
connection between the two communities.
    Elder Aleuts shared with us tha when their hunting/trapping cabins 
were burned down is when King Cove residents learned that these Izembek 
lands had been turned into wilderness, and that ``man's presence'' on 
these lands had to be removed. We believe if King Cove residents had 
been engaged in this process at that time our then current and 
historical use of these lands would have been acknowledged and a 
surface transportation corridor would have been designated between King 
Cove and Cold Bay.
    Question 2. Please briefly describe what health and safety issues 
this lack of surface access has caused your community?
    Answer. Over the last four decades, dozens of King Cove residents 
have experienced a wide range of medical and health issues because of 
our inability to reach the Cold Bay airport for transportation to 
Anchorage.
    This situation has caused deaths and severe medical complications 
when local residents cannot receive timely or safe transportation to 
the Cold Bay airport in order to be transported to medical facilities 
in Anchorage. When a sick or injured resident has to take a boat in 
rough sea conditions in an emergency situation, it is uncomfortable, 
and not an easy task off-loading them at the dock in Cold Bay. The dock 
in Cold Bay is not readily accessible given its location and sea state 
and weather conditions most of the time. In one particular case, an 
elder with a heart condition died on the dock in Cold Bay after a long, 
treacherous boat ride.
    Another example from this past March was when four local pregnant 
women were scheduled to travel to Anchorage. One of the women was 
having complications. The women were directed to go to the hovercraft 
to be transported to Cold Bay. Given the weather conditions, which were 
winds at 45 northwest, gusting to 60, with a wind chill below 0, the 
hovercraft was not able to travel. Later in the afternoon, the single-
engine commercial carrier made a trip to King Cove in windy conditions, 
to get the four women out. Two of the ladies, the one who was having 
complications, were simply too afraid to get on the plane. This is very 
common--many King Cove residents are afraid to fly between the two 
communities.
    Question 3. I understand that the land transfer involved in S. 1680 
represents about 20 percent of the land that Congress and the federal 
government returned to the Aleut people of King Cove to settle 
aboriginal claims as part of the Alaska National Interest Lands 
Consermtion Act. As President of the King Cove Native Corporation, what 
are your feelings about giving back to thefederal government such a 
significant amount ofyour native lands?
    Answer. Yes, it is a very high price to pay for the right to have a 
safe and dependable means of transportation access to the Cold Bay 
airport. My greatest frustration is realizing that if the then-
government process that originally designated the Izembek wilderness 
included King Cove representatives, we would have had a transportation 
corridor reserved.
    Consequently, the King Cove Corporation's Board of Directors 
emphatically supports doing whatever it now takes to have this safe and 
dependable access to the Cold Bay airport The health, safety and 
overall well-being of our shareholders, tribal members, other community 
residents, and visitors deserve safe and predictable transportation in 
and out of King Cove.
     Responses of Della Trumble to Questions From Senator Barrasso
    Question 4. How much money was invested in the last decade to pay 
for the cost of /lying or boating critically ill or injured people out 
of King Cove just to the Cold Bay?
    Answer. It is very difficult to estimate these costs. The attitude 
in King Cove has always been to do whatever it takes, regardless of 
cost, to get family, friends, or visitors to the Cold Bay airport when 
needed. The primary consideration is what will the current weather and 
sea state conditions allow for in consideration of safe and prudent 
transportation options, either by plane or water.
    In many instances, whether by boat, plane or hovercraft, these 
situations are in conditions that put the crew and medical staff at 
risk for their own lives. To us, there is no dollar amount that can be 
put on the value of saving lives.
    Our most haunting example is from the1980's when a Washington state 
crab fisherman had his leg severed. He was going to bleed to death if 
we could not get him to Anchorage, via a medivac flight from the Cold 
Bay airport. The only nurse in King Cove, along with an assistant, the 
injured fisherman, and pilot left the King Cove airstrip in total 
blizzard conditions and crashed on the way to the Cold Bay airport. All 
four were killed.
    Question 5. I know that the federal government stuck your town with 
a hovercraft as an alternative to the road Did they provide an annual 
stipend for the operation and maintenance of the craft?
    Answer. No annual funding for operating and maintaining the 
hovercraft was part of the original legislation. Consequently, the over 
$1.0 million in annual net operating loss for the hovercraft is not 
financially sustainable by our local government that has just 2,500 
people in it. Mass transit systems of all modes and locations 
throughout the United States require an operating subsidy.
    We are not seeking an operating subsidy. Instead, we are firmly 
convinced that a road is the only logical and financially sustainable 
transportation alternative for our particular need.
    Question 6. Do you have an estimate of what it might cost to 
upgrade one of the existing roads across the refuge and then extend it 
to King Cove in order to make it serviceable for medical evacuation?
    Answer. Of the 35 miles of roads that presently exist in the 
Izembek Refuge, including its wilderness area, we will require about 7 
miles of new construction to connect to this existing road network.
    This additional 7 miles of a new, one-lane gravel road is estimated 
to cost between $10-$15 million. Upgrades to the existing road links 
that would connect to this new road are estimated to be between $5-$8 
million. Therefore, a reasonable estimate of between $15-$23 million 
will be required to construct the missing link and to upgrade the 
existing road links.
    Question 7. To your knowledge, has Mr. Senner or his organization 
offered the United States 45,000 acres of land to turn into wilderness?
    Answer. No! To the best of our knowledge the land exchange proposal 
that we have put together, offering a ratio of 30 to 1 is 
Congressionally unprecedented.
    Question 8. To your knowledge, has Mr. Senner or his organization 
offered the citizens of King Cove an alternative to the hovercraft, or 
offered to subsidize the operation of the hovercraft as an alternative 
to your proposal?
    Answer. No! Instead, they continue to tell us that we should be 
pleased with the hovercraft and that it is working just fine. 
Furthermore, Mr. Senner, his organization, and many other environmental 
groups have been unwilling to acknowledge the simple fact that it is 
not financially sustainable.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

            Questions for Henri Bisson From Senator Barrasso
                                s. 1680
    I know that the Fish & Wildlife Service has wrestled with the issue 
of a road between King Cove and Cold Bay ever since the Izembek 
Wilderness was designated in 1980.
    Question 1. I wonder how the Department of the Interior and the 
Fish and Wildlife Service would feel about the safety of your employees 
if your offices were located in King Cove rather than in Cold Bay?
    Question 2. If the shoe were on the other foot and the Fish and 
Wildlife employees and their families had to live in King Cove, I 
wonder if it would have taken nearly 30 years to conclude that a road 
across this wilderness is a common sense solution. How do we deny the 
people of King Cove this access when it comes to the safety of a 
community and those citizens' right to reasonable access to adequate 
community medical facilities and emergency transportation to larger 
hospitals?
                                s. 2109
    With regard to Section 103 which proposes the designation of some 
43,000 acres along the southwestern boundary of Joshua Tree National 
Park; you state in your testimony that about a third of this acreage is 
under private ownership and that the Park Service has been attempting 
to acquire these lands with donated funds on a willing-seller basis.
    Question 1. How many acres of this private land have been acquired?
    Question 2. Have you met any opposition from landowners upon trying 
to purchase these lands?
    Question 3. Are there any issues that would create a checkerboard 
ownership between the national park, the proposed wilderness area, and 
private land?
    Question 4. Considering the State of California's Renewable 
Portfolio Standard which requires that 20% of its electricity needs be 
met with renewable energy by 2010:
    Are you aware of any utility corridors for renewable electricity 
projects near these proposed wilderness areas?
    Question 5. What constraints would be imposed on these corridors 
and on renewable energy projects located near these proposed wilderness 
areas?
    Question 6. Would these wilderness designations exacerbate any 
difficulties the State might have in meeting its mandate by 2010?
                                 ______
                                 
             Question for Elena Daly From Senator Barrasso
                          s. 758 and h.r. 1311
    This is the second time Congress has reversed course on the 
reverter language included in the Southern Nevada Land Management Act.
    Question 1. At what point do you think the requirements of the 
Southern Nevada Land Management Act are lost or become meaningless?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

      Statement of Linda Lance, Vice President, Public Policy The 
                           Wilderness Society
    Mr. Chairman and Members of the Subcommittee, we appreciate the 
opportunity to provide this statement for the written record of the 
hearing on S. 570; S. 1680; S. 2109; and S. 2581. The Wilderness 
Society has a longstanding interest in wilderness protection and sound 
natural resource management of our national forests and public lands. 
Founded in 1935, The Wilderness Society is a national non-profit 
environmental organization with more than 200,000 members that works to 
protect America's wilderness through public education, scientific 
analysis, and advocacy.
    Our goal is to ensure that future generations enjoy the clean air 
and water, beauty, wildlife, and opportunities for recreation and 
spiritual renewal provided by the nation's pristine forests, rivers, 
deserts, and mountains. The protection and preservation of our public 
lands and wilderness resources is crucial to ensuring that they survive 
for the enjoyment and use of future generations. We thank you for 
considering our testimony on these four legislative proposals.
                                 s. 570
    The Wilderness Society supports S. 570, the ``Virginia Ridge and 
Valley Act,'' which would designate nearly 43,000 acres of national 
forests as wilderness or wilderness study areas and nearly 12,000 acres 
as scenic areas. The bill was developed after careful consideration by 
all interested parties including the Forest Service, other interested 
Members of Congress, local governing bodies, representatives of users' 
groups such as hikers, horseback riders, and mountain bikers, and, 
above all, members of the general public. Two areas that best highlight 
the values and unique qualities of the Virginia Ridge and Valley Act 
are the proposed Brush Mountain and Brush Mountain East Wilderness 
areas. Both areas have been endorsed by the Board of Supervisors for 
the counties in which they are located. These areas are in the vicinity 
of Blacksburg, Virginia and Virginia Tech. The areas include mountains, 
valleys, native trout streams and old growth forests. It will be a 
popular wilderness area for local residents, students and visitors to 
the area and is worthy of wilderness designation.
                                s. 1680
    The Wilderness Society opposes this legislation and the proposal to 
build an unnecessary and ecologically damaging road through the heart 
of the Izembek National Wildlife Refuge. One of the world's most 
critical resting places for migrating birds is found in the cold-water 
lagoons and internationally significant wetlands of Izembek Refuge on 
the Alaskan Peninsula. The proposed road is not needed. The bill claims 
the road is necessary to address the transportation, health, and safety 
needs of King Cove. Congress addressed those needs in 1998, when it 
passed the King Cove Health and Safety Act. That legislation provided 
$37.5 million to upgrade King Cove's medical facilities, purchase a 
hovercraft to provide regular ferry and emergency medical service 
between King Cove and Cold Bay, construct new marine terminals, and 
build an unpaved road between the town of King Cove and the connecting 
marine terminal. The hovercraft is working. Hovercraft service 
commenced full-time operation on August 7, 2007 and has met every 
medical evacuation need of the King Cove community since it began its 
first training runs in February 2007.
                                s. 2581
    We support ``The Wild Monongahela Act,'' which will protect some of 
West Virginia's most spectacular wild areas--representing the heart and 
soul of our ``Wild and Wonderful'' state. This bipartisan legislation 
designates several new wilderness areas and expands three nationally 
renowned existing areas, totaling approximately 47,000 acres within the 
Monongahela National Forest. The act is the first piece of legislation 
to protect Wilderness in the state in nearly 25 years. It is broadly 
supported by a wide array of organizations representing the faith, 
conservation, sporting and business communities as well as many state 
and local elected officials and municipalities across West Virginia. 
While we support S. 2581 and encourage the Senate to pass the measure, 
we hope that the Senate will consider amending the legislation to 
include special places left out of the original legislation, including: 
Seneca Creek (24,143 acres), East Fork of the Greenbrier (9,705 acres) 
and Roaring Plains North and East (6,006 acres). These areas have no 
lasting protection currently and face pressure from industrial energy 
development, logging and road building if they are not protected. 
Wilderness designation is the best way to ensure they stay just like 
they are, wild and wonderful.
                                s. 2109
    The Wilderness Society strongly supports S. 2109, the ``California 
Desert and Mountain Heritage Act.'' This bill, sponsored by Senator 
Barbara Boxer, would protect some of the last wild places in Riverside 
County, the fastest growing county in California. The legislation would 
create four new wilderness areas, expand six existing wilderness areas 
including Joshua Tree National Park Wilderness, designate four wild and 
scenic rivers and add important areas to the Santa Rosa and San Jacinto 
Mountains National Monument. Designating these areas will protect 
important wildlife and plants, preserve clean water and clean air for 
communities, enhance the county's economy, enable outdoor recreation, 
and safeguard important historical and Native American cultural sites. 
The ``California Desert and Mountain Heritage Act'' is broadly 
supported by Democrats and Republicans, Chambers of Commerce and 
businesses, local elected officials and municipalities. The bill seeks 
to address local fire concerns with fire management provisions. It is 
our assessment that these local concerns could be effectively addressed 
with fire management provisions that mirror language used in other 
California wilderness statutes such as the recently enacted Northern 
California Coastal Wild Heritage Wilderness Act.
    Mr. Chairman and members of the Subcommittee, The Wilderness 
Society appreciates the opportunity to comment on these four 
legislative proposals and provide this testimony for the record of this 
hearing.
                                 ______
                                 
                                      The Wildlife Society,
                                      Bethesda, MD, April 15, 2008.
Hon. Ron Wyden,
Subcommittee on Public Lands and Forests, Senate Committee on Energy 
        and Natural Resources, 364 Dirksen Office Bldg, Washington, DC.
    Dear Chairman Wyden: This afternoon the Senate Energy and Natural 
Resources Committee will hear testimony on S. 1680, legislation that 
would authorize a land exchange and road corridor through the Izembek 
National Wildlife Refuge (NWR) and its Congressionally-designated 
Wilderness. The Wildlife Society opposes the road and asks that this 
letter be entered into the official record of the subcommittee's 15 
April hearing on S. 1680.
    The Wildlife Society was founded in 1937 and is a non-profit 
scientific and educational association of over 8,000 professional 
wildlife biologists and managers, dedicated to excellence in wildlife 
stewardship through science and education.
    The Wildlife Society is concerned about the effects of this 
proposed road on wildlife and wildlife habitat. Construction of a road 
through the refuge would threaten wildlife and habitat. Furthermore, 
the land exchange proposed in the bill fails to offer comparable 
protection or habitat for the important wildlife species at Izembek 
NWR.
    Izembek NWR provides habitat for a large array of wildlife. 
Federally threatened Steller's Eiders use the refuge, as do other 
migratory birds including Emperor Goose and Dunlin, which are listed as 
declining and vulnerable in Alaska (Pacific Flyway Management Plan 
2006, U.S. Shorebird Conservation Plan 2001). Ninety-eight percent of 
the world's Black Brant population use this refuge during migration. 
Both the Emperor Goose and Pacific Brant are well below population 
goals identified in Pacific Flyway Management Plans for those species. 
In 1986, Izembek NWR and Izembek Lagoon became one of the first sites 
in the United States to be recognized as a Wetland of International 
Importance, one of only 22 such sites in the United States. Izembek 
Lagoon is also identified as vital wading bird habitat within the 
Western Hemispheric Shorebird Reserve and East Asian-Australasian 
Shorebird Reserve networks. Izembek Lagoon also has one of the largest 
eelgrass beds in the world. Kinzarof Lagoon supports the largest beds 
of eelgrass on the south side of the Alaska Peninsula and is vital 
winter habitat for brant and Steller's Eider when Bering Sea estuaries 
are ice covered. These eelgrass beds provides quality habitat for 
crabs, salmon, various juvenile fish, brown bears, sea otters, tens of 
thousands of shorebirds, and half a million waterfowl.
    The proposed road would pass through an isthmus between Izembek and 
Kinzarof lagoons, a location representing a major wildlife migration 
corridor. The Southern Alaska Peninsula caribou herd, as well as brown 
bears and wolves regularly use this corridor and it is core wintering 
habitat for the caribou. The road would also cut through nesting and 
molting habitat for a small, resident population of Tundra Swans, which 
are sensitive to human disturbance. Finally, this isthmus is located 
between the two rich ecosystems of Izembek and Kinzarof Lagoons. There 
is frequent traffic across the isthmus as waterfowl, brown bears, and 
other wildlife travel between the two lagoons.
    According to the Fish and Wildlife Service's 1985 Comprehensive 
Conservation Plan for Izembek NWR, the proposed road could cause long-
term, negative effects to refuge resources. Potential impacts include 
disruption of migratory waterfowl populations during molting, spring 
and fall staging and winter and decreased productivity of caribou, 
Tundra Swans, and furbearers. Construction of a road may also increase 
the illegal use of ATVs on the refuge. Although only a partial road has 
been constructed on the east side of Cold Bay, illegal ATV use is 
already beginning to degrade wildlife habitat in wilderness areas to 
the east and northeast of Kinzarof Lagoon.
    The Wildlife Society urges you to vote against this bill, in light 
of the potential for serious adverse effects it would have on our 
nation's wildlife. Thank you for considering the views of wildlife 
professionals.
            Sincerely,
                                   Michael Hutchins, Ph.D.,
                                            Executive Director/CEO.
                                 ______
                                 
                        West Virginia Wilderness Coalition,
                                    Morgantown, WV, April 14, 2008.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, Senate Committee on 
        Energy and Natural Resources.
    Dear Chairman Wyden, Please accept the attached Statement on behalf 
of several of the organizations representing the broad and diverse 
support of West Virginians across the State for S. 2581, the Wild 
Monongahela Act. This statement expresses the support and gratitude for 
our Senators Byrd and Rockefeller's sponsorship of this legislation and 
articulates our desire to see it improved with the addition of some key 
areas that have been omitted.
    West Virginian's support protecting these areas for many reasons 
but primarily because doing so will help to ensure West Virginia's 
great way-of-life, and our cultural and natural heritage. Representing 
a cross-section of the support for wilderness, it includes; the West 
Virginia Council of Churches, comprised of 14 denominations approaching 
600,000 West Virginians; local lawmakers including Mayor John 
Manchester and the Lewisburg City Council; sportsmen's groups such as 
the Mountaineer Chapter of Trout Unlimited; conservation and civic 
organizations such as the League of Women Voters; Christians for the 
Mountains, as well as thousands of individuals across the state who 
have written letters and made phone calls in support.
    S. 2581 will protect some of West Virginia's most spectacular wild 
areas--representing the heart and soul of our ``Wild and Wonderful'' 
state. Many of these areas are vitally important to the people of West 
Virginia. The attached statement explains why many supporters of the 
Wild Monongahela Act believe that the legislation should be expanded to 
include a few key areas deserving and needing protection. These areas 
include Seneca Creek, Roaring Plains East and North and East Fork of 
the Greenbrier River Areas. We hope these areas will be added to the 
final version of the bill. Threats to these places won't allow us to 
wait another 25 years to protect them. Thank you for your 
consideration.
            Sincerely,
                                          David W. Saville,
                                             Coalition Coordinator.
   Attachment.--Statement of the West Virginia Council of Churches, 
 Christians for the Mountains, Mountaineer Chapter of Trout Unlimited, 
 West Virginia League of Women Voters, City of Lewisburg and the West 
                     Virginia Wilderness Coalition
    Chairman Wyden, Ranking Member Barrasso, and Members of the 
Subcommittee, on behalf of the West Virginia Council of Churches, 
Christians for the Mountains, Mountaineer Chapter of Trout Unlimited, 
West Virginia League of Women Voters, the City of Lewisburg and the 
West Virginia Wilderness Coalition, please accept the following 
testimony for the record in support of S. 2581, The Wild Monongahela 
Act: A National Legacy for West Virginia's Special Places.
    Introduced by both Senators Robert C. Byrd (D-WV) and Jay 
Rockefeller (D-WV) this bipartisan legislation designates several new 
areas and expands three nationally renowned existing areas, totaling 
approximately 47,000 acres within the Monongahela National Forest. The 
Wild Monongahela Act is the first piece of legislation to protect 
Wilderness in the state in nearly 25 years. Identical legislation (H.R. 
5151) has also been introduced in the House of Representative by the 
entire West Virginia delegation of Representatives Nick Rahall (D-WV), 
Shelly Moore Capito (R-WV) and Alan Mollohan (D-WV).
    S. 2581 will protect some of West Virginia's most spectacular wild 
areas--representing the heart and soul of our ``Wild and Wonderful'' 
state. Many of these areas are vitally important to the people of West 
Virginia. They represent some of our state's best places to recreate 
and are deeply important to our state's growing recreation based 
economy. These areas are home to many of West Virginia's world class 
streams and rivers which are popular destinations for anglers and 
whitewater enthusiasts. Protecting their watersheds will ensure high 
water quality and help to prevent flooding in communities downstream.
    While West Virginian's reasons for supporting this effort vary 
widely, it is clear that protecting these areas will help to ensure 
West Virginia's great way-of-life and wilderness heritage. Supporters 
of new wilderness in West Virginia represent a broad and diverse cross-
section of the state including: the West Virginia Council of Churches, 
comprised of 14 denominations approaching 600,000 West Virginians, who 
have endorsed protecting more wilderness and drafted and circulated a 
faith based statement supporting wilderness; local lawmakers, including 
the Lewisburg Mayor and City Council, who, along with numerous other 
cities and counties across the State, have passed resolutions 
supporting more wilderness; hundreds of health care professionals who 
have signed on in support of more wilderness because of its positive 
impact on communities health; hundreds of West Virginia businesses who 
recognize the economic value of wilderness, sportsmen's groups such as 
the Mountaineer Chapter of Trout Unlimited; conservation and civic 
organizations as well as thousands of individuals across the state who 
have written letters and made phone calls in support.
    The special areas protected by S. 2581 include:
Big Draft
    Located on the southern tip of the Monongahela National Forest, the 
proposed Big Draft wilderness is just twelve miles north of Lewisburg. 
It is home to numerous rare species of plants and animals. The proposed 
Big Draft wilderness has outstanding recreational opportunities with 
over 13 miles of established system hiking trails and a class III 
whitewater run. The trout, small-mouth and rock bass fishing along this 
route are excellent as well.
Cranberry Wilderness Expansion
    This proposed addition to the highly popular Cranberry Wilderness 
is located between the Williams River on the North and the Cranberry 
River on the South and West. The landscape is predominantly a lush 
moist forest of Red Spruce and various hardwoods. This addition would 
protect several tributaries of both the Williams and Cranberry Rivers 
which are legendary trout streams. The area has an excellent trail 
system connected to the existing wilderness and is held in high esteem 
by hunters, anglers, hikers and horse packers alike.
Roaring Plains West
    A high-elevation plateau which encompasses the highest sphagnum 
bogs in the state, and vast expanses of rocky, spruce-studded plains 
surrounded by outcrops offering spectacular views of surrounding 
mountain ranges. An average of 180 inches of snow falls on the area 
annually, creating opportunities for cross-country skiing and 
snowshoeing.
Spice Run
    This remote and rugged area provides excellent opportunities for 
solitude and backcountry recreation. A true wilderness experience 
awaits the hunter, hiker or angler who explores this unique area. It 
contains the watersheds of Spice, Davy and Kincaid Runs, all native 
brook trout streams which drain into the Greenbrier River. The 
elevation goes from just under 2,000 feet along the Greenbrier River up 
to 3,284 on the top of Slab Camp Mountain. Spice Run, along with Davy 
Run and Kincaid Run, cut steep hollows which define the terrain.
Dolly Sods Expansion
    Encompassing all of the area known as Dolly Sods North and 
protecting most of the upper drainage of Red Creek, this expansion 
would add approximately 7,144 acres to the existing Dolly Sods 
Wilderness. This plateau features large grassy expanses and bogs with 
heath barrens, blueberries and huckleberries. The area is home to rare 
Snowshoe Hares and New England Cottontails as well as endangered 
species such as the Cheat Mountain Salamander and the West Virginia 
Northern Flying Squirrel. For hikers, backpackers and horse-packers, 
Dolly Sods is especially popular for its many trails leading across 
diverse terrain with excellent backcountry campsites to be found 
throughout the area.
Cheat Mountain
    One of the most remote of all the proposed wilderness areas, Cheat 
Mountain contains the state's largest unbroken stand of Red Spruce. 
Special features of the area include the High Falls of the Cheat which 
is a major waterfall and favorite destination for hikers and excursion 
train visitors. The sound of the river below, in one of its steepest, 
most boulderstrewn stretches, adds to the visitor's experience along 
the Shavers Fork of Cheat, the highest river of its size in the eastern 
U.S.
    Earlier this month, the House Natural Resources Committee, reported 
out the House Version of this legislation (H.R. 5151). The bill was 
amended and while most of the changes were non-controversial, one 
amendment dropped the entire, Cheat Mountain area. This amendment 
disappointed many supporters of the Wild Monongahela Act. Rather than 
dropping an area we had hoped that the House of Representatives would 
improve the legislation to include areas left out of the original bill 
(both the House and Senate versions of the bill). These areas include 
Seneca Creek, Roaring Plains East and North and East Fork of the 
Greenbrier.
East Fork of Greenbrier
    The proposed East Fork of Greenbrier would permanently protect 
important headwaters of the Greenbrier River, which is depended upon as 
a source of drinking water by downstream communities. This area is 
known for its excellent trout fishing, whitewater paddling, hunting and 
hiking opportunities. The area is home to the federally endangered West 
Virginia Northern Flying Squirrel and the Candy Darter. Remote and wild 
in character, the proposed East Fork of Greenbrier wilderness is a 
quiet, peaceful place, with excellent opportunities for primitive and 
unconfined recreation. Without wilderness protection this area and 
these important headwater streams will continue to be threatened by 
commercial logging, oil and gas development and road-building.
Roaring Plains North & East
    These two units, which encompass the South Prong of Red Creek 
watershed as well as parts of the Flat Rock and Red Creek Plains, are 
part of the larger Roaring Plains complex. They are part of the Forest 
Service's roadless inventory and are highly qualified for wilderness 
status. Connected ecologically and recreationally with Roaring Plains 
West and the existing Dolly Sods Wilderness to the north, it makes 
sense for these areas to be designated as well since they possess all 
the same outstanding wilderness qualities. Both areas are typical of 
this region with scenic high elevation wetlands and jaw dropping views. 
The areas are threatened by the potential of industrial energy 
development in the form of wind turbines.
Seneca Creek
    The proposed Seneca Creek wilderness is West Virginia's premier 
wilderness candidate. This area is one of the largest unprotected 
roadless areas in the eastern United States and is the crown jewel of 
the Citizens' Wilderness Proposal. Seneca Creek itself has been rated 
as one of America's top 100 trout streams with a naturally reproducing 
population of native brook trout and rainbow trout. Because of the lack 
of disturbance in the watershed, Seneca Creek and its tributaries have 
very high water quality. Seneca Creek is legendary for the backcountry 
recreation opportunities it contains but is currently threatened by oil 
and gas development going on all around its border. Wilderness 
designation is critical to keeping this area just as it is.
    While we continue to support S. 2581 we hope that the Senate will 
consider adding the areas mentioned above to the legislation. These 
special places have no lasting protection currently and could face 
pressure from industrial energy development, logging and road building 
in the future. Wilderness designation is the best way to ensure they 
stay just like they are, wild and wonderful. With all the growing 
pressures on the Monongahela National Forest we fear many of these 
special places could be lost if we fail to take advantage of this 
opportunity.
    Mr. Chairman and members of the committee, we strongly recommend 
adding these areas to S. 2581 and we thank you for accepting our 
testimony. We would also like to thank Senators Byrd and Rockefeller 
for their leadership and ongoing commitment to keeping West Virginia 
Wild and Wonderful.
                                 ______
                                 
              International Mountain Bicycling Association,
                                          Boulder, CO, May 6, 2008.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: On behalf of the International Mountain 
Bicycling Association (IMBA), I write to offer comments on H.R. 5151--
the Wild Monongahela Act.
    IMBA was founded in 1988 and leads the national and worldwide 
mountain bicycling communities through a network of 80,000 individual 
supporters and 750 affiliated clubs. More than 39 million Americans 
participated in singletrack bicycling and 7.6 million were 
``enthusiasts'' of the sport in 2004, according to the Outdoor Industry 
Association. Nationwide, IMBA members and affiliated clubs conduct 
close to 1,000,000 hours of volunteer trail and advocacy work annually 
and are some of the best assistants to federal, state, and local land 
managers. IMBA teaches sustainable trailbuilding techniques and has 
become a leader in trail design, construction, and maintenance. We 
promote responsible riding, volunteer trail work and cooperation among 
trail user groups and land managers.
    We think it is important to protect remote and wild areas and 
support Wilderness. We also think it is vitally important to provide 
opportunities for healthy, human-powered outdoor activities with 
minimal environmental impact. Mountain biking is such an activity. We 
will support land use designations that meet the needs of both 
bicyclists and the environment.
    Unfortunately, federal agency interpretation of the 1964 Wilderness 
Act bans bicycle access. Every time a congressional Wilderness bill is 
proposed, cyclists risk losing access to trails they have ridden for 
years. Further, they lose the potential to build new trails or expand 
bicycling access in these lands in perpetuity. IMBA members take 
Wilderness bills very seriously and want to be at the table to help 
craft land protection legislation. For this reason, bicyclists seek 
modifications of Wilderness proposals that will protect the land while 
continuing to allow this quiet, low-impact, human-powered recreation on 
existing trails. When conflict exists, IMBA suggests boundary 
adjustments, non-Wilderness trail corridors, grandfathering in our 
existing use, or other land protections such as National Protection 
Areas, National Conservation Areas or National Scenic Areas.
    Regarding the Wild Monongahela Act, IMBA is very concerned about 
the area known as Dolly Sods North and urges a National Scenic Area 
designation be used to protect the lands in that area. Dolly Sods North 
contains 22.3 miles of high quality looping backcountry trails and is 
currently a popular mountain bike destination. It has been a popular 
mountain bike destination since the introduction of the first mass-
produced mountain bicycles in the early 1980's. The West Virginia 
Mountain Bike Association (WVMBA) began doing trail maintenance on the 
trails in Dolly Sods North in the early 1990's and has continued trail 
maintenance to this day. In addition, WVMBA has sanctioned competitive 
events in Dolly Sods North under a Special Use Permit from the 
Monongahela National Forest and contributed trail maintenance as part 
of these agreements.
    The table below reflects current estimates of trails and mileages 
in the area of Dolly Sods North, affected the Wild Monongahela Act. It 
may not be exhaustive, but is a good faith effort to try to identify 
all the trails open and ridden by mountain bikers. There are more 
trails and railroad grades that are not system trails that exist and 
are currently used by the public that are not listed here and have not 
been inventoried by any organization or agency. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    IMBA is concerned that restricting access for bikes in Dolly Sods 
North would block access to and from adjoining trails near Timberline 
Four Seasons Resort, Canaan Valley National Wildlife Refuge, Canaan 
Valley State Park, Forest Service Road #19 and other areas of the 
Monongahela National Forest. All these areas see significant ridership 
and draw mountain bike visitors from throughout the nation. These 
access restrictions could significantly harm the economy of Canaan 
Valley, Davis and Tucker County, West Virginia.
    IMBA proposes using a National Scenic Area designation for the 
Dolly Sods North area. On many occasions, Congress has used National 
Scenic Areas to protect and preserve wild lands yet allow for 
significant and environmentally sound recreation. Most recently, an 
NSA-type designation was used in the Virginia Ridge and Valley Act to 
allow continuing access to a popular mountain bike riding area, but 
also afford wild lands more protection from extractive and motorized 
uses. Overall, this alternative will preserve access to trails in Dolly 
Sods North as well as provide ample protections for important wild 
lands in West Virginia.
    In addition to Dolly Sods North, mountain bikers are concerned 
about several other areas. The following is a list of trails impacted 
in Roaring Plains West and the Cranberry Expansion. Boundary 
adjustments or ``cherry stems'' for these routes would mitigate 
unnecessary restrictions on bicycle access.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The remaining areas in the bill are all acceptable to IMBA and the 
WVMBA. Moreover, we are especially grateful to Chairman Rahall and the 
other sponsors for including language requiring the Forest Service to 
develop a plan to provide for enhanced non-motorized recreation trail 
opportunities on lands not designated as wilderness within the 
Monongahela National Forest. We understand that this plan may identify 
replacement trails for those lost to Wilderness designations by this 
Act, as well as improve the maintenance and sustainability of existing 
trails. The West Virginia mountain biking community is counting on the 
Forest Service and the sponsors to follow through on this trail 
improvement effort. IMBA supports these provisions and urges the 
committee retain them in any Senate-passed version of the bill.
    Thank you for the opportunity to submit comments on this important 
Wilderness bill. IMBA looks forward to working with the committee and 
its members.
            Sincerely,
                                                 Jenn Dice,
                                       Government Affairs Director.
                                 ______
                                 
 Statement of the Alaska Center for the Environment; Alaska Wilderness 
    League; Alaska Wildlife Alliance; American Birding Association; 
American Bird Conservancy; Blue Goose Alliance; Defenders of Wildlife; 
Earthjustice; Environment America; Friends of Alaska National Wildlife 
     Refuges; Natural Resources Defense Council; National Wildlife 
   Federation; National Wildlife Refuge Association; Northern Alaska 
Environmental Center; Republicans for Environmental Protection; Sierra 
  Club; Trustees for Alaska; The Wilderness Society; Wilderness Watch
    On April 15, the Senate Energy and Natural Resources Committee will 
hear testimony on S. 1680, a proposed land exchange that would remove 
Wilderness protection from 206 acres of critical wildlife habitat on a 
narrow wetland isthmus between the Izembek and Kinzarof Lagoons in 
order to build a proposed road. The above mentioned organizations 
oppose the road proposal, introduced by Sens. Murkowski and Stevens, 
and respectfully request that this letter stating our objection be 
included in the hearing record.
    The proposed road is not needed. The bill claims the road is 
necessary to address the transportation, health, and safety needs of 
King Cove. Congress addressed those needs in 1998, when it passed the 
King Cove Health and Safety Act. That legislation provided $37.5 
million to upgrade King Cove's medical facilities, purchase a 
hovercraft to provide regular ferry and emergency medical service 
between King Cove and Cold Bay, construct new marine terminals, and 
build an unpaved road between the town of King Cove and the connecting 
marine terminal.
    The hovercraft is working. Hovercraft service began regular 
training runs in February 2007, and commenced full-time operation on 
August 7, 2007. By all accounts, the hovercraft service has met every 
medical evacuation need of the King Cove community since it began its 
first training runs in February 2007. The proposed road would cost U.S. 
taxpayers many more millions of dollars--for a solution that would be 
far less safe and more uncertain than the hovercraft already has proven 
to be in regular operation.
    The land swap would sacrifice quality--206 acres of critical, 
internationally recognized wildlife habitat--for quantity. A road 
through the ecologically fragile tundra and wetlands that comprise the 
isthmus would sever the ecological heart of the protected Wilderness of 
the Izembek National Wildlife Refuge. The 61,000 acres of proposed 
exchange lands do not offer comparable protection or habitat for the 
important wildlife species at Izembek and for the designated Wilderness 
that would be lost or irreparably harmed by the construction of a road.
    When Congress passed the King Cove Health and Safety Act in 1998, 
the law specifically prohibited a road through Izembek's federally 
protected Wilderness. The current proposals seek to overturn Congress' 
explicit intent to protect the Refuge. The Refuge was created to 
conserve fish and wildlife populations and their habitats. The wildlife 
values of Izembek National Wildlife Refuge are globally significant, 
and should not be compromised.
    A road through Wilderness is not compatible with the purposes for 
which Congress created the Izembek National Wildlife Refuge. The Refuge 
was created to conserve fish and wildlife populations and their 
habitats; to fulfill the United States' international treaty 
obligations (such as the four migratory bird treaties and the 
Convention on Wetlands of International Importance); to provide for 
continued subsistence by local residents; and to ensure water quality 
and quantity within the refuge.
    We appreciate your consideration of this letter and, again, ask 
that it be inserted into the hearing record.
                                 ______
                                 
 Statement of Raymond Watson, Chairman, Association of Village Council 
                         Presidents, Bethel, AK
    As the recognized tribal organization and non-profit Alaska Native 
regional corporation, for our 56 member indigenous Native villages 
within Western Alaska, the Association of Village Council Presidents 
(AVCP) continues to have an active interest and concern regarding the 
development of a road between the communities of King Cove and Cold Bay 
in the Izembek National Wildlife Refuge and designated Wilderness area. 
In 1998, AVCP opposed H.R. 2259, another proposal to build a road 
between King Cove and Cold Bay, and our position has not changed 
regarding such a proposal.
    Attached you will find a resolution* that AVCP and the Waterfowl 
Conservation Committee (WCC) passed in 1998 opposing H.R. 2259 which 
would have allowed a road to be developed from King Cove to Cold Bay. 
Again our position has not changed regarding this matter. Our primary 
interest and concern involves the critical habitat for black brant and 
other subsistence waterfowl species that utilize the Izembek Refuge 
area for staging and feeding during their long and treacherous spring 
and fall migrations.
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    The people of the Yukon-Kuskokwim Delta (Y-K Delta) are primary 
stakeholders of waterfowl resources, as our customary and traditional 
subsistence uses of birds have long sustained us both nutritionally and 
culturally. Our people and communities have sacrificed years of 
subsistence hunting and egg gathering to allow the Pacific black brant 
population to recover to where it is today from decades of habitat 
destruction along the Pacific Flyway. To this end, we have worked 
cooperatively with the U.S. Fish and Wildlife Service, the Alaska 
Department of Fish and Game and many other state game agencies within 
the Pacific Flyway to develop and pursue recovery efforts. After these 
years of effort and sacrifice toward restoration of the black brant 
population, it would be a step in the wrong direction and would no 
doubt undermine our efforts to build a road that would impact critical 
black brant and other subsistence waterfowl habitat--Surely a road 
constructed through their wilderness habitat will have detrimental 
effects on their ability to gather the essential nutrients to continue 
their spring and fall migration.
    Title VIII of the Alaska National Interest Lands Conservation Act 
(ANILCA) sets a priority for subsistence uses of fish and wildlife on 
federal lands in Alaska. The federal government thus has a legal 
obligation to protect subsistence, as embodied in Title VIII of ANILCA. 
In the agency's 1987 Comprehensive Conservation Plan (CCP) for Izembek 
Refuge the U.S. Fish and Wildlife Service acknowledges that building a 
road through Izembek, ``. . . would likely result in significant 
adverse impacts to caribou, waterfowl, and furbearer populations,'' 
which, in turn, ``. . . could result in major, longterm impacts to 
subsistence.'' It is for this reason that we can not support the bill 
before you today, H.R. 2801. The U.S. Fish and Wildlife Service would 
not be fulfilling its legal obligations regarding subsistence and would 
undermine the years of work that have gone into restoring the black 
brant population by agreeing to move forward with the proposed land 
exchange and road development project.
    For these reasons, we urge members of the House Natural Resources 
committee to vote against H.R. 2801. The enclosed resolution further 
clarifies the reasoning behind our opposition to any roads being 
constructed through this important feeding and staging area for our 
waterfowl.
    Thank you for considering our views in this matter.
                                 ______
                                 
  Statement of Tom Irwin, Commissioner, Alaska Department of Natural 
                         Resources, on S. 1680
    The State of Alaska supports S 1680, legislation that would 
authorize a land exchange between the State of Alaska, the U.S. Fish 
and Wildlife Service and King Cove Corporation to secure road access 
between the Alaskan communities of King Cove and Cold Bay. These 
communities are located on the Alaska Peninsula and are accessible only 
by air or water.
    A priority for the Agdaagux Tribe of King Cove, the City of King 
Cove and the Aleutians East Borough is to construct a 27-mile road to 
Cold Bay, through the Izembek National Wildlife Refuge, to access the 
larger and safer airport at Cold Bay.
    This overland link is necessary because both air and water access 
to King Cove is treacherous in the frequent stormy weather so common on 
the lower Alaska Peninsula. Cold Bay has a much larger, safer airport 
and the residents of King Cove need reliable access to the Cold Bay 
airport facility for health and safety, including emergency medical 
evacuations. A combination road and hovercraft system, established 
under the King Cove Health and Safety Act passed by Congress several 
years ago, has not safely nor efficiently resolved access problems.
    The need for this road link has been identified in land and 
transportation plans for at least twenty-five years, including the 
Alaska Department of Transportation's Southwest Alaska Transportation 
Plan, adopted in 2004.
    The land exchange would add valuable and significant acreage to the 
Izembek and Alaska Peninsula National Wildlife Refuges. Much of the 
land that would be added to the refuges is currently owned by the State 
of Alaska. Specifically, the State of Alaska is offering to exchange 
43,093 acres, or all of the state-owned land contained in two townships 
located northeast of Izembek Refuge, in exchange for a 206 acre 
casement dedicated to the State of Alaska, through the Izembek National 
Wildlife Refuge and Wilderness. The undeveloped state land being 
offered to the Refuge is surrounded on three sides by refuge lands and 
is habitat for brown bears and caribou. This state land includes the 
lower portion of the Cathedral River, which drains the western flanks 
of Pavlof Volcano. It is de facto wilderness land. This state land was 
included in a recent state oil and gas lease sale, although no bids 
were received on these tracts.
    The 7,900 acres being offered to the Izembek Refuge by King Cove 
Corporation includes valuable waterfowl habitat that straddles Kinzarof 
Lagoon at the head of Cold Bay. This land is an inholding within the 
existing Izembek Wilderness area. The Corporation is also offering to 
sell an additional 10,800 acres of private lands to the U.S. Fish and 
Wildlife Service for the Refuge.
    The road easement that the state would acquire will run 
approximately 13 miles through the Izembek National Wildlife Refuge. 
More than half of this road already exists as primitive roads that were 
originally built during World War II. The total length of new road 
through the Wilderness area is 6.3 miles. The exact location of the 
easement will be determined in consultation with the U.S. Fish and 
Wildlife Service.
    The combined offers from the State of Alaska and the King Cove 
Corporation would add 51,000 acres to the Izembek and Alaska Peninsula 
National Wildlife Refuges. All of the state land that is being offered 
in this exchange would be designated Wilderness by this legislation.
    The state would acquire approximately 206 acres that encompass the 
road. The state would also acquire a 1,600-acre federal inholding on 
Sitkinak Island, a predominantly state-owned island located south of 
Kodiak Island.
    The State of Alaska recognizes the unique value of the Izcmbek 
National Wildlife Refuge. In 1972, the Alaska Legislature set aside the 
state-owned tidelands within Izembek Lagoon and adjacent offshore state 
lands as a State Game Refuge. These state lands contain eel grass beds 
that are the very heart of Izembek Refuge.
    As part of this proposal, the state would add more than 4,000 acres 
of state-owned tidelands in Kinzarof Lagoon, at the head of Cold Bay, 
to the State Game Refuge. The exchange will require approval by our 
state legislature as the state lands are quite likely of unequal, but 
greater, fair market value that the federal lands being exchanged.
    The state is well aware of concerns expressed by various groups who 
are opposed to this legislation. Some are concerned about the precedent 
set by building a road through a Wilderness Area. Yet, when the Alaska 
National Interest Lands Conservation Act was passed in 1980, Congress 
specifically recognized that transportation facilities may be needed 
across the 58 million acres of federal Wilderness lands in Alaska. The 
Alaska Lands Act requires Congressional approval for such 
transportation corridors through Wilderness.
    There are also concerns about increased public access to the refuge 
wilderness. The refuge and wilderness area are already accessible from 
Cold Bay by existing local roads. Through planning and enforcement of 
existing refuge regulations, the impacts of the limited number of new 
users from King Cove can be mitigated.
    The State of Alaska supports this legislation and stands ready to 
commit over 43,000 acres of state land to the National Wildlife Refuge 
and Wilderness system. We urge the Committee to approve this bill.
    Thank you for the opportunity to comment on this legislation.
                                 ______
                                 
        Supporters of the Virginia Ridge and Valley Act of 2007
                         h.r. 1011 endorsements
Elected Officials
  <bullet> Senator John Warner
  <bullet> Senator Jim Webb
  <bullet> Congressman Rick Boucher
  <bullet> Congressman Tom Davis
  <bullet> Congresswoman Jo Ann Davis (deceased)
  <bullet> Congressman James Moran
  <bullet> Congresswoman Grace Napolitano
  <bullet> Congressman Bobby Scott
  <bullet> Congressman Frank Wolf
  <bullet> Governor Tim Kaine
  <bullet> Governor Mark Warner (endorsed 2005 bill)
  <bullet> John Moffo, Montgomery County Board of Supervisors
  <bullet> Rupert Cutler, former member Roanoke City Council and former 
        Assistant Secretary of Agriculture
Local Governing Bodies
  <bullet> Bland County Board of Supervisors/Resolution for areas in 
        Bland County
  <bullet> Craig County Board of Supervisor/Resolution for areas in 
        Craig County
  <bullet> Montgomery County Board of Supervisors/Resolution for area 
        in Montgomery County
  <bullet> Smyth County Board of Supervisor/Resolution for areas in 
        Smyth County
Local Businesses
  <bullet> Archaeological & Cultural Solutions, Inc./Williamsburg/Alain 
        Outlaw
  <bullet> Body Balance/Wytheville/Susan Thomasally
  <bullet> Books & Company/Lexington/Anna Lisa Fitzgerald
  <bullet> Bowman Environmental Services, LLC/Daniel Bowman
  <bullet> Cooper Cress Stables/Wytheville/Pam Umberger
  <bullet> Cregger Stables/Smyth County/Doug Cregger
  <bullet> Blue Ridge Mountain Sports
      Charlottesville
      Virginia Beach
      Nellysford
      Glen Allen
      Richmond
      Williamsburg
  <bullet> Blue Ridge Outdoors/Blacksburg
  <bullet> Blue Ridge Outdoors/Roanoke/Bill Wilson--President
  <bullet> Fern Hill Furniture Works, LLC/John Casteen--Owner
  <bullet> Fox Hill Inn/Troutdale/Mark and James Holmes
  <bullet> Galax Storage/Wythe County/Mark and Cathy Stanley
  <bullet> Healthy Handmade Shoes/Rockbridge County/Glenn Leisure--
        Owner
  <bullet> Hunter's Den/Craig County/Ellen Horn--Owner
  <bullet> JR's Outdoor Gear/Danville
  <bullet> Jamont Communications/Boyd Johnson
  <bullet> Kissingrock Camp/Looney Cabin/Annie Malone
  <bullet> Lexington Bicycle Shop/Andy Hunter
  <bullet> Monticello Country Ballooning/Charlottesville/Amanda Baskin
  <bullet> Mount Rogers Outfitters/Damascus
  <bullet> M&W Flower Shop/Chatham Virginia
  <bullet> North End Cyclery/Virginia Beach/Eric Koehn
  <bullet> Nutmeg Glass/Rockbridge County/Margaret Carroll
  <bullet> Outdoor Trails/ Roanoke and Lynchburg
  <bullet> Ray Home Improvement/Lexington/George Ray
  <bullet> Shenandoah Bicycle Shop
  <bullet> Social Butterflies/Charlottesville/Linda Marchman
  <bullet> Sole Source/Harrisonburg
  <bullet> Southwest Imports/Wytheville/Donna Muhly
  <bullet> Still Point Press/Charlottesville/Kristin Adolfson
  <bullet> Sunday's Child/Lexington/Lucia Owens
  <bullet> The Bookery/Lexington/Marysue Forrest
  <bullet> Tidewater Sea Urchins/Norfolk/Richard Tarr
  <bullet> Tom Lavelle Veterinary Service/Wythe County
  <bullet> Treehuggers Outdoors/Wytheville/Ian Fiorini--Owner
  <bullet> White House on Jackson Bed & Breakfast/Lexington/Bob Lera
  <bullet> Wild River Outfitters/Virginia Beach/Lillie Gilbert
Tourism Officials, Garden Clubs, Trail Clubs and Outdoor Clubs
  <bullet> Virginia Tourism Corporation
  <bullet> Scenic Virginia

  <bullet> Garden Club of Virginia
  <bullet> Augusta Garden Club/ Staunton, Virginia
  <bullet> Franklin Garden Club/ Franklin, Virginia
  <bullet> Gabriella Garden Club/ Danville, Virginia
  <bullet> Garden Club of the Eastern Shore/ Eastville, Virginia
  <bullet> Martinsville Garden Club
  <bullet> Mill Mountain Garden Club/ Roanoke, Virginia
  <bullet> Nansemond River Garden Club/ Suffolk, Virginia
  <bullet> Roanoke Valley Garden Club
  <bullet> Shenandoah Chapter of the Virginia Native Plants Society

  <bullet> Appalachian Trail Conference for areas that include the 
        Appalachian Trail
  <bullet> Devil's Fork Trail Club
  <bullet> Outdoor Adventure Social Club
  <bullet> Piedmont Appalachian Trail Hikers
  <bullet> Roanoke Appalachian Trail Club
  <bullet> Southern Shenandoah Valley Chapter of Potomac Appalachian 
        Trail Club
Local Organizations
  <bullet> Citizens for the Preservation of Craig County/Ellen Coleman
  <bullet> Citizens of Lee Environmental Action Network
  <bullet> Citizens Task Force
  <bullet> Coalition for Job and the Environment
  <bullet> Goshen Alliance
  <bullet> Greater Lynchburg Environmental Council
  <bullet> Ivy Creek Foundation
  <bullet> Jackson River High School Outing Club
  <bullet> Jefferson Chapter of the VA Native Plants Society
  <bullet> Kiwanis Club of Lexington
  <bullet> Living Education Center for Ecology and the Arts
  <bullet> Mountain Heritage Alliance
  <bullet> Patrick Environmental Awareness Group
  <bullet> Preston Forest Homeowners Association/Montgomery County/
        Adjacent land owners
  <bullet> Rockbridge Area Conservation Council
  <bullet> Rockbridge County Greens
  <bullet> Sierra Club, Blue Ridge Group
  <bullet> Sierra Club, New River Group
  <bullet> Taking Responsibility for the Earth and Environment
  <bullet> The Clinch Coalition
  <bullet> The Wilderness Conservancy at Mountain Lake/Giles County/
        Dave Deshler
  <bullet> Upper James River Chapter of the Virginia Native Plants 
        Society/ Buena Vista
  <bullet> Wild Virginia
  <bullet> Wythe Conservation Network
State Organizations
  <bullet> 500-Year Forest Foundation
  <bullet> Piedmont Environmental Council
  <bullet> The Nature Conservancy, Virginia Chapter
  <bullet> Virginia Audubon Council
  <bullet> Virginia Conservation Network
  <bullet> Virginia Council of Trout Unlimited
  <bullet> Virginia Forest Watch
  <bullet> Virginia Native Plant Society
  <bullet> Virginia Sierra Club
  <bullet> Virginia Society of Ornithology
  <bullet> Virginia Wilderness Committee
Faith Groups
  <bullet> Committee on Stewardship of the Creation, Episcopal Diocese 
        of Virginia
  <bullet> Charlottesville Friends Meeting Peace and Social Concerns 
        committee
  <bullet> Louisa County Worship Group
  <bullet> Maury River Friends Peace and Social Justice Committee
  <bullet> Midlothian Friends Meeting Peace and Social Justice 
        Committee
  <bullet> Trinity Presbyterian Restoring Creation House Church/
        Harrisonburg/Lynn Cameron
Petitions Signed and Mailed to Legislators
  <bullet> Blue Ridge Mountain Sports--828 signers
  <bullet> Banff Mountain Festival at UVA Darden School--67 signers
  <bullet> Southern Appalachian Forest Coalition--115 signers
Individuals Endorsing the 2004 Bill
  <bullet> Shirley Blackwell/Marion
  <bullet> Chris Bolgiano/Author
  <bullet> Jim Bradley/Bearhunter/Craig County
  <bullet> Paul Cabe/Board member Virginia Society of Ornithology/ 
        Lexington, Virginia
  <bullet> Sharon Cooper/Wytheville
  <bullet> Jerry and Carrie Crawford/Bearhunters/Craig County
  <bullet> Thomas W. Crockett/Gloucester
  <bullet> Linda Danner/Marion
  <bullet> Tom Davenport/Damascus
  <bullet> Lynn C. Euse/Stuarts Draft
  <bullet> Bart Fiegley/Marion
  <bullet> Bob Fener/Long Mountain Center/Amherst
  <bullet> Robert French/ Member Virginia Forestry Association/
        Earlysville
  <bullet> William Garlett/Newport News
  <bullet> Steven Hassett/Member Republican National Committee/Virginia 
        Beach
  <bullet> Alan and Gloria Heath/Blacksburg
  <bullet> Ruth Ann Herring/Lexington/Herring Real Estate Office
  <bullet> Than and Mary Ann Hitt/Blacksburg
  <bullet> John W. Holman
  <bullet> Holly Hueston/Charlottesville
  <bullet> Alice and Bill Hurleboss/PATH members/Marion
  <bullet> Ann Hurt/Garden Club of Virginia
  <bullet> David Jenkins/Blacksburg
  <bullet> Susan Lapis/Southwings Pilot/Abingdon
  <bullet> Laurie Maitre & Bill Ross/Arrington
  <bullet> Claire McBrien/Wythe County/Ecological Educator
  <bullet> Andrew McCarthy/Alexandria
  <bullet> Jennifer Meyer/Charlottesville
  <bullet> Dan Meyers/Lighthawk Pilot/Alexandria
  <bullet> Steve Montgomery/Williamsburg
  <bullet> Nagal Nassau/Charlottesville
  <bullet> Elizabeth Obenshain/Blacksburg
  <bullet> Travis Overstreet/Climbing Coordinator/Odyssey Adventure 
        Racing
  <bullet> Sharon Ratliffe/Wytheville
  <bullet> Mary Rhoades/Blacksburg
  <bullet> Nathan Richards/Barboursville
  <bullet> John Saunders/Marion
  <bullet> Jim Sexton/Chesapeake
  <bullet> Michael Shackelford/Charlottesville
  <bullet> Ethan Tabor/Blacksburg
  <bullet> Nicole Trask/Danville
  <bullet> Sandra Trask/Charlottesville
  <bullet> Gail N. Vernon/Marion
  <bullet> John Votta/Richmond
  <bullet> Gerald Watts/Palmyra
  <bullet> Travis Weaver/Waynesboro
  <bullet> Dave and Lindsay West/Blacksburg
  <bullet> Lu and Larry Wilhite/Wythe County/Larry is a retired USFS 
        employee
National and Regional Organizations
  <bullet> Appalachian Voices
  <bullet> Blue Ridge Environmental Defense League
  <bullet> Campaign for America's Wilderness
  <bullet> Scenic America
  <bullet> Southern Appalachian Forest Coalition
  <bullet> Southern Environmental Law Center Southwings
  <bullet> The Wilderness Society
  <bullet> Wilderness Support Center
  <bullet> Wildlaw
International Organizations
  <bullet> International Mountain Bicycling Association

                                    

      

</pre></body></html>
